<html>
<title> - INTEROPERABILITY FOR PUBLIC SAFETY RADIO EQUIPMENT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                      INTEROPERABILITY FOR PUBLIC
                         SAFETY RADIO EQUIPMENT

=======================================================================

                                HEARINGS

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               ----------                              

                              MAY 27, 2010
                                  and
                           SEPTEMBER 23, 2010

                               ----------                              

                           Serial No. 111-97
                                  and
                           Serial No. 111-110

                               ----------                              

     Printed for the use of the Committee on Science and Technology





                      INTEROPERABILITY FOR PUBLIC
                         SAFETY RADIO EQUIPMENT

=======================================================================

                                HEARINGS

                               BEFORE THE

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 27, 2010
                                  and
                           SEPTEMBER 23, 2010

                               __________

                           Serial No. 111-97
                                  and
                           Serial No. 111-110

                               __________

     Printed for the use of the Committee on Science and Technology


     Available via the World Wide Web: http://www.science.house.gov

                                 ______

                  U.S. GOVERNMENT PRINTING OFFICE
57-175                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="4423342b04273137302c2128346a272b296a">[email&#160;protected]</a>  

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
STEVEN R. ROTHMAN, New Jersey        MICHAEL T. McCAUL, Texas
JIM MATHESON, Utah                   MARIO DIAZ-BALART, Florida
LINCOLN DAVIS, Tennessee             BRIAN P. BILBRAY, California
BEN CHANDLER, Kentucky               ADRIAN SMITH, Nebraska
RUSS CARNAHAN, Missouri              PAUL C. BROUN, Georgia
BARON P. HILL, Indiana               PETE OLSON, Texas
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
JOHN GARAMENDI, California
VACANCY
                                 ------                                

               Subcommittee on Technology and Innovation

                      HON. DAVID WU, Oregon, Chair
DONNA F. EDWARDS, Maryland           ADRIAN SMITH, Nebraska
BEN R. LUJAN, New Mexico             JUDY BIGGERT, Illinois
PAUL D. TONKO, New York              W. TODD AKIN, Missouri
HARRY E. MITCHELL, Arizona           PAUL C. BROUN, Georgia
GARY C. PETERS, Michigan                 
JOHN GARAMENDI, California               
BART GORDON, Tennessee               RALPH M. HALL, Texas
                HILARY CAIN Subcommittee Staff Director
        MEGHAN HOUSEWRIGHT Democratic Professional Staff Member
            TRAVIS HITE Democratic Professional Staff Member
            HOLLY LOGUE Democratic Professional Staff Member
           MATT McMAHON Democratic Professional Staff Member
           MELE WILLIAMS Republican Professional Staff Member
           JULIA JESTER Republican Professional Staff Member
                  VICTORIA JOHNSTON Research Assistant


                            C O N T E N T S

                   Interoperability in Public Safety 
                        Communications Equipment

                            February 3, 2010

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................     8
    Written Statement............................................     9

Statement by Representative Adrian Smith, Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    10
    Written Statement............................................    10

                               Witnesses:

Dr. David Boyd, Director, Command, Control and Interoperability 
  Division, Science and Technology Directorate, Department of 
  Homeland Security (DHS)
    Oral Statement...............................................    11
    Written Statement............................................    13
    Biography....................................................    16

Mr. Dereck Orr, Program Manager, Public Safety Communications 
  Systems, National Institute of Standards and Technology (NIST)
    Oral Statement...............................................    17
    Written Statement............................................    19
    Biography....................................................    25

Dr. Ernest L. Hofmeister, Senior Scientist, Harris Corporation
    Oral Statement...............................................    25
    Written Statement............................................    27
    Biography....................................................    34

Mr. John Muench, Director of Business Development, Motorola Inc.
    Oral Statement...............................................    35
    Written Statement............................................    36
    Biography....................................................    43

Chief Jeffrey D. Johnson, President, International Association of 
  Fire Chiefs, and Chief, Tualatin Valley Fire and Rescue, Aloha, 
  Oregon
    Oral Statement...............................................    43
    Written Statement............................................    45
    Biography....................................................    46

             Appendix 1: Answers to Post-Hearing Questions

Dr. David Boyd, Director, Command, Control and Interoperability 
  Division, Science and Technology Directorate, Department of 
  Homeland Security (DHS)........................................    68

Mr. Dereck Orr, Program Manager, Public Safety Communications 
  Systems, National Institute of Standards and Technology (NIST).    72

Dr. Ernest L. Hofmeister, Senior Scientist, Harris Corporation...    74

Mr. John Muench, Director of Business Development, Motorola Inc..    81

             Appendix 2: Additional Material for the Record

Statement for the Record from Skyterra Communications............    86

                            C O N T E N T S

Progress on P25: Furthering Interoperability and Competition for Public 
                         Safety Radio Equipment

                           September 23, 2010

Witness List.....................................................    90

Hearing Charter..................................................    91

                           Opening Statements

Statement by Representative David Wu, Chairman, Subcommittee on 
  Technology and Innovation, Committee on Science and Technology, 
  U.S. House of Representatives..................................    97
    Written Statement............................................    97

Statement by Representative Judy Biggert, Acting Ranking Minority 
  Member, Subcommittee on Technology and Innovation, Committee on 
  Science and Technology, U.S. House of Representatives..........    98
    Written Statement............................................    99

Prepared Statement by Representative Harry E. Mitchell, Member, 
  Subcommittee on Technology and Innovation, Committee on Science 
  and Technology, U.S. House of Representatives..................    99

                               Witnesses:

Mr. Tom Sorley, Deputy Director, Radio Communication Services, 
  City of Houston Information Technology Department
    Oral Statement...............................................   100
    Written Statement............................................   101
    Biography....................................................   111

Ms. Ellen O'Hara, President, Zetron
    Oral Statement...............................................   112
    Written Statement............................................   114
    Biography....................................................   117

Mr. Marvin Ingram, Senior Director, Arinc, Public Safety 
  Communications
    Oral Statement...............................................   117
    Written Statement............................................   119
    Biography....................................................   121

Mr. Russ Sveda, Manager of the Radio Technical Service Center, 
  Department of the Interior
    Oral Statement...............................................   122
    Written Statement............................................   123
    Biography....................................................   124

              Appendix: Additional Material for the Record

Letters to Chairman David Wu and Representative Adrian Smith from 
  John Suzuki, Senior Vice President of Sales, EF Technologies, 
  Inc., dated September 22, 2010.................................   132


       INTEROPERABILITY IN PUBLIC SAFETY COMMUNICATIONS EQUIPMENT

                              ----------                              


                         THURSDAY, MAY 27, 2010

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                     U.S. HOUSE OF REPRESENTATIVES

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                   Interoperability in Public Safety

                        Communications Equipment

                         thursday, may 27, 2010
                        10:00 a.m. 0912:00 p.m.
                   2318 rayburn house office building

I. Purpose

    Communication among first responders is essential in emergency 
response. Recent disasters, including 9/11 and the 1999 Columbine High 
School shooting, have illustrated the communication problems that can 
occur when multiple agencies respond to a disaster. Compatible 
technology is critical to enabling interoperability, or the ability of 
first responders to communicate with their counterparts from other 
agencies and jurisdictions. For two decades, the public safety 
community, private industry, and the Federal Government have been 
working on technical standards that will ensure that digital land 
mobile radio (LMR) systems from different vendors are interoperable. 
The purpose of this hearing is to discuss the status of these standards 
and the interoperability capabilities of public safety LMR equipment.

II. Witnesses

        <bullet>  Dr. David Boyd, Director, Command, Control & 
        Interoperability, Science and Technology Directorate, 
        Department of Homeland Security

        <bullet>  Mr. Dereck Orr, Program Manager, Public Safety 
        Communications Systems, National Institute of Standards and 
        Technology

        <bullet>  Dr. Ernest L Hofmeister, Senior Scientist, Harris 
        Corporation

        <bullet>  Mr. John Muench, Director of Business Development, 
        Motorola Inc.

        <bullet>  Chief Jeffrey D. Johnson, President, International 
        Association of Fire Chiefs, and Chief, Tualatin Valley Fire and 
        Rescue, Aloha, Oregon

III. Brief Overview

    The public safety community has long recognized the challenge of 
providing for interoperable communications. Enabling first responders 
from different agencies and jurisdictions to communicate requires not 
only cooperation and planning, but also compatible technology. However, 
without common standards, there is no assurance that a manufacturer's 
proprietary systems will interoperate with its competitors' systems.
    Since 1989, representatives from public safety, industry, and the 
government have been working together to develop common standards 
(known as the ``P25'' standards). The purpose of these standards is not 
only to ensure interoperability, but also to promote market 
competition, spectrum efficiency, and an easy transition from analog to 
digital radio systems.
    Much progress has been made on these standards since 1989 and P25 
radios and radio systems are now available. However, not all of the 
standards originally called for have been completed. As more public 
safety agencies make significant investments in radio systems, it is 
important to assess the status of the process and understand its impact 
on public safety.
    In addition to the development of standards, assessing the 
compliance of P25 radios with the standards is critical for ensuring 
the investment made by governmental agencies will meet the expectations 
of the P25 process. Currently, there is no formal mechanism within the 
existing P25 process for validating that products claiming P25 
compliance are in fact built correctly to the standards. The Department 
of Homeland Security (DHS) Compliance Assessment Program (CAP), a 
voluntary testing program, provides an alternative verification 
mechanism and is therefore an important tool for public safety in 
making equipment procurement decisions. However, the CAP currently does 
not require all of the testing that was originally envisioned.

IV. Background

Lack of Interoperability
    The lack of communications interoperability has posed significant 
challenges in the response to large-scale disasters, such as the 1995 
Oklahoma City Bombing, the 2001 attack on the World Trade Center in New 
York City, and Hurricane Katrina in 2005. At the scene of the Oklahoma 
City bombing, fragmented communication frequencies and conflicting 
standards prevented police and fire agencies from communicating with 
the National Guard, Federal Emergency Management Agency, and other 
Federal agencies. Lack of interoperability contributed to the chaos and 
tragedy of 9/11 when some 200 firefighter did not receive a message 
broadcast on NYPD radio channels that the collapse of the first tower 
was imminent. And, in the days immediately following Hurricane Katrina, 
local and Federal agencies could not talk to one another. For example, 
first responders in helicopters were unable to communicate with crews 
patrolling in boats, hampering rescue efforts. Even the response to the 
Columbine High School shooting was hindered by a lack of interoperable 
equipment. Nearly 1,000 first responders from different agencies 
arrived on the scene but the lack of interoperability prevented them 
from being able to adequately assess the situation and the threat 
level, slowing the response. In these situations, first responders had 
to use message runners, an inefficient practice that limits the flow of 
information to incident commanders.\1\
---------------------------------------------------------------------------
    \1\ Tristan Weir, Federal Policy Toward Emergency Responder 
Interoperability: A Path Forward. Thesis submitted for a Masters of 
Science in Technology Policy from the Massachusetts Institute of 
Technology, 2006.
---------------------------------------------------------------------------
    Enabling interoperability requires major planning and coordination 
among the agencies and jurisdictions that may need to work together 
when responding to a disaster. However, as the examples above 
illustrate, incompatible radio systems significantly hamper 
interoperability. Technology-based causes of interoperability include 
proprietary designs or unique configurations among different radio 
systems that operate in different frequencies of the radio spectrum. 
First responder agencies have used a variety of ad-hoc solutions to 
enable interoperability, such as swapping radios or creating mutual aid 
channels, but such solutions are less efficient than systems designed 
to interoperate.

Project-25
    The process of developing open standards for digital public safety 
radios began in 1989, when the Association of Public-Safety 
Communications Officials (APCO) and the National Association of State 
Telecommunications Directors (NASTD), with the involvement of the 
Department of Justice (DOJ) and other Federal agencies, launched 
Project-25 (P25). The developers initiated P25 with the goals of having 
a user-defined and user-driven standards process that would allow for 
interoperability, multi-vendor procurement of equipment, an easy 
transition from legacy analog equipment to digital equipment, and 
greater spectrum efficiency.
    The involvement of the user community makes P25 a unique technical 
standards development process. The Telecommunications Industry 
Association (TIA), which is a standards development organization 
accredited by the American National Standards Institute (ANSI), writes 
and maintains the technical standards documents. The public safety 
community interacts with TIA's technical standards process through a 
Steering Committee. Aided by a User Needs Subcommittee, the Steering 
Committee develops the Statement of User Requirements on which the 
standards are based. Memoranda of Understanding govern the interaction 
between TIA's standards development committees and the Steering 
Committee. This interaction is further facilitated by a working 
committee between the two groups.\2\
---------------------------------------------------------------------------
    \2\ The APCO 25/34 Interface Committee (APIC), a joint subcommittee 
of the Steering Committee and the TIA Private Radio Section.
---------------------------------------------------------------------------
    Public safety LMR systems include fixed infrastructure, such as 
towers and base stations, and portable units, such as handheld and car-
mounted radios. P25 seeks to provide for standardization of eight 
interfaces where components of the LMR systems must communicate with 
each other.\3\ The first set of standards developed focused on the 
Common-Air Interface (CAI), which defines the communication protocols 
between radio transmitters and receivers. This standard is intended to 
ensure that a portable radio from one manufacturer can communicate with 
a portable radio from another manufacturer. It is crucial for overall 
interoperability between two different systems. Other standards suites 
needed for interoperability cover the interfaces between the larger 
infrastructure components. These include: \4\
---------------------------------------------------------------------------
    \3\ http://www.pscr.gov/outreach/p25dsr/menu<INF>-</INF>top/
p25<INF>-</INF>interfaces.php
    \4\ Project 25: The Quest for Interoperable Radios, Issue Brief 
from the COPS Interoperable Communications Technology Program, Dan 
Hawkins, May 2007.

        <bullet>  The Console Subsystem Interface (CSI), which defines 
        how radio frequency components of the system and console (such 
---------------------------------------------------------------------------
        as the equipment used by dispatchers) connect with one another.

        <bullet>  The Fixed Station Interface (FSI), which defines how 
        components of the radio system that are fixed in place (such as 
        base stations) connect with other components of the system.

        <bullet>  The Inter-RF subsystem Interface (ISSI), which 
        defines how different radio networks should connect with one 
        another.

    Although the P25 process began in 1989, the entire suite of 
standards for all eight interfaces is not yet complete. According to a 
2007 Government Accountability Office (GAO) report,\5\ despite spending 
over $2 billion from 2003 to 2005 on interoperability, many states were 
far from achieving that goal. GAO identified the slow rate of P25 
standards development as among the myriad factors hindering faster 
adoption of interoperable public safety communications systems. The 
report noted that the P25 standards committees took four years (from 
1989 to 1993) to develop the CAI, but that the committees developed no 
additional standards between 1993 and 2005 that could be used by 
manufactures for additional elements of a P25 compliant system.
---------------------------------------------------------------------------
    \5\ First Responders--Much Work Remains to Improve Communications 
Interoperability. GAO-07-301, April 2007.
---------------------------------------------------------------------------
    Although GAO did find that ``significant progress'' was made in 
defining the three other interfaces most critical to interoperability 
after 2005, they cited concerns from participating National Institute 
of Standards and Technology (NIST) researchers that these standards 
were still incomplete, allowing manufacturers to develop products based 
on inconsistent interpretations. Tests conducted between 2003 and 2006 
showed that these inconsistent interpretations of the standards caused 
P25 radios to fail aspects of interoperability tests.
    The 2007 GAO report further cited concerns that the lack of 
compliance testing had limited the impact of the standards process for 
digital LMR systems. Developers include compliance tests within 
standards documents to provide a mechanism to validate whether a 
product is actually built to the standard and minimize issues that 
arise with inconsistent interpretations of the standard by different 
manufacturers. Without this testing, there is no way to validate that a 
product labeled ``P25 compliant'' will perform as intended.
    In response to GAO's 2007 assessment that work on P25 had slowed 
after the CAI, TIA asserted that 114 standards and documents were in 
fact published between 1993 and 2005 and that manufacturers themselves 
had initiated compliance testing to ensure the interoperability of 
their products.\6\ However, according to the Public Safety 
Communications Research (PSCR) program,\7\ standardization for all 
eight of the P25 standards remains incomplete. According to the PSCR 
program's Project 25 Documents and Standards Reference for May 2010: 
``For most cases, a P25 interface, service, or equipment standard is 
not complete until all documents that provide the Overview, the 
Protocol Specifications, the Protocol Conformance Test Procedures, the 
Performance Measurements Methods, the Performance Recommendations, and 
the Interoperability Test Procedures are published or are approved for 
publication by the appropriate [TIA] committee.'' Although much 
progress has been made, only the ISSI has been fully completed.
---------------------------------------------------------------------------
    \6\ http://www.tiaonline.org/gov<INF>-</INF>affairs/
press<INF>-</INF>publications/documents/TIAResponsetoGAOReportonP25.pdf
    \7\ The PSCR program is housed in Boulder and is a joint effort 
between the National Institute of Standards and Technology/Office of 
Law Enforcement Standards (NIST/OLES) and the National 
Telecommunications and Information Administration/Institute for 
Telecommunication Sciences (NTIA/ITS). http://www.pscr.gov/projects/
lmr/p25<INF>-</INF>stds<INF>-</INF>dev/
p25<INF>-</INF>stds<INF>-</INF>dev.php.

Involvement by the Federal Government
    Over the past 15 years, multiple Federal agencies have addressed 
the interoperability issue, from the DOJ to the Federal Communications 
Commission (FCC). The current lead within the Federal Government is the 
Department of Homeland Security (DHS) SAFECOM program. SAFECOM provides 
technical research and development through the DHS Science and 
Technology Directorate and practitioner guidance and coordination 
through the Office of Emergency Communication.
    Although Federal agencies have been involved with P25 since it 
began, the 2004 Intelligence Reform and Terrorism Prevention Act (P.L. 
108-458) specifically directed the Secretary of Homeland Security to 
establish a program to enhance the interoperability of public safety 
communications. In addition to facilitating planning and coordination 
among all levels of government, the legislation directed the Department 
of Homeland Security to work--in consultation with NIST, the private 
sector, and others--to ``accelerate the development of national 
voluntary consensus standards for public safety interoperable 
communications.''

Compliance Assessment Program (CAP)
    As noted above, no formal mechanism exists in the P25 process to 
validate that the radio equipment meets the standards. In the report 
accompanying the FY 2006 Department of Homeland Security Appropriations 
Act (H. Rept. 109-241), Congress directed DHS to work with NIST and the 
DOJ on a P25 Conformity Assessment Program. The resulting DHS 
Compliance Assessment Program (CAP), which certifies testing 
laboratories and specifies which tests must be conducted, is a 
voluntary process for P25 equipment suppliers to show that their 
equipment meets P25 standards for ``performance, conformance, and 
interoperability.'' However, conformance assessment testing is not 
currently required, nor do CAP requirements exist for all eight 
interfaces.
    The SAFECOM Recommended Guidance for Federal Grant Programs 
requires that grant applicants using DHS funds to purchase P25 
equipment must obtain Supplier's Declaration of Compliance (SDoC) 
documents and Summary Test Reports (STR) when they purchase the 
equipment. DHS also provides a website (www.rkb.us) where manufacturers 
can post these documents.
    Conformity assessment tests whether a manufacturer has interpreted 
and implemented a standard correctly. It is more rigorous than 
interoperability and performance testing and is arguably the best 
mechanism for ensuring that manufacturers are interpreting the 
standards consistently and for ensuring that all standardized functions 
on the radio will interoperate. Finally, conformity assessment testing 
is considered important for ensuring the backwards compatibility of new 
technology that must be connected to legacy systems, sometimes as many 
as 20 years old.

Additional Issues with P25
    In addition to the concerns outlined above, GAO's 2007 assessment 
of interoperability identified two other issues preventing more 
widespread adoption of P25 equipment: (1) the lack of information and 
expertise among state and local agencies in buying equipment to meet 
their needs, and (2) the increased cost of P25 systems over 
conventional radio systems.
    Digital radios are complex and manufacturers offer many different 
features and levels of functionality. GAO noted that agencies lacked 
comparative information about product functionality and typical first 
responder requirements. In addition, P25 radio units can cost more than 
2- to 3-times the cost of conventional analog radios suitable for first 
responder use. Building an entire P25 LMR system, which is critical for 
interoperability, is also a major cost for municipalities.

700 MHZ and Public Safety Broadband Network
    The P25 standards cover interoperability for voice communications 
over digital LMR systems. With the availability of broadband, many 
public safety agencies are integrating data functions into their 
operations. Since there is no dedicated public safety broadband 
network, public safety agencies must use commercial wireless providers. 
A public safety broadband network is part of ongoing discussions on the 
use of the newly-available portions of the 700 MHz band. Public safety 
officials see the 700 band as a resource for extra voice capacity, 
broadband, and Voice-IP back-up systems. Many would like to see a 
public/private partnership build a network that would allow public 
safety priority access during an emergency but be available for 
commercial users during normal operation.
    While public safety demand for spectrum is generally less than 
network capacity in normal operations, demand can often exceed capacity 
during a crisis. A public/private network would potentially allow for a 
more efficient use of resources, but commercial providers have been 
hesitant to commit to the extra requirements and hardening a public 
safety network requires. For example, public safety networks must be 
available in remote locations and the infrastructure must be able to 
withstand disasters, like hurricanes or earthquakes. The inability to 
solve these challenges contributed to the failure of the recent FCC 
auction of spectrum designated for a public safety/commercial carrier 
partnership (the ``D-Block'') to meet the reserve price.
    Debate is ongoing on how to govern, finance, and build a network to 
provide greater spectrum resources to public safety. However, the 
National Public Safety Telecommunications Council, DHS, and NIST have 
developed a public safety Broadband Network Statement of Requirements 
document to offer guidance to the FCC, which has stated that a 700 Mhz 
public safety broadband network must be interoperable, but has not 
issued regulations on how such interoperability would be achieved. In 
addition APCO is identifying gaps in standards to ensure that the 
network will support interoperability and roaming. Standards are 
particularly important if the national public safety broadband system 
is eventually built out as a system of networks.
    Finally, the move toward broadband could pose a challenge as public 
safety agencies move to comply with FCC narrow-banding requirements. In 
2004, the FCC mandated that by 2013, all public safety agencies needed 
to transmit using 12.5 kHz-wide channels, rather than using 25 kHz-wide 
channels. It has been further proposed that, by 2018, public safety 
will migrate to 6.25 kHz-wide channels and the P25 standards process is 
already in the process of developing standards for 6.25 kHz. As the 
name implies, though, data-rich broadband communication requires wider 
channels. Thus, within the public safety portion of the 700 Mhz band, 
systems will have to enable both broadband and narrowband 
transmissions.

V. Issues and Concerns

Status of Standards
    Project 25 began in 1989. Although the standards developers have 
made much progress since that time and P25 systems are now being 
fielded around the country, the complete suite of standards has not yet 
been completed. Continued advances in technology will mean continued 
updates and revisions for the P25 standards. However, as public safety 
organizations implement P25 systems, it is important to gain insight 
into how the status of the standards development process will affect 
their current operations and future procurements.

Compliance Assessment Program
    Radios are a lifeline for first responders. Ensuring that they work 
as intended is critical for the safety of these individuals and the 
lives and property they protect. It is also critical in ensuring that 
the significant amount of public money used to procure these systems is 
well spent and improves the communication capabilities of public safety 
agencies. The DHS CAP may provide the public safety community with the 
assurance that products sold as P25 compliant meet all of the 
requirements of the standards. Potentially, too, it may identify areas 
where the standard has not been uniformly implemented. While it is 
important to balance the time and expense incurred by manufacturers in 
performing compliance testing with the benefit to the public safety 
community, it is also essential that there is a trusted process 
available to ensure that P25 equipment is interoperable and meets the 
other requirements of the standards.

Future Issues
    P25 is unique in bringing the user community and industry together 
in the standards development process. Such cooperation in the standards 
process is important as public safety increases its use of broadband 
and other technologies.
    Chairman Wu. The hearing will come to order.
    Good morning and thank you for coming to today's hearing 
focused on interoperability in public safety communication 
equipment, and I want to warn everyone in the room first, not 
our witnesses, because they are extremely knowledgeable, that 
the topic of this morning's hearing is extremely complex, 
technical, and has kind of made my head swim at times. However, 
I do believe that it is very, very important to public safety 
and good government.
    We have learned important lessons from Oklahoma City, 
September 11, Columbine High School and Hurricane Katrina and 
other disasters that interoperable communication is crucial to 
effective emergency response. When time is of the essence and 
lives are at stake, a clear flow of information is absolutely 
essential. Unfortunately, it is not uncommon for police 
officers, firefighters and other emergency responders from 
different regions, from a single region, or even a single city 
to be using incompatible communication systems which don't talk 
to each other. This lack of interoperability has contributed to 
the deaths of first responders and hindered the ability to 
rescue people in harm's way.
    Enabling interoperable communication systems, where public 
safety personnel can talk with each other in real time, takes 
planning and cooperation by all levels of government. 
Interoperability also requires equipment that is capable of 
communicating with each other and assuring interoperability 
requires complete standards, conformance testing and compliance 
assessment. First responders on digital land mobile radio 
systems built to proprietary specifications cannot communicate 
well. Lack of published standards and compliance testing may 
also have consequences for competition among equipment vendors 
and consequently options for and prices to emergency service 
agencies.
    When I visited NIST's [National Institute of Standards and 
Technology] interoperability and standards lab this past 
February in Boulder, Colorado, I was shocked to learn that 
after more than 20 years of development, the vast majority of 
standards needed to assure interoperability for first 
responders and to enhance competition for the benefit of 
purchasers are not yet usable. This puts first responders at 
unnecessary risk and provides governmental purchasers with less 
competition than they would otherwise have.
    Since 1989, the public safety community and industry have 
been working together on Project 25, or P25, a suite of 
standards that will not only enable interoperability but also 
produce competition in the marketplace for digital land mobile 
radio systems and provide other benefits. While there has been 
some progress on the P25 standards since 1989, the standards 
remain incomplete.
    In this hearing, I would like to understand the 
implications of this for public safety agencies procuring 
systems sold as P25 compliant. I would also like to get a 
better sense of when we can expect all of the standards to be 
completed or at least usable. For purpose of comparison, we 
have standards for cell phones and other forms of 
communication, and not only standards, but with respect to cell 
phones we have gone through G1, generation 2, generation 3 and 
now we are transitioning to G4 devices, and standards have been 
established for all these different generations of devices.
    A second issue that we will discuss today is the lack of a 
formal compliance assessment process for the P25 standards. A 
compliance assessment process tells purchasers that a product 
meets all of the requirements of a standard. Any laptop with a 
Wi-Fi logo, Bluetooth-enabled devices or indeed any toaster 
with an Underwriters Lab sticker, had to go through testing and 
certification to be able to display those marks. P25 does not 
have an equivalent independent testing certification process. 
The Department of Homeland Security's Compliance Assessment 
Program can fill this gap. It seems to me that emergency 
services communication is too important for caveat emptor to be 
the standard. Also, when first responders spend millions of 
dollars on new, complex communications technology, expecting 
interoperability, conformance and relying upon the P25 logo, 
they should not come up empty-handed.
    In addition to being mission-critical and life-critical 
technology, these systems represent major expenditures for 
governmental agencies across the country. I, and most other 
Members of Congress, are asked every single year for funds to 
upgrade emergency responder communication systems. Taxpayers 
deserve both safety and value for their dollar.
    I would like to thank our witnesses for being here today. 
It is important that this process move forward and that the 
public safety community and industry continue to work together 
to make further advances in first responder technology.
    Chairman Wu. Now I would like to recognize Mr. Smith for 
his opening statement.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    Good morning and thank you for coming to today's hearing focused on 
interoperability in public safety communication equipment.
    We've learned an important lesson from September 11th, Hurricane 
Katrina, and other disasters: interoperable communication is critical 
to effective emergency response. When time is of the essence and lives 
are at stake, a clear flow of information is essential. Unfortunately, 
it is not uncommon for police officers and firefighters from a single 
region, or even a single city, to be using incompatible communication 
systems. This lack of interoperability has contributed to the deaths of 
first responders and hindered the ability to rescue people in harm's 
way.
    Enabling interoperable communication systems, where public safety 
personnel can talk with each other in real-time, takes planning and 
cooperation by all levels of government. However, interoperability also 
demands radios that are capable of communicating with one another. 
First responders on digital land mobile radio systems built to 
proprietary specifications cannot communicate. Ad-hoc solutions, like 
patching technologies or sharing radios, are less efficient than the 
seamless interoperability offered by systems based on open 
architecture.
    The purpose of today's hearing is to examine the status of the 
standards development process for this open architecture. Since 1989, 
the public safety community and industry have been working together on 
Project 25, or P25, a suite of standards that will not only enable 
interoperability, but also promote competition in the marketplace for 
digital land mobile radio systems and provide other benefits. While 
there has been a lot of progress on the P25 standards since 1989, the 
entire set of standards remains incomplete. I would like to understand 
the implications of this for public safety agencies procuring systems 
sold as ``P25 compliant'' and get a better sense of when we 
realistically can expect all of the standards to be completed.
    A second issue that we will discuss today is the lack of a formal 
compliance assessment process for the P25 standards. A compliance 
assessment process signals to the purchaser that a product meets all of 
the requirements of a standard. Any laptop with a Wi-Fi logo, or any 
toaster with an Underwriters Laboratory sticker, had to go through 
testing and certification to be able to display those marks. P25 does 
not have an equivalent process. The Department of Homeland Security's 
Compliance Assessment Program fills this gap, but we must be sure it 
provides the highest possible level of assurance to the public safety 
community that systems sold as P25-complaint actually meet all of the 
requirements of the standards. It seems to me that there ought to be a 
formal, comprehensive system in place to ensure that it is not caveat 
emptor when first responders spend millions of dollars on complex 
communications technology.
    The most important question for the first responders who rely on 
this equipment is ``does it work?'' In addition to being mission-
critical technology, these systems represent major expenditures for 
government agencies across the country. Particularly at a time of 
uncertain and dwindling budgets cost-effective procurement enabled by 
an open-architecture is essential.
    I'd like to thank our witnesses for being here today. Project 25 is 
unique in the world of standards development in that the users of the 
technology--in this case our public safety officials--are integral to, 
and directly involved in, the standards development process. It is 
important that this process move forward, and that the public safety 
community and industry continue to work together to make further 
advances in first responder technology.

    Mr. Smith. Thank you, Mr. Chairman, for calling today's 
hearing on the interoperability of public safety communications 
equipment, specifically Project 25, or P25 standards.
    In nearly every public safety emergency, as the events 
mentioned by the Chairman to the baseball-sized hailstones that 
hit my home community this week, we are reminded of the need 
for our first responders to have interoperable communications 
across both jurisdictions and lines of duty. Although the P25 
standard was initiated in the late 1980s, it was the terrorist 
attacks on September 11 which prompted government and industry 
to actively implement these standards with action continuing to 
this day.
    All parties clearly understand it is in their interest to 
ensure emergency communications tools advertised as P25 
compliant meet that standard. At the Federal level, we have a 
responsibility to ensure local jurisdictions are able to work 
together and taxpayer dollars are spent only on equipment which 
works as promised. Equipment manufacturers know sales will go 
elsewhere if competitors' products achieve higher levels of 
operability and interoperability, and our first responders 
clearly understand the importance of interoperable equipment in 
protecting the lives of themselves and certainly those whom 
they serve. At the same time, we must keep in mind 
interoperability is inconsequential if outside forces such as 
power outages actually knock out equipment and advances in 
technology and increased availability of bandwidth may move us 
to technologies above and beyond P25 standards.
    I expect the primary questions addressed in this hearing 
will be, what has been achieved so far, where is it going and 
is it progressing quickly enough while also touching on where 
emergency communications may go into the future.
    With that, thank you, Mr. Chairman. Thank you to the 
panelists for sharing your insight and expertise, and I look 
forward to a constructive hearing. I yield back.
    [The prepared statement of Mr. Smith follows:]

           Prepared Statement of Representative Adrian Smith

    Thank you, Chairman Wu, for calling today's hearing on the 
interoperability of public safety communications equipment--
specifically Project 25, or P25, standards.
    In nearly every public safety emergency--from national scale 
disasters such as the 9-11 attacks and Hurricane Katrina down to 
localized storm events such as the baseball-sized hail and high winds 
we experienced earlier this week in western Nebraska--we are reminded 
of the need our first responders have for interoperable communications, 
across both jurisdiction and lines of duty.
    Although the P25 standard was initiated in the late 1980s, it was 
the terrorist attacks on September 11 which prompted government and 
industry to actively implement these standards, with action continuing 
to this day.
    All parties clearly understand it is in their interest to ensure 
emergency communications tools advertised as P25 compliant meet that 
standard. At the Federal level we have a responsibility to ensure local 
jurisdictions are able to work together and taxpayer dollars are spent 
only on equipment which works as promised. Equipment manufacturers know 
sales will go elsewhere if competitors' products achiever higher levels 
of operability and interoperability. And our first responders clearly 
understand the importance of interoperable equipment in protecting the 
lives of themselves and those they serve.
    At the same time, we must keep in mind interoperability is 
inconsequential if outside forces such as power outages knock out 
equipment, and advances in technology and increased availability of 
bandwidth may move us to technologies above and beyond P25 standards.
    I expect the primary questions addressed in this hearing will be 
``What has been achieved so far?'' ``Where is it going?'' and ``Is it 
progressing quickly enough?'' while also touching on where emergency 
communications may go in the future.
    With that, thank you again Chairman Wu, and welcome to our 
panelists. I look forward to a constructive hearing and I yield back 
the balance of my time.

    Chairman Wu. Thank you, Mr. Smith.
    If there are other Members who wish to submit opening 
statements, your statements will be added to the record at this 
point.
    And now it is my pleasure to introduce our witnesses. Dr. 
David Boyd is the Director of the Command, Control and 
Interoperability Division of the Science and Technology 
Directorate at the Department of Homeland Security. Mr. Dereck 
Orr is the Program Manager of the Public Safety Communications 
Systems Program at the National Institute of Standards and 
Technology, or NIST. Dr. Ernest Hofmeister is Senior Scientist 
at the Harris Corporation. Mr. John Muench is the Director of 
Business Development of Motorola. And our final witness is 
Chief Jeffrey Johnson, who is President of the International 
Association of Fire Chiefs and the Chief of the Tualatin Valley 
Fire and Rescue Department in Aloha, Oregon.
    Welcome, all. You will each have five minutes for your 
spoken testimony. Your written testimony will be included in 
the record for this hearing, and since we do have your written 
testimony and have read it, rather than simply summarizing, 
please focus your comments as much as possible on answering the 
following four questions. What factors have delayed the 
development of the needed technical standards? What has delayed 
conformance and compliance testing? What is the impact of the 
absence of applicable standards and tests? And when can we 
expect completion of those standards and tests needed to assure 
interoperability and competition?
    When you complete all your oral testimony, we will begin 
with questions and each Member will have five minutes to 
question the panel.
    Dr. Boyd, please proceed.

   STATEMENTS OF DAVID BOYD, DIRECTOR, COMMAND, CONTROL AND 
INTEROPERABILITY DIVISION, SCIENCE AND TECHNOLOGY DIRECTORATE, 
             DEPARTMENT OF HOMELAND SECURITY (DHS)

    Dr. Boyd. Thank you, Mr. Chairman, Ranking Member Smith.
    Emergency responders need to be able to respond to 
incidents using their own equipment, particularly when they are 
supporting jurisdictions other than their own. And they need 
the ability to exchange the whole range of data, imagery and 
maps, as well as to communicate by voice and to combine all of 
those sources of information as needed during an emergency. Any 
strategy for improving interoperability must be informed by 
practitioner input. That is, it must be based on actual user 
needs and driven from the bottom up. Practitioners include the 
end-user community that supports all aspects of securing the 
homeland during both day-to-day operations and large-scale 
incidents or disasters.
    The existing response infrastructure is complex, as the 
Chairman has already pointed out. There are more than 50,000 
different emergency response agencies throughout the United 
States, each with its own local and state government 
regulations and requirements. Further, each locality has some 
form of legacy communications system and its own budget and 
planning lifecycles. The existing public safety communications 
infrastructure in the United States represents, as a 
conservative estimate, an investment of more than $100 billion 
for voice system hardware alone. These existing systems cannot 
be quickly or easily replaced so the only way to move toward 
nationwide interoperability without wasting existing 
investments is through a system of systems approach which 
capitalizes on already existing infrastructure.
    This approach allows agencies to join together using 
standards, compatible procedures and training exercises without 
having to discard major investments in existing systems and it 
enables emergency responders to use their own equipment to 
respond to incidents anywhere in the Nation. By leveraging 
standards, emergency responders can communicate by voice and 
exchange data, imagery, video and maps, creating situational 
awareness that improves response for both daily operations and 
major incidents. Furthermore, the system of systems approach is 
naturally more robust. It eliminates the risk that one failed 
technology, or link, will cause the entire system to fail.
    Since 2004, the legislatively established Office for 
Interoperability and Compatibility, OIC, which is within my 
office within the Science and Technology Directorate, has 
partnered with NIST and the National Telecommunications and 
Information Administration to accelerate the development of the 
Project 25 suite of standards for narrowband communication. 
These standards help produce voice communications equipment 
that is interoperable regardless of manufacturer while 
retaining compatibility with legacy systems and permitting 
scaling from small to large incidents.
    A few years ago, we discovered through testing that much of 
the equipment advertised as P25 compliant was unable to 
interoperate with P25 equipment manufactured by other 
companies, and in many cases, even with earlier P25 equipment 
manufactured by the same company. In response, Congress 
authorized OIC to establish the Compliance Assessment Program 
in coordination with NIST. A comprehensive Compliance 
Assessment Program is a key element to improving interoperable 
communications. It provides a process through which equipment 
can demonstrate that it correctly follows the standard and is 
able to interoperate with other equipment that follows that 
standard.
    When interoperability testing is combined with conformance 
testing, emergency responders can be assured that equipment 
conforms to the standard and will interoperate with all 
compatible equipment that correctly implements the standard 
including equipment that hasn't been tested. Furthermore, 
conformance testing helps provide increased confidence that 
equipment developed in the future will retain compatibility 
with legacy systems. Recognizing the need for an open and 
transparent process, the program established a governing board 
to represent the collective interests of organizations that 
procure P25 equipment. Its membership consists of local, 
tribal, state and Federal Government employees who are active 
in the operation or procurement of communications systems. The 
board considers all comments in an ongoing effort to address 
both the requirements of the users and the concerns of the 
manufacturers. Using testing standards published by P25, the 
P25 CAP [Compliance Assessment Program] aims to add quality, 
openness and rigor by building on the product development 
testing already performed by manufacturers. The first group of 
laboratory assessments began in December 2008, and by April 
2009 DHS [Department of Homeland Security] recognized the first 
eight laboratories. Four different manufacturers have had 
emergency communications equipment complete the P25 CAP 
process, which includes publishing Suppliers Declaration of 
Compliance and Summary Test Reports.
    Unfortunately, claims of compliance are not limited to the 
equipment that has completed the P25 CAP and this could lead to 
confusion among emergency responders. As a consequence, we have 
clarified the definition of P25 compliant equipment through 
SAFECOM guidance for Federal grant programs, which is used by 
all of the interoperable grant programs outside of DHS as well 
as by DHS.
    I appreciate the opportunity to testify before you today. I 
look forward to continuing to work with emergency responders 
and manufacturers and I welcome the Committee's interest and 
support of interoperable communications. I look forward to 
answering any questions the Committee may have.
    [The prepared statement of Dr. Boyd follows:]

                    Prepared Statement of David Boyd

Introduction

    Good morning Chairman Wu, Ranking Member Smith, and Members of the 
Subcommittee. Thank you for inviting me to speak to you today.
    Within the Department of Homeland Security (DHS), the Science and 
Technology (S&T) Directorate's Command, Control and Interoperability 
Division (CCI) uses a practitioner-driven approach to create and deploy 
information resources that enable harmonized and secure interactions 
among homeland security stakeholders.
    Since the creation of the Department, there has been considerable 
progress in strengthening interoperable communications--the ability for 
all emergency responders to securely communicate with whomever they 
need to, when they need to, and when properly authorized to do so--
across the nation. Having access to relevant, real-time and actionable 
information is vital to make tactical, strategic, and planning 
decisions that can prevent terrorist attacks, protect the homeland from 
natural or man-made disasters, improve response and recovery, and 
strengthen the resiliency of our communities. Emergency responders need 
to be able to respond to an incident using their own equipment and be 
able to communicate not just by voice, but to have the ability to 
exchange data, imagery and maps, and combine all of these sources of 
information as needed during an emergency.
    The Office for Interoperability and Compatibility (OIC) within CCI 
works to ensure that the emergency response community--including local, 
tribal, state, and Federal emergency responders--have the systems and 
equipment functionality that they need to save lives and safeguard the 
nation. Among its activities, OIC is authorized to accelerate, in 
consultation with other Federal agencies, including the National 
Institute of Standards and Technology (NIST), the private sector, and 
nationally recognized standards organizations, as appropriate, the 
development of interoperable communications \1\ and develop a 
compliance assessment program \2\.
---------------------------------------------------------------------------
    \1\ Intelligence Reform and Terrorism Prevention Act of 2004 Sec.  
7303, Pub. L. No. 108-458 (codified at 6 U.S.C. Sec.  194)
    \2\ Department of Homeland Security Appropriations Act of 2007, 
H.R. Rep. No. 109-699

System of Systems

    A successful strategy for improving interoperability must be 
informed by practitioner input--that is, based on user needs and driven 
from the frontlines up. Practitioners include the end-user community 
that supports all aspects of securing the homeland during day-to-day 
operations and large-scale incidents or disasters. The existing 
response infrastructure is complex; there are more than 50,000 
different emergency response agencies throughout the United States, 
each with its own local and state government regulations and 
requirements. Further, each locality has some form of legacy 
communication system and its own budget and planning lifecycles.
    The existing public safety communication infrastructure in the 
United States represents, conservatively, an investment of more than 
$100 billion for voice systems hardware alone. These existing systems 
cannot be quickly or easily replaced.
    One option to optimize resource effectiveness and eventually 
realize nationwide interoperability is a system of systems approach. 
The system of systems approach would allow separate agencies to join 
together using standards, compatible procedures, and training exercises 
without having to discard major investments in their existing systems, 
and enables emergency responders to use their own equipment to respond 
to an incident anywhere in the nation. By leveraging standards, 
emergency responders could communicate by voice and exchange data, 
imagery, video, and maps--creating situational awareness that improves 
response for daily operations and major incidents. Furthermore, the 
system of systems approach is more robust--it eliminates the risk that 
one failed technology or link will cause the entire system to fail.

Acceleration of Standards

    The standards development process is integral to achieving 
interoperability. The ability to share critical emergency-related 
data--a map, a situational report, the status of medical resources--on 
demand and in real time is imperative in today's response environment. 
While this need has been apparent for years, comprehensive standards do 
not yet exist, because the systems and the range of standards required 
is complex.
    Communication standards allow for the creation of multi-vendor 
systems that can bridge disparate technology and spectrum. In 
conjunction with development of the standard itself, it is just as 
essential that a compliance program for equipment testing be used. A 
robust compliance program ensures products are not only interoperable 
but also are implemented correctly by adhering to the standard.
    Since 2004, OIC has partnered with NIST and the National 
Telecommunications Information Administration's Institute for 
Telecommunication Sciences to accelerate the development of the Project 
25 (P25) suite of standards for narrowband communications. P25 
standards help produce voice communications equipment that is 
interoperable, regardless of manufacturer. In addition to 
interoperability, P25 aims to promote more efficient use of spectrum 
while retaining compatibility with legacy systems, and scaling to 
support small-to-large incidents. While P25 consists of eight 
interfaces, the emergency response community prioritized the 
development of four interfaces:

        <bullet>  Common Air Interface (CAI) \3\
---------------------------------------------------------------------------
    \3\ This interface provides wireless communication between radios. 
The major CAI standards documents are complete except for trunked 
conformance test standard. The date for completion of this standard is 
currently uncertain pending a commitment of resources from 
manufacturers and support from the standards body.

        <bullet>  Inter-RF Subsystem Interface (ISSI) \4\
---------------------------------------------------------------------------
    \4\ This interface joins two land mobile radio systems so that they 
act as one system and can support multijurisdictional, seamless 
roaming. The ISSI functional standards are complete, and ISSI 
commercial equipment is expected to begin deployment soon. The multi-
vendor seamless roaming allowed by the ISSI will constitute a serious 
advancement over existing bridging technologies. Those technologies 
will remain important for bridging existing equipment, since systems 
are required to use the ISSI.

        <bullet>  Console Subsystem Interface (CSSI) \5\
---------------------------------------------------------------------------
    \5\ This interface specifies the basic messaging to interface a 
console subsystem to a P25 RF Subsystem

        <bullet>  Fixed Station Interface (FSI) \6\
---------------------------------------------------------------------------
    \6\ This interface specifies a set of mandatory messages supporting 
digital voice, data, encryption and telephone interconnectivity 
necessary for communication between a Fixed Station and P25 RF 
Subsystem

    Specifically, CAI and ISSI are fundamental to system and equipment 
interoperability, and thus are the highest priorities for both the 
emergency response community and DHS S&T.
    P25 standards are developed through a voluntary consensus process 
\7\. The success of the overall effort is dependent on multiple factors 
including active participation from the user community and equipment 
manufacturers, the standards meeting requirements defined by emergency 
responders, a willingness to build to the standard, and a comprehensive 
compliance assessment program to determine whether equipment follows 
the standard. The need for consensus throughout this effort often sets 
the pace for how quickly they are completed. A strong desire for 
progress and partnership among all stakeholders, manufacturers and 
emergency responders alike helps build consensus and ensure a steady 
pace.
---------------------------------------------------------------------------
    \7\ National Technology Transfer and Advancement Act of 1995 Sec.  
12, Pub. L. No. 104-113 (codified at 15 U.S.C. Sec.  272 note)

Compliance Assessment

    A comprehensive compliance assessment program is a key element to 
improving interoperable communications--it provides a process through 
which equipment can demonstrate that it correctly follows the standard 
and is able to interoperate with other equipment following the 
standard. When interoperability testing is combined with conformance 
testing, emergency responders can be assured that equipment conforms to 
the standard and will interoperate with all compatible equipment that 
correctly implements the standard, including equipment that was not 
tested. Furthermore, conformance testing helps provide increased 
confidence that equipment developed in the future will retain 
compatibility with legacy systems.
    A few years ago, it was discovered through testing that much of the 
equipment advertised as P25-compliant was unable to interoperate with 
P25 equipment manufactured by other companies and, in some cases, even 
with earlier P25 equipment manufactured by the same company. In 
response, Congress authorized OIC to establish the P25 Compliance 
Assessment Program (CAP), in coordination with NIST. The P25 CAP allows 
emergency responders to confidently purchase and use P25-compliant 
products, and represents a critical step toward allowing responders to 
communicate using their own equipment.
    Recognizing the need for an open and transparent process, the P25 
CAP established a Governing Board (GB) to represent the collective 
interests of organizations that procure P25 equipment. Its membership 
consists of local, tribal, state, and Federal Government employees who 
are active in the operation or procurement of communication systems. 
The P25 CAP GB encourages members of the public to attend meetings and 
provide comments in order to increase stakeholder participation in the 
program. Before the P25 CAP GB publishes compliance documents, they 
solicit direct input from manufacturers, emergency responders, and 
other interested parties during an open comment period. The GB 
considers all comments in an ongoing effort to address both the 
requirements of the users and the concerns of the manufacturers. 
Through this open process, the GB continues to work towards the goal of 
creating the first commonly-accepted definitions of compliance across 
all interfaces.
    Using testing standards published by P25, the P25 CAP aims to add 
quality, openness, and rigor by building on the product development 
testing already performed by manufacturers. The first group of 
laboratory assessments began in December 2008, and by April 2009, DHS 
recognized the first eight laboratories as part of the P25 CAP. A DHS-
recognized laboratory is authorized to produce detailed test reports 
for P25 equipment. Four different manufacturers have had emergency 
communications equipment complete the P25 CAP process, which includes 
publishing Suppliers' Declaration of Compliance (SDoC) and Summary Test 
Reports.\8\ The SDoC is the manufacturer's formal, public attestation 
of compliance with the standards for the equipment and the Summary Test 
Reports provides the equipment purchaser with a summary of the tests 
conducted on the equipment along with the testing outcome.
---------------------------------------------------------------------------
    \8\ As part of P25 CAP, SDoC and Summary Test Reports are required 
to be published on FEMA's Responder Knowledge Base Web site at https://
www.rkb.us/
---------------------------------------------------------------------------
    Unfortunately, claims of compliance are not limited to the 
equipment that has completed the P25 CAP. This can lead to confusion 
among emergency responders and in the marketplace. DHS has attempted to 
clarify the definition of P25 compliant equipment through the SAFECOM 
Guidance for Federal Grant Programs. Specifically, the SAFECOM grant 
guidance states that ``all new digital voice systems must be compliant 
with the P25 suite of standards.'' The grant guidance qualifies P25 
equipment compliance to mean the completion of testing consistent with 
P25 CAP. Only under compelling circumstances may an agency use grant 
funding to purchase non-P25 equipment. The SAFECOM grant guidance 
continues to be used by interoperable and emergency communications 
grant programs outside of DHS, including the Department of Justice 
Office of Community Oriented Policing Services Technology Program.

Conclusion

    Emergency responders' ability to communicate is vital to completing 
their mission, and the P25 CAP provides them with the credible facts 
and data to evaluate manufacturers' claims of standards compliance. The 
testing of P25 within communication equipment will improve 
interoperability as well as confidence in the suite of standards. In 
order to have a fully functional P25 CAP, at a minimum there must be 
comprehensive compliance testing for the CAI and ISSI. Conformance 
tests for the ISSI do exist and are under development for the CAI; 
however, the successful incorporation of conformance testing in the P25 
CAP is dependant on manufacturer participation. Without this rigorous 
testing, a ``P25 radio'' is compliant in name only.
    I appreciate the opportunity to testify before you today. I look 
forward to continuing to work with emergency responders and 
manufacturers, and I welcome the committee's interest and support of 
interoperable communications.
    I look forward to answering any questions you may have.

                        Biography for David Boyd

    Dr. David G. Boyd joined the U.S. Department of Homeland Security 
(DHS) upon its establishment in March 2003. Dr. Boyd serves as the 
Director of the Command, Control and Interoperability (CCI) Division 
within the Science and Technology Directorate. Dr. Boyd leads multiple 
cutting-edge research and development (R&D) programs in communications 
interoperability, cyber security, knowledge management, reconnaissance, 
surveillance, and investigative technologies, and basic and futures 
research; his CCI programs and projects comprise a budget of more than 
$80 million. As one of the earliest members of the Department, Dr. Boyd 
helped to build the Science and Technology Directorate from the ground 
up. In 2004, he was selected to lead the Office for Interoperability 
and Compatibility--an office established by Congress charged with 
coordinating interoperable communications efforts across the Federal 
Government and with the Nation's 60,000 emergency response agencies.
    Dr. Boyd's ``bottom-up,'' practitioner-driven approach has 
revolutionized the Federal Government's approach to strengthening 
interoperable communications. Under Dr. Boyd's leadership, CCI includes 
state and local emergency responders in the planning, development, and 
implementation of projects. Needs gathered directly from responders are 
used to develop comprehensive solutions that have the most significant 
impact on practitioners and can be implemented throughout the Nation. 
This approach has significantly improved the Federal Government's 
relationship with these agencies and ensured that Federal projects 
address the needs of responders in the field. Dr. Boyd is a recipient 
of a 2005 Presidential Rank Award, the highest recognition available in 
the Federal Civil Service, and holds a career appointment in the Senior 
Executive Service. Both he and his Division have received more than a 
dozen national awards since 2003.
    Before joining DHS, Dr. Boyd served as the Director of Science and 
Technology for the National Institute of Justice at the Department of 
Justice, where he oversaw an activity which grew from a budget of $2 
million and a staff of four into the single largest law enforcement and 
corrections technology development activity in the United States with 
an active portfolio of more than $750 million and a staff of more than 
200 Federal and contract personnel in technology centers across the 
Nation. His office managed R&D programs in every facet of technology 
affecting law enforcement and corrections, including the forensic 
sciences, less than lethal technologies, information and communications 
technologies, and concealed weapons and contraband detection, among 
others. He directed the DNA and forensic laboratory improvement 
programs, which expanded the forensic community from fewer than six 
DNA-capable crime laboratories to more than 130 in all 50 states.
    Dr. Boyd has served on the White House National Science and 
Technology Council, the National Security Council Committee on Safety 
and Security of Public Facilities, and as the Executive Chair of the 
Department of Justice's Technology Policy Council.
    Prior to joining the Civil Service, Dr. Boyd served more than 20 
years in the U.S. Army. He has commanded combat, combat support, and 
training units in the U.S. and overseas, in times of both peace and 
war, and has served on military staffs from battalion level to the 
Pentagon, where--as an operations researcher--he was responsible for 
the design and supervision of the development and application of 
automated models in support of the Chairman of the Joint Chiefs of 
Staff. He has represented the U.S. in bilateral meetings with Soviet 
and other foreign analysts, and led a special strategic analysis in 
support of the first Gulf War. His more than three dozen military 
awards include the Bronze Star and the Purple Heart.
    He is a graduate of the University of Illinois--Champaign, Golden 
Gate University, the University of Illinois--Chicago, and Walden 
University. He holds graduate degrees in Management and Public Policy 
Analysis as well as a doctorate in Decision Sciences, and has published 
extensively.

    Chairman Wu. Thank you, Dr. Boyd.
    Mr. Orr.

   STATEMENTS OF DERECK ORR, PROGRAM MANAGER, PUBLIC SAFETY 
  COMMUNICATIONS SYSTEMS, NATIONAL INSTITUTE OF STANDARDS AND 
                       TECHNOLOGY (NIST)

    Mr. Orr. Chairman Wu, Ranking Member Smith, Members of the 
Subcommittee, thank you for the opportunity to appear before 
you today to discuss public safety communications and the P25 
project.
    The Public Safety Communications Research program, known as 
PSCR, is a joint effort among NIST and NTIA [National 
Telecommunications and Information Administration] at Commerce. 
The PSCR serves as the technical lead for several 
Administration initiatives focusing on public safety 
communications. From the beginning, one of the core focus areas 
of the PSCR has been to participate in the Telecommunications 
Industry Association land mobile radio standards development 
process. The vast majority of our first responders across the 
Nation use land mobile radio systems every day to communicate 
as they perform their missions. This includes the radios that 
you see police officers or firefighters wearing on their belts.
    Interoperability for these radios has been a problem as we 
have seen in recent national emergency situations and achieving 
interoperability is not possible without the existence of 
published standards that define how the various components of a 
public safety communications system will interoperate 
regardless of manufacturer. In the absence of standards, 
achieving this level of interoperability would not be possible.
    Public safety users have recognized this for some time. 
Approximately 20 years ago, representatives from local, state 
and Federal public safety associations and agencies joined 
together with industry to address the absence of available 
standards for land mobile radios as they entered the transition 
from analog to digital-based systems. Thus, Project 25, or P25 
as we know it today, was launched. Based on our experience, 
there are four main issues with P25 that are hampering progress 
towards seamless interoperability and open competition.
    First, since P25's inception in 1989, only one and a half 
of the eight interfaces in the suite of the standards needed 
for interoperability and competition as defined by P25 are 
complete. Second, as a result of the lack of complete 
standards, only a fraction of any P25 system purchased today is 
truly standards based. Third, many public safety agencies 
believe that when they purchase a system labeled P25 that it is 
based on a complete set of standards. They interpret a P25 
system to mean LMR [Land Mobile Radio] system that is fully 
standards based. We believe it is important that public safety 
agencies make their procurement decisions and valuations on a 
realistic set of expectations. Fourth, there has been a lack of 
industry-led compliance assessment and certification programs. 
Compliance to the standard is essential and in fact every major 
wireless technology we know of ensures interoperability among 
devices and adherence to the standards by establishing rigorous 
and comprehensive compliance assessment and certification 
programs. P25 should be no different. We need to identify 
problems with products or the standard in the lab, not in the 
field.
    NIST has been actively engaged on behalf of DHS in the P25 
process to accelerate the adoption of standards. In addition, 
to address the lack of a compliance testing program, DHS and 
NIST partnered together to establish the Project 25 Compliance 
Assessment Program. This is a government-led program outside of 
the P25 standards development process and was created with 
direction from Congress to ensure that Federal grant dollars 
are being spent on communications equipment that will result in 
interoperability and improve public safety's ability to protect 
lives and property.
    From the beginning, the P25 CAP was developed with the 
expectation of incorporating all three types of tests, 
performance, conformance and interoperability, into the 
program. However, over the last year, an issue of including 
conformance tests in the P25 CAP has arisen which has slowed 
down our ability to launch a fully functional program. I want 
to make clear: conformance tests are the one type of test that 
ensures that a product adheres to the written standard and, 
therefore, increases confidence that there will be 
interoperability in the field. However, the general response 
from industry was that only performance and interoperability 
tests were necessary for compliance assessment.
    DHS, NIST, other Federal partners and many public safety 
users spent nearly a year trying to find an acceptable 
resolution that would minimize the burden on industry while 
maintaining the integrity of the P25 CAP through the inclusion 
of all three types of tests. In the absence of achieving 
consensus, and given public safety's insistence on the 
inclusion of conformance tests in the P25 CAP, the program 
moved ahead by including conformance tests for the most 
recently published interface. I am pleased to say that over the 
last two months we have witnessed a willingness within the P25 
standards body to actively participate in the identification of 
relevant conformance tests for the P25 CAP.
    NIST hopes that within two years the P25 CAP is a fully 
functional program including performance, conformance and 
interoperability testing for at least the interfaces which are 
crucial to interoperability. Achieving this will require 
significant commitment and focus by all parties, and for its 
part, NIST is prepared to assist in meeting this worthy goal. 
NIST remains dedicated to continuing to work with this 
Subcommittee, industry, our Federal sponsors and partners and 
public safety users to see the P25 standards completed and to 
develop programs to help public safety purchase interoperable 
land-mobile radio equipment.
    In conclusion, I want to thank Chairman Wu for his 
leadership on interoperability standards for public safety 
communications and for the positive effect his involvement has 
had in moving this issue forward.
    I am happy to answer any questions you may have.
    [The prepared statement of Mr. Orr follows:]

                    Prepared Statement of Dereck Orr

    Chairman Wu, Ranking Member Smith, Members of the Subcommittee, 
thank you for the opportunity to appear before you today to discuss 
Public Safety Communications and the P25 project. I serve as the 
Program Manager for Public Safety Communications Systems in the Office 
of Law Enforcement Standards (OLES) at the National Institute of 
Standards and Technology (NIST). In addition, I am the Program Manager 
for the Public Safety Communications Research (PSCR) program, which is 
a joint effort among NIST and the National Telecommunications and 
Information Administration (NTIA) at the Department of Commerce (DOC) 
Labs located in Boulder, Colorado.
    The Public Safety Communications Research (PSCR) program serves as 
the technical lead for several Administration initiatives focusing on 
public safety communications, most importantly the Department of 
Homeland Security's (DHS) Office for Interoperability and Compatibility 
(OIC) within the Science and Technology Directorate. The PSCR program 
is also involved in many of DHS's key communications interoperability 
related programs, including the SAFECOM Program within the Office of 
Emergency Communications (OEC). The strong partnership among OIC, 
SAFECOM and the PSCR program is an excellent example within the 
Administration of multi-agency coordination and collaboration, and is 
something for which we at NIST are very proud.
    Working alongside our Federal partners, the PSCR program has 
provided the lead technical role in some of the key advancements in 
public safety communications over the last five years. NIST, in 
partnership with OIC, has led the development of an open interface for 
Voice-over-Internet Protocol (VoIP) public safety applications, 
developed technical requirements for public safety video applications 
to ensure that they meet the needs of public safety, so that, for 
example, a police officer can properly identify suspects based on a 
video. We have also scientifically corroborated concerns from the 
public safety community that digital radios did not perform as well as 
analog radios in loud noise environments. This has been particularly 
important to the fire community whose communications were significantly 
degraded at the time they would need to communicate most. In addition, 
NIST has been heavily involved in the emerging public safety broadband 
issue by leading, over the last several years, the technical committees 
that have worked directly with public safety to define their 
requirements for a nationwide public safety broadband system. We have 
recently kicked off a project to develop and implement a broadband 
demonstration system at the Boulder Labs that will focus on 
understanding how the future fourth generation broadband standards will 
and will not meet public safety's requirements for their mission 
critical needs.
    My DOC colleagues at the NTIA recently announced that it will make 
Recovery Act broadband grants available to public safety entities that 
this month received authorization from the FCC to build out broadband 
public safety communications systems utilizing the 700 MHz band. I want 
to note that my comments today are not related to those 700 MHz-based 
broadband systems.
    From the beginning, one of the core focus areas of the PSCR has 
been to participate in the Telecommunications Industry Association 
(TIA) Land Mobile Radio (LMR) standards development process. These are 
the systems that the vast majority of our first responders use every 
day across the Nation to communicate as they perform their missions. 
These are the radios that you see police officers or fire fighters 
wearing on their belts. As that is the topic of today's hearing, I will 
focus the remainder of my remarks this morning on the current state of 
the formal standards development and test programs for public safety 
land mobile radio systems.
    Interoperability for public safety communications is defined as 
``the ability to share information via voice and data signals on 
demand, in real time, when needed, and as authorized.'' The public 
safety community expects that this level of interoperability will be 
available using equipment from multiple manufacturers, that they are 
transparent to the user requiring little or no special knowledge of the 
system, and that they are not dependent on common frequency 
assignments.
    Achieving this definition of interoperability is not possible 
without the existence of published standards that define how the 
various components of a public safety communications system will 
interoperate, regardless of manufacturer. In the absence of standards, 
achieving this level of interoperability would not be possible.
    Public safety users have recognized this for some time. 
Approximately twenty years ago, representatives from local, state, and 
Federal public safety associations and agencies joined together to 
address the absence of available standards for Land Mobile Radios as 
they entered the transition from analog to digital based systems. They 
did this for two primary purposes. The first was to ensure that 
interoperability could be achieved, assuming the use of equipment from 
multiple manufacturers. Second, through standards, the public safety 
community wanted to be able to take advantage of cost reductions 
associated with a more competitive Land Mobile Radio market.
    Understanding the difficulty in specifying the complex operations 
of the various components of a land mobile radio system, the public 
safety community partnered with the Telecommunications Industry 
Association (TIA) to serve as the standards development organization 
(SDO) for this effort. Thus Project 25, or P25 as we know it today, was 
launched. For the last six years, PSCR has been an active participant 
in the P25 standards process, especially in the development of test 
standards.
    A commonly misunderstood aspect of P25 is that it is comprised of a 
single standard. Instead, it is a suite of standards that specify the 
eight open interfaces listed below between the various components of a 
land mobile radio system (e.g.: hand held to hand held, hand held to 
base station, mobile unit to repeater, etc.):

        <bullet>  Common Air Interface (CAI): this interface defines 
        the wireless access between mobile and portable radios and 
        between the subscriber (portable and mobile) radios and the 
        fixed or base station radios;

        <bullet>  Inter-RFSubSystem Interface (ISSI): this interface 
        permits users in one system to communicate with users in a 
        different system, from one jurisdiction to another, from one 
        agency to another, from one city to another, etc.;

        <bullet>  Fixed Station Interface (FSI): this interface 
        describes the signaling and messages between the RFSS and the 
        fixed station by defining the voice and data packets (that are 
        sent from/to the subscriber(s) over the common air interface) 
        and all of the command and control messages used to administer 
        the fixed station as well as the subscribers that are 
        communicating through the fixed station;

        <bullet>  Console Sub-System Interface: this interface is 
        similar to the fixed station interface but it defines all the 
        signaling and (CSSI) messages between the RFSubSystem and the 
        console, the position that a dispatcher or a supervisor would 
        occupy to provide commands and support to the personnel in the 
        field;

        <bullet>  Subscriber Data Peripheral Interface: this interface 
        characterizes the signaling for data transfer that must take 
        place between the subscriber radios and the data devices that 
        may be connected to the subscriber radio.

        <bullet>  Network Management Interface: this interface allows 
        administrators to control and monitor network fault management 
        and network performance management.

        <bullet>  Data Network Interface: this interface describes the 
        RFSSs connections to computers, data networks, external data 
        sources, etc.

        <bullet>  Telephone Interconnect Interface: this interface 
        between the RFSS and the Public Switched Telephone Network 
        (PSTN) allows field personnel to make connections through the 
        public switched telephone network by using their radios rather 
        than using cellular telephones.

    For any one of these eight interfaces to be considered complete (so 
that multiple manufacturers can build and test to a common standard) 
the following five types of standards documents have to be published:

        <bullet>  Overview: serves as the general mission statement for 
        the interface;

        <bullet>  Protocol: specifies the messages and procedures to be 
        followed in the development of equipment implementing the 
        interface;

        <bullet>  Performance: specifies the test procedures to be 
        executed to ensure the device under test operates within the 
        expected bounds identified in the standard (i.e. emissions and 
        adjacent channel interference);

        <bullet>  Conformance: specifies the test procedures to be 
        executed to ensure the device under test produces messages that 
        adhere to the message format and procedures detailed in the 
        protocol document;

        <bullet>  Interoperability: Specifies the test procedures to be 
        executed to determine if two or more different devices under 
        test respond appropriately when communicating over the 
        interface.
    The most important of these documents is the protocol document 
which provides the details needed by each manufacturer to develop 
products that implement the particular interface. However, of only 
slightly less importance are the three test documents that allow each 
manufacturer to comprehensively test their implementations in a common 
way so as to limit variant interpretations of the protocol and ensure 
overall uniformity in product development. In addition, uniformity in 
implementation of the interfaces is crucial for seamless 
interoperability.
    Based on our experience, there are four main issues with P25 that 
are hampering progress toward seamless interoperability and open 
competition.

        1)  Standards for all eight interfaces are not published.

        2)  Only a portion of P25 systems are standards based.

        3)  It isn't clear to public safety agencies what a P25 system 
        entails.

        4)  There is no industry-led formal compliance assessment 
        program.

    To date, only the conventional portion of the CAI and the Inter-RF-
Subsystem Interface have a completed suite of documents as defined 
above. The more complex trunked CAI continues to lack conformance test 
documents (crucial for uniform implementation) although trunked CAI 
products have been sold for almost a decade. The remainder of the six 
interfaces are in various states of document completion. Therefore, 
since its inception in 1989, one and a half of the eight interfaces 
have been completed.
    Second, as a result of the lack of complete standards, only a 
limited portion of a P25 system is truly standards based. To our 
knowledge, only the CAI is currently supported in most P25 system 
deployments, although some jurisdictions are now on the verge of 
procuring the recently completed ISSI, and ISSI manufacturers are 
piloting this new interface in several locations across the United 
States.
    Third, many public safety agencies believe that when they purchase 
a system labeled P25, that it is based on a complete set of standards. 
They interpret a ``P25 system'' to mean a LMR system that incorporates 
the P25 interfaces. Most public safety agencies do not have the, 
resources to dedicate to researching the status of the complex 
standards process so that they have a clear picture of what a ``P25 
system'' currently entails. The reason we, and our partners, try to 
provide outreach to as many public safety agencies as possible is that 
we believe it is important that they make their procurement decisions 
and valuations on a realistic set of expectations.
    Fourth, there has been a lack of a compliance assessment and 
certification programs. As mentioned above, compliance to the standard 
is essential and in fact every wireless technology we know of ensures 
interoperability among devices by establishing rigorous and 
comprehensive compliance assessment and certification programs. 
Successful completion of the compliance assessment process often 
results in limited rights to the use of a certification logo (i.e. 
Bluetooth, Wi-Fi, or WiMAX) which is intended to impart to consumers 
the fact that the product has been tested in some type of formal 
process and should be expected to work with other devices with the same 
logo.
    In the case of P25, the industry participants never established a 
formal and uniform compliance assessment and certification program. 
Instead, testing to determine P25 compliance was performed by each 
manufacturer in whatever manner they each determined was sufficient for 
validation of their products. There has been no industry led formal 
test regime and there is no certification process or stamp for P25 
products.
    The P25 logo has instead been used by manufacturers as a marketing 
logo to convey to users that their product was developed to P25 
standards specifications. However, many public safety agencies that we 
speak with incorrectly assume that the logo is a certification stamp 
signifying the completion of a formal and uniform test regime.
    To address the first three issues, NIST has been actively engaged 
on behalf of DHS in the P25 process to accelerate the adoption of 
standards. To address the lack of a compliance testing program DHS and 
NIST partnered together to establish the Project 25 Compliance 
Assessment Program (P25 CAP). This is a government-led program outside 
of the P25 standards development process, and was created with 
direction from both Commerce and DHS appropriations committees in order 
to ensure that Federal grant dollars are being spent on communications 
equipment that will result in interoperability and improve public 
safety's ability to protect lives and property. Additionally, this 
program is designed to provide greater clarity to public safety 
agencies regarding the status of the P25 standards, and to, more 
importantly, provide them with a higher level of confidence that the 
products they are purchasing will interoperate with other P25 products. 
In this partnership, NIST performs the lab assessments and DHS develops 
the overall program policy, as well as recognizing participating 
laboratories. This program has been developed over the last five years 
and is comprised of several key elements:

        <bullet>  Test Standards: P25 CAP uses published P25 
        performance, conformance, and interoperability test standards. 
        Whenever possible, the P25 CAP looks for guidance from the P25 
        technical committees and manufacturers for input on what tests 
        are most applicable. In addition, the P25 CAP only uses a 
        subset of available P25 tests. The subset of tests are 
        published in DHS P25 CAP Compliance Assessment Bulletins.

        <bullet>  Interfaces: The P25 CAP is currently focused on the 
        two P25 interfaces (CAI and ISSI) that are crucial to 
        interoperability and that will help achieve the nation-wide 
        system of system's approach supported by the DHS SAFECOM 
        Program.

        <bullet>  Lab Recognition: The P25 CAP utilizes recognized 
        laboratories that have been assessed and recommended by PSCR 
        personnel based on adherence to appropriate portions of 
        international laboratory testing standards and on their 
        competence at executing the P25 tests specified in the DHS P25 
        Compliance Assessment Bulletin. If a laboratory successfully 
        completes the assessment phase, DHS issues a Certificate of 
        Recognition which signifies their ability to participate in the 
        P25 CAP.

        <bullet>  Manufacturer Participation: The P25 CAP is a 
        voluntary process and relies on vendor participation for its 
        success. To be in compliance with the P25 CAP, participating 
        vendors must have their equipment tested in a DHS recognized 
        laboratory and must post the results of the testing at a 
        publicly accessible DHS website (www.rkb.us).

        <bullet>  Federal Grant Guidance: The P25 CAP is required in 
        the SAFECOM Federal Grant Guidance which applies to DHS grant 
        programs and is leveraged by other Federal agencies as well, 
        such as the Department of Justice's COPS Office. The grant 
        guidance limits P25 equipment purchases to products that have 
        been tested in P25 CAP recognized labs and have the proper 
        documentation posted on the RKB website. This helps ensure that 
        all Federal investments support standards-based equipment and 
        interoperability.

    The P25 CAP was developed with involvement from both the industry 
and the public safety community. The goal of the program is to increase 
public safety's confidence that P25 products being purchased will 
operate and interoperate, based on a formal and uniform test program, 
while at the same time minimizing the financial burden that 
implementing a voluntary compliance program might place on the P25 
industry. Therefore, it should be noted that the resulting program is a 
minimalistic compliance assessment program. It does not rise to the 
level of rigor imposed by the wireless technologies mentioned above or 
that of the European public safety communications standard, TETRA. The 
P25 CAP does not involve third party certification and does not lead to 
a certification stamp. The program instead requires that a manufacturer 
publish a Supplier's Declaration of Compliance which specifies the 
product tested, the tests performed, and the DHS recognized lab used to 
perform the test. The manufacturer must also publish a Summary Test 
Report (STR) that provides pass/fail data for each of the tests 
required by DHS. The SDoC and STR are posted by the manufacturers on a 
DHS website (www.rkb.us). Public safety agencies using Federal grant 
dollars can only purchase P25 equipment with published documents 
available on the DHS website. In addition to testing information being 
publicly available, the equipment will have been tested in laboratories 
that have demonstrated an adequate quality management system and P25 
testing proficiency. In striking this balance our hope is increase the 
amount and quality of information available to the public safety 
community, while at the same time creating a minimalistic program that 
will gain wide-spread industry participation.
    To date, DHS has recognized eight laboratories to perform the 
current CAI tests required by the P25 CAP program. As of November 2009, 
all DHS grantees purchasing P25 CAI related equipment are required to 
ensure that the equipment is in compliance with the P25 CAP guidelines, 
prior to taking final acceptance. Currently there are four 
manufacturers who have complied with the current requirements of the 
P25 CAP. All four have published information on their subscriber units 
(walky-talkies) which is out of the approximately eleven manufacturers 
that make P25 subscriber units (36% participation rate). In addition, 
two of the four manufacturers have published documents relating to 
their infrastructure (base stations, etc.) which is out of 
approximately eight manufacturers that make P25 infrastructure--a 25% 
participation rate.
    The publication of this information is a significant milestone for 
public safety. For the first time, public safety officials have one 
place that they can go to obtain test results performed through a 
formal process and whose results are presented in a common manner, 
making comparisons between manufacturers' products much less time 
consuming. In fact, we are aware of multiple public safety agencies 
using the P25 CAP in their procurement decisions and evaluation. 
However, the participation rate must increase for the program to be 
truly effective.
    It must also be noted that the current program covering the CAI 
includes only performance and interoperability tests. This is due to 
the fact that at the time of the publication of the DHS P25 CAP 
Compliance Assessment Bulletin in 2008, there were no relevant 
published CAI conformance tests to draw from.
    Since 2008, conformance tests have been published for the 
conventional CAI, and the PSCR program and its Federal partners are 
currently working with the manufacturers and public safety users within 
the standards committees to determine the appropriate tests to 
incorporate into the P25 CAP. Although we are hopeful that we will be 
able to identify existing, and where needed develop, appropriate 
conformance tests for the conventional CAI, it must be noted that the 
issue of conformance testing has been a significant problem within the 
P25 standards community over the last year.
    From the beginning, the P25 CAP was developed with the expectation 
of incorporating all three types of tests (performance, conformance, 
and interoperability) into the program. This expectation was 
articulated in program documents, charters, and presentations. Many 
manufacturers echoed this expectation in their own documents and 
presentations. However, as was noted above, the issue of conformance 
tests did not develop until after the drafting of the first DHS P25 CAP 
Compliance Assessment Bulletin because at the time of publication there 
were no published conventional or trunked CAI conformance tests to draw 
from.
    Leveraging published conformance tests into the P25 CAP became an 
issue for the first time in April 2009 during the development of the 
recommended set of tests for the ISSI. Because published conformance 
tests for the ISSI were available for consideration, the PSCR 
recommended a subset of the published conformance tests for inclusion 
into the P25 CAP. The general response from industry to this 
recommendation was that it was not their intent that the P25 CAP would 
include conformance testing, and should instead focus on performance 
and interoperability testing for compliance assessment. At that time, 
the PSCR as well as our Federal partners and many of the public safety 
users participating in the meetings reiterated the expectation that the 
P25 CAP would incorporate conformance testing.
    The rationale for this was, and remains, that at the core of any 
compliance assessment or conformity assessment program is the 
expectation that products will be tested to ensure that they adhere to 
the messages and procedures mandated by the standard. Interoperability, 
especially in the wireless field, is achieved through consistent 
implementation of the interface standard across products and 
manufacturers. If consistency in implementation is achieved, and the 
protocol standard is unambiguous, then the expectation of 
interoperability is significantly increased, though not guaranteed. By 
implementing conformance testing in the P25 CAP, the program is 
ensuring that each product tested is traceable to the published 
standards.
    The reliance on conformance testing is common across wireless 
technology certification programs, all but one of which is developed 
and administered by their relevant wireless industry associations and 
interest groups such as Wi-Fi, Bluetooth, WiMAX, and LTE. The non-
industry conformance testing example is the European public safety 
communications standard, TETRA. The TETRA compliance assessment program 
is a joint program between government and industry, and relies heavily 
on conformance testing as well. To exclude conformance testing from the 
P25 CAP would make it, to our knowledge, the only wireless technology 
compliance assessment program to do so. In fact, several of the 
manufacturers of P25 equipment also develop TETRA products, as well as 
other wireless devices for the standards listed above and submit their 
other products for conformance testing as required by the respective 
programs. As I have stated previously, the P25 CAP is already a 
minimalistic program. All of the programs listed above are 
significantly more rigorous and resource intensive. Removing 
conformance testing from the program would call into question its 
ability to achieve the goals of confidence and interoperability it was 
established to address. Given the critical importance of the radio 
equipment to both the first responders and the citizens they serve, we 
cannot recommend such a course.
    All of the programs mentioned above also rely heavily on 
interoperability tests, as does the P25 CAP. However, interoperability 
tests only demonstrate whether two different products work together. A 
successful interoperability test result does not demonstrate that the 
products adhere to the standard. In addition, you cannot infer that 
because two different manufacturers' products interoperate that either 
will be interoperable with a third manufacturer. Interoperability must 
be confirmed with a direct test with another product, or in some cases 
a test against a reference model which does not exist in the P25 
industry.
    Interoperability testing in any industry is resource intensive, 
requiring significant coordination among all manufacturers. 
Understanding this, the P25 CAP requires that participating 
manufacturers only demonstrate interoperability with three other 
manufacturers' products, thus limiting the number of coordinated tests 
required. Conformance tests, on the other hand, can be performed 
without any other manufacturer's equipment present.
    Finally, Land Mobile Radio equipment is designed to be fielded for 
years if not decades. Therefore, it is highly likely that products 
fielded today will be operating alongside new products fielded ten or 
even twenty years from now. However, there is no requirement that 
manufacturers test future products against past products. To do so 
would create an exponential growth in the number of tests required, and 
would place an unfair financial and administrative burden on any P25 
equipment manufacturer. Instead, by including conformance testing in 
the program, products released today, as well as ten years from now, 
will show traceability to the same standards, thereby increasing the 
confidence in interoperability while minimizing the testing required.
    NIST and DHS staff presented this rationale to the relevant 
committees within P25 and worked for months to develop an acceptable 
list of tests (at one point only proposing 18 conformance tests out of 
the full set of 92). However, the final recommendation out of P25 to 
DHS was that no conformance tests should be included in the P25 CAP for 
the ISSI. DHS at that point developed a list of conformance tests, with 
input from Federal, state, and local P25 system owners and/or managers 
and published an ISSI Compliance Assessment Bulletin in March of this 
year. The P25 CAP program is now awaiting applications from 
laboratories interested in performing ISSI testing.
    There were indications within the standards committee that there 
would be similar resistance to including conformance testing for 
compliance assessment for the other interfaces, including the common 
air interface.
    However, the tide has turned. I am pleased to say that over the 
last two months we have witnessed a renewed willingness within the P25 
standards body to actively participate in the identification of 
relevant conformance tests for the P25 CAP. We are currently working 
within the standards committees to identify and develop a recommended 
set of conformance test for the conventional CAI, and we hope to see 
significant and expedited progress on developing conformance tests for 
trunked CAI equipment.
    It is frustrating to many that we are only now implementing a 
compliance testing program over a decade after the products have been 
released into the marketplace. And it is true that the program will not 
have a significant impact on the currently installed base. But what is 
important to keep in mind is that the Federal Government's significant 
investment in communications equipment for first responders and other 
law enforcement agencies will drive procurement decisions. In addition, 
there are thousands of agencies that will be upgrading their aging Land 
Mobile Radio systems over the next decade, and most will likely adopt 
the P25 standard. The P25 CAP will have a significant impact on these 
future purchases and will improve the likelihood that interoperability 
can be achieved.
    NIST hopes that within two years, the P25 CAP has a fully 
functional program including performance, conformance, and 
interoperability testing for at least the CAI and ISSI interfaces which 
are crucial to interoperability. Achieving this will require 
significant commitment and focus by all parties, and for its part, the 
NIST is prepared to assist in meeting this worthy goal. NIST remains 
dedicated to continuing to work with this Subcommittee, industry, our 
Federal sponsors and partners, and public safety users to see the P25 
standards completed and to develop programs that help public safety 
purchase interoperable Land Mobile Radio equipment.
    Again, I am honored to be here before this Subcommittee today, and 
I am happy to answer any questions that you may have.

                        Biography for Dereck Orr

    Dereck Orr is the Program Manager for Public Safety Communication 
Standards at NIST's Office of Law Enforcement Standards, and has held 
that position since December 2002.
    In that role, he leads a program that serves as an objective 
technical advisor and laboratory to the Department of Homeland Security 
and public safety to accelerate the adoption and implementation of the 
most critical public safety communication standards and technologies.
    From October 2003 until October 2004, Mr. Orr was detailed to the 
Department of Homeland Security to serve as the Chief of Staff of the 
SAFECOM Office within the Science and Technology Directorate, to help 
establish the new program.
    Prior to working at NIST, Mr. Orr served as a professional staff 
member of the Senate Appropriations Subcommittee for the Departments of 
Commerce, Justice, and State, and Related Agencies under Senator Fritz 
Hollings. In that position, Mr. Orr was responsible for the 
appropriations accounts relating to state and local law enforcement 
issues.
    Previously, Mr. Orr served four years at the Office of Community 
Oriented Policing Services (COPS) at the Department of Justice.
    Mr. Orr received a Masters in Public Policy from the College of 
William and Mary and a Bachelor of Arts in American History from the 
University of Texas at Austin.

    Chairman Wu. Thank you very much, Mr. Orr.
    Dr. Hofmeister, please proceed.

 STATEMENTS OF ERNEST L. HOFMEISTER, SENIOR SCIENTIST, HARRIS 
                          CORPORATION

    Dr. Hofmeister. Thank you, Chairman Wu.
    Chairman Wu and distinguished Members of the Subcommittee, 
thank you for inviting me to testify on the interoperability in 
public safety communications equipment.
    Chairman Wu. Dr. Hofmeister, have you pressed your button? 
Have you turned your mic on?
    Dr. Hofmeister. It says ``talk'' here.
    Chairman Wu. Maybe a little bit closer.
    Dr. Hofmeister. I will try this. How is that?
    Chairman Wu. Terrific.
    Dr. Hofmeister. Well, thank you again for allowing me to 
testify.
    There are a number of technology approaches to achieve 
increasing levels of interoperability, going from swapping 
radios, to gateways, to shared channels, to proprietary shared 
systems, to standards-based shared systems. Harris believes 
that all of these approaches are deployed today to achieve 
varying levels of interoperability.
    At the upper end of the interoperability capability are 
standards-based shared systems. The predominant standard for 
these systems in the United States is the TIA-102 
[Telecommunications Industry Association] P25 suite of Project 
25 standards. The number of deployed P25 systems is increasing 
and the level of interoperability across these systems provided 
by different vendors is increasing, and with radios provided by 
different vendors.
    As a quick standard summary, the TIA-102 P25 standard suite 
consists of approximately 69 published standards with about 13 
in ballot as new, revised or addendum standards, and with about 
15 in draft. This suite addresses 11 defined Project 25 
interfaces in the categories of service, the system and 
equipment. The P25 interfaces critical for interoperability and 
competition (the common air interface [CAI], the inter-RF 
subsystem interface [ISSI], and the fixed station interface 
[FSI]) are specified in more detail in the current suite than 
some others.
    While some not involved in the standards development 
process may comment that standards development takes a long 
time, the TIA process, like other standards development 
organizations, is a consensus-based process by design. The 
standards are developed by top engineers from industry who have 
the knowledge and perspective to assure successful product 
implementation to the standard. Getting to consensus and 
developing the requisite detail of the standard takes time but 
the resultant standard product is technically solid and long-
lasting.
    Harris believes that since 2005 the standards pace is at 
full industry and user support capacity. We have many meetings 
where everybody is making contributions, so we are kind of 
working at capacity that we have, I believe, in the industry.
    Now, there were several questions asked, and I am going to 
try to answer what I can in the testimony here. One was, what 
is the status of public safety land mobile radio standards in 
terms of meeting the original P25 goals of enabling 
interoperability, competition among vendors, spectrum 
efficiency, graceful migration and user-friendly equipment? 
Harris believes that the P25 community has made strong progress 
in meeting each of these cited goals: specifically, the first 
three. For enabling interoperability for radios and radio 
infrastructure, detailed common air interface radio product 
design and interoperability test standards are in place and 
multiple vendor radio products and infrastructure radio 
products have demonstrated a high functional level of 
interoperability through the form of CAI interop testing as 
part of the CAP program over the last year. As Dr. Boyd 
mentioned, over 20 radio products or radio classes from four 
vendors have been approved with Suppliers' Declarations of 
Compliance posted to the official website.
    For enabling interoperability with systems and networks, 
detailed ISSI baseline product design and interoperability test 
standards are in place. The P25 CAP requirements are in place. 
The first ISSI products are emerging. Informal ISSI 
interoperability testing among a number of vendors has already 
taken place. Formal ISSI interoperability testing as part of 
the P25 CAP is expected over the next year.
    And for competition among radio vendors, fairly strong 
competition among radio vendors has developed with over 15 
vendors providing P25 radio products across a variety of 
frequency bands. Competition among P25 system and network 
vendors has developed with five vendors supplying P25 systems. 
Almost all large P25 system procurements have a separate system 
and infrastructure procurement and user radio procurement, so 
there is competition on both levels.
    For spectrum efficiency, from the start the P25 common air 
interface provided the 12.5 kilohertz narrowband capability and 
voice efficiency required by 2013 for ``narrowbanding'' the 
below 512 band and now in the 700 megahertz public safety band. 
The P25 phase 2 common air interface for two-slot TDMA [time 
division multiple access] (two users in 12.5 kilohertz), well 
along in development, will enable meeting the 6.25 kilohertz 
per voice path requirement for the 700 megahertz band ahead of 
the January 1, 2017 deadline, as well as the future unspecified 
requirement for the below 512 band.
    What mechanisms exist for customers to have confidence that 
P25 equipment will be interoperable and function as intended? 
There are several layers in place. First, P25 manufacturers 
design and extensive internal product verification test 
processes are already in place by Harris, and others. There is 
past industry practice. The manufacturers with deployed or 
deploying systems developed a practice of communicating and 
resolving cited interoperability issues. P25 CAP is another 
layer that has been installed recently. The DHS-recognized labs 
are implementing the P25 CAP that performs formalized testing 
to the standards and requirements to provide additional 
assurance of interoperability, performance, and conformance (to 
the standards) for critical interfaces. Harris supports a 
solid, practical DHS P25 CAP program and associated testing for 
the benefit of our customers, other public safety agency users, 
and manufacturers. Harris developed and maintains a DHS-
recognized compliance laboratory.
    In addition, as part of procurement requirements, 
procurement agencies have the ability to specify special tests 
as part of the procurement and we are seeing that specification 
more frequently.
    So Chairman Wu and other Members, thank you for the 
opportunity to testify today and share with you the Harris 
views on interoperability in public safety communications 
equipment. Interoperability is a multidimensional challenge 
that involves five interdependent elements: governance, 
standard operating procedures, technology including standards, 
training and exercises, and usage. The level of 
interoperability achieved depends on the progress in each of 
the elements and the coordination and management of the five 
elements. My remarks have focused on the practical technical 
solutions.
    For the higher levels of interoperability, Harris believes 
that while more work is needed, strong progress has been made 
in recent years through the continued P25 standards 
development, the CAP testing and the public safety procurement 
requirements. The product P25 standards, the testing standards 
and the product features are in place or soon will be in place 
to enable a solid level of P25 trunked and conventional system 
interoperability.
    Thank you, Mr. Chairman. I would be happy to answer any 
questions. Thank you.
    [The prepared statement of Dr. Hofmeister follows:]

                Prepared Statement of Ernest Hofmeister

INTRODUCTION

    Chairman Wu and distinguished members of the Subcommittee, thank 
you for inviting me to testify on ``Interoperability in Public Safety 
Communications Equipment.''
    I am a senior scientist in the Public Safety and Professional 
Communications (PSPC) group of the RF Communications Division of the 
Harris Corporation. I have worked as an engineer/scientist and 
technical manager in the Land Mobile Radio (LMR) business for over 17 
years for Harris and the predecessor companies of Tyco Electronics (M/
A-COM) and Ericsson GE. For the last ten years I have been leading the 
business' LMR TIA-Project 25 standards participation.
    Harris strongly supports the TIA-P25 standards development and has 
identified more than 12 top senior Harris engineers to work on TIA-P25 
standards development. A number of these senior engineers hold chair or 
vice-chair leadership positions in TIA and P25 subcommittees. For the 
last six years I have served as chair of two subcommittees involved in 
critical standards development: the TIA TR-8.12 two-slot TDMA 
subcommittee (next generation air interface) and the APIC Vocoder Task 
Group (speech coding standards). I also represent Harris on the P25 
Compliance Assessment Program matters in the P25 community. From 1999-
2003, I served on the Steering Committee of the Public Safety National 
Coordination Committee (NCC) FACA advising the FCC on interoperability 
channels/standards for the emerging 700 MHz public safety spectrum.
    LMR products and associated standards represent the core business 
of Harris PSPC. Harris PSPC is a leading supplier of assured 
communication systems and equipment for public safety, Federal, 
utility, commercial, and transportations markets--with products ranging 
from the most advanced IP voice and data networks, to industry leading 
multiband, multimode radios, to public safety-grade broadband video and 
data solutions. With more than 80 years of experience, Harris PSPC 
supports over 500 systems around the world.
    Harris PSPC is a full capability P25 supplier with a full range of 
P25 radio products, systems, networks and services with over 50 P25 
systems either fully deployed or currently being deployed in North 
America. Harris PSPC support of the P25 standard extends beyond 
products alone. The Harris P25 Compliance Assessment Laboratory in 
Lynchburg, VA was one of the first labs recognized by DHS as an 
interoperability and performance testing compliance lab to satisfy the 
DHS Compliance Assessment Bulletin (CAB) requirements for the P25 Ph 1 
Common Air Interface. This facility has hosted several formal P25 CAP 
interoperability tests with P25 suppliers such as Motorola, E.F. 
Johnson, Kenwood, Tait, ICOM and Technisonic. Harris invests 
significant resources each year in the P25 standard process, product 
development and compliance assessment testing.

OVERVIEW COMMENTS ON PUBLIC SAFETY COMMUNICATIONS INTEROPERABILITY

    Harris agrees with the description and characterization of 
interoperability on the DHS SAFECOM Interoperability website page \1\ 
and in the DHS Interoperability Continuum Brochure: \2\
---------------------------------------------------------------------------
    \1\ http://www.safecomprogram.gov/SAFECOM/interoperability/
default.htm
    \2\ Interoperability Continuum, A tool for improving emergency 
response communications and interoperability, U.S. DHS, from website 
http://www.safecomprogram.gov/SAFECOM/interoperability/default.htm, 
file 
Interoperability<INF>-</INF>Continuum<INF>-</INF>Brochure<INF>-</INF>2.p
df

        <bullet>  What is communications interoperability? Wireless 
        communications interoperability specifically refers to the 
        ability of emergency response officials to share information 
        via voice and data signals on demand, in real time, when 
---------------------------------------------------------------------------
        needed, and as authorized.

        <bullet>  Interoperability is a multi-dimensional challenge 
        involving five interdependent elements as illustrated in the 
        diagram from the Interoperability Continuum Brochure:
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

    The overall topic of Interoperability in Public Safety 
Communications Equipment and the subtopics of P25 standards status, 
customer confidence that P25 equipment will be interoperable, and 
recommendations on timely standards development and compliance 
assessment processes fall into the TECHNOLOGY element, so the remainder 
of the Harris testimony will focus on the TECHNOLOGY ELEMENT.

TECHNOLOGY ELEMENT INCLUDING LMR STANDARDS STATUS

    Technology Approaches--``Technology, including standards, for voice 
and data communications is a critical tool for improving 
interoperability, but it is not the sole driver of an optimum 
solution.'' \3\ As displayed in the Technology bar of the 
Interoperability Continuum, there are a number of approaches to achieve 
increasing levels of interoperability: swapping radios, gateways, 
shared channels, proprietary shared systems, and standards-based shared 
systems. Harris believes that all of these approaches are deployed 
today to achieve varying levels of interoperability.
---------------------------------------------------------------------------
    \3\ From reference cited in footnote 2.
---------------------------------------------------------------------------
    Several gateway products on the market enable effective 
interoperability among legacy analog communication systems and more 
modern digital communications systems. While the LMR radio spectrum is 
fragmented and split into multiple RF bands, certain bands through 
regulatory rules and/or frequency coordination practice have set aside 
subsets of channels to be shared for interoperability. In particular, 
the narrowband portion of the 700 MHz public safety band has a number 
of dedicated interoperability channels with the guidelines and standard 
(P25 Ph 1 conventional) specified. The 800 MHz public safety band has 
set aside mutual-aid channels for interoperability.
    The emergence of multi-band, multi-protocol radios that can 
communicate on several or all of the LMR bands with multiple radio 
protocols will enable increased levels of interoperability in the 
future. There are a number of proprietary shared systems where there 
are gateways as well as agreements and shared protocols in place to 
enable interoperability across these systems.
    At the upper end of interoperability capability are standards-based 
shared systems. The predominant standard for these systems in the U.S. 
is the TIA-102 P25 suite of Project 25 standards. The number of 
deployed P25 systems is increasing and the level of interoperability 
across these systems provided by different vendors is increasing as 
well with radios also supplied by different vendors.
    Standards Status Summary \4\--As noted, the predominant LMR public 
safety standard in the U.S. is the TIA-102 P25 suite of Project 25 
standards.\5\
---------------------------------------------------------------------------
    \4\ Status from three TIA documents: PN-3-3591-UGRV1 (to be 
published as TIA-102), Project 25 System and Standards Definition, TIA 
Standard, January 2010 (in review for ballot in TIA-TR-8 committee); 
TR8docs.xls (Apr 28, 2010); and TR8proj.xls (Apr 28, 2010).
    \5\ The P25 standards have and continue to be developed under an 
MoU agreement between the Telecommunications Industry Association (TIA) 
as a sanctioned Standards Development Organization and the Project 25 
Steering Committee representing APCO, NASTD, and the Federal Gov't

        <bullet>  Project 25 started in 1989 and has developed and 
        continues to develop multiple standards in conjunction with TIA 
        and in response to the user/practitioner driven Project 25 
        Statement of Requirements (SoR). The SoR evolves to reflect new 
        user requirements and corresponding new and updated standards 
---------------------------------------------------------------------------
        are developed.

        <bullet>  Currently, the TIA-102 P25 standards suite consists 
        of approximately 69 published standards with about 13 in ballot 
        as new, revised, or addendum standards, and with about 15 in 
        draft. This suite addresses 11 defined Project 25 interfaces in 
        the categories of service, system, and equipment.

        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

        <bullet>  The P25 interfaces critical for interoperability and 
        competition [the common air interface (CAI), the inter-RF 
        subsystem interface (ISSI), and the fixed station interface 
        (FSI)] are specified in more detail in the current suite than 
        some other interfaces.

        <bullet>  The focus of the P25 standards development effort 
        over the last couple of years is:

                  P25 CAP--developing the bulletins and standards 
                associated with implementation of the P25 Compliance 
                Assessment Program for the P25 Ph 1 trunked FDMA CAI, 
                the ISSI, the Ph 1 conventional CAI, and then the P25 
                Ph 2 trunked TDMA CAI.

                  P25 Ph 2 TDMA CAI--completing the standards suite 
                for the P25 Ph 2 trunked TDMA CAI for doubled capacity 
                and 6.25 kHz per voice path spectral efficiency. The 
                core definition standards needed for product 
                development are complete or nearly ready for ballot. 
                The associated test and measurement documents for 
                performance, interoperability, and conformance are well 
                along in the drafting stage.

                  ISSI Scopes 2 and 3--completing Scopes 2 and 3 for 
                the ISSI suite of standards. The Scope 1 standards are 
                complete, support product development, and are mature 
                for procurement. The core definition Scope 2 and 3 
                documents are well along with the supporting 
                measurement documents in drafting. The P25 console 
                interface standard (CSSI) is a subset of the ISSI 
                standard suite.

                  Security--completing the Inter KMF interface 
                standards and encryption updates.

        <bullet>  While some not involved in the standards development 
        process might comment that standards development takes a long 
        time, the TIA process, like other Standards Development 
        Organizations, is a consensus based process by design. The 
        standards are developed by top engineers from industry who have 
        the knowledge and perspective to assure successful product 
        implementation to the standard. Getting to consensus and 
        developing the requisite detail of the standard takes time, but 
        the resultant standard product is technically solid and long 
        lasting.

Question 1a: What is the status of the public safety land mobile radio 
standards process in terms of meeting the original Project 25 goals of 
enabling interoperability, competition among vendors, spectrum 
efficiency, graceful migrations from legacy systems, and user-friendly 
equipment?

    Harris believes that the P25 community has made strong progress in 
meeting each of the cited original P25 goals.

        <bullet>  Enabling interoperability--radios & radio 
        infrastructure: Detailed CAI radio product design and 
        interoperability test standards are in place and multiple 
        vendor radio products and infrastructure radio products have 
        demonstrated a high functional level of interoperability 
        through the formal CAI interoperability testing as part of the 
        P25 Compliance Assessment Program (CAP) over the last year. As 
        of May 24, 2010, twenty vendor radio products (or radio model 
        classes) from four vendors (EF Johnson, Harris, Motorola, and 
        Tait) have approved Suppliers Declaration of Compliance (SDoCs) 
        posted to the official RKB website for information and review 
        by public safety agencies and practitioners.

        <bullet>  Enabling interoperability--systems & networks: 
        Detailed ISSI baseline product design and interoperability test 
        standards are in place. P25 ISSI CAP requirements are in place. 
        The first ISSI products are emerging. Informal ISSI 
        interoperability testing among a number of vendors has taken 
        place. Formal ISSI interoperability testing as part of the P25 
        CAP is expected over the next year.

        <bullet>  Competition among vendors: Fairly strong competition 
        among radio vendors has developed with over 15 \6\ vendors 
        providing P25 radio products across a variety of frequency 
        bands. Competition among P25 system and network vendors has 
        developed with five vendors supplying P25 systems. Almost all 
        large P25 system procurements have a separate system/
        infrastructure competition and user radio competition.
---------------------------------------------------------------------------
    \6\ P25 radio or related product vendors include: Harris, Motorola, 
EF Johnson, EADS, Tait, Kenwood, ICOM, Daniels, Reim, Datron, Thales, 
Teltronic, Technisonic, Zetron, and Futurecom.

        <bullet>  Spectrum efficiency: From the start, the P25 Ph 1 
        FDMA CAI provided the 12.5 kHz narrowband capability and 12.5 
        kHz per voice path spectral efficiency required by 2013 for 
        ``narrowbanding'' the below 512 MHz band and now in the 700 MHz 
        band. The P25 Ph 2 TDMA CAI (two users in 12.5 kHz) standards, 
        well along in development, will enable meeting the 6.25 kHz per 
        voice path requirement for the 700 MHz band ahead of the Jan 1, 
        2017 deadline as well as the future (unspecified) requirement 
        for the below 512 MHz band. In addition to satisfying the 
        regulatory requirements, the P25 Ph 1 and Ph 2 CAIs are 
        efficient in using the scarce public safety spectrum. The P25 
        Ph 2 CAI essentially doubles the capacity of a P25 Ph 1 system. 
        In addition, both the P25 Ph 1 and Ph 2 CAIs are or will be 
        deployed using trunking and simulcast techniques for enhanced 
---------------------------------------------------------------------------
        spectral efficiency.

        <bullet>  Graceful migrations from legacy systems: Over the 
        years, the P25 system vendors have successfully migrated many 
        of their legacy customers to P25 according to the customer 
        needs and plans and without disruption of mission critical 
        communications. Harris has successfully migrated a number of 
        its EDACS customers to P25 according to their needs and plans 
        and there are a number of migrations in the planning process 
        now.

        <bullet>  User-friendly equipment: Harris believes that P25 
        equipment is user-friendly, but, because of its complexity, 
        formal training is highly recommended for the user to obtain 
        the maximum benefit with efficiency. Harris believes that all 
        P25 equipment vendors provide user manuals and offer formal 
        training for their products.

Question 1b: How does the status of the standards process impact the 
communications equipment that public safety officials are buying today?

        <bullet>  While the standard suite will continue to evolve with 
        new and revised standards (otherwise the standards are dead) in 
        response to the changing P25 SoR, Harris believes the current 
        suite of P25 standards are rich and mature with corresponding 
        products from several vendors so the public safety procurements 
        can be assured of competition and functional capability to 
        match the public safety user needs. The current suite, 
        including the P25 Ph 1 FDMA CAI and the baseline ISSI offer a 
        very solid and rich set of public safety features. There have 
        been many P25 procurements over the last few years with a 
        number underway now based on the current P25 standards suite 
        and products.

        <bullet>  Almost all procurements specify a future smooth 
        migration to new features on particular interfaces. Early 
        adopters are specifying the coming P25 Ph 2 TDMA CAI for 
        capacity and spectral efficiency or a definite migration 
        timeline with committed costs to P25 Ph 2.

Question 2: What mechanisms exist for customers to have confidence that 
P25 equipment will be interoperable and function as intended?

        <bullet>  P25 Manufacturer Design and Extensive Internal 
        Product Verification Testing Processes: Harris follows rigorous 
        internal product design, test, and verification processes to 
        achieve the highest practical assurance that our products meet 
        design requirements, including standards, and have been tested 
        to demonstrate the features offered in the product at both the 
        product level and the system level. Harris follows a Stagegate 
        Product Development Process consisting of five thresholds 
        leading to production as part of the Harris Quality Management 
        System that is registered and conforming to the requirements of 
        ISO 9001:2008. Formal product and systems testing conducted by 
        the Harris Systems Integrity group consists of Engineering 
        Verification Testing (EVT), Systems Integration & Verification 
        Testing (6 months), and finally Final System Validation 
        Testing including Field Validation Testing (3-4 months). 
        Formal P25 Compliance Assessment Program (P25 CAP) testing for 
        the performance, interoperability, and conformance scopes as 
        appropriate for the P25 interfaces within the P25 CAP is 
        performed in a DHS Recognized P25 CAP Laboratory.

        <bullet>  Past/Current Industry Practice: Prior to the 
        implementation of the P25 CAP, customers with a 
        interoperability/function concern went directly to the 
        manufacturer. If satisfaction was not received, the customer 
        could go to the appropriate TIA-P25 subcommittee for 
        resolution. This process continues today. A few years ago, 
        there were a number of issues identified in P25 systems being 
        deployed and these issues were treated in an informal Hosted 
        Manufacturers Interoperability Board (HMIB). After resolution 
        of this set of issues, the HMIB was transitioned into the 
        formal TIA TR-8.25 P25 Compliance Assessment subcommittee. In 
        many cases, interpretation of the standard created the issue 
        and the solution was to clarify the standard with revisions and 
        upgrades. The majority of this standards cleanup work has been 
        done. Products compliant with the newer standard versions 
        should not have issues of interoperability. Also, in many 
        cases. for newer interfaces the standards are consensus 
        ``Greenfield'' so challenges with legacy implementations should 
        be much reduced.

                  As a result of the HMIB and associated activity, the 
                P25 manufacturers with deployed or deploying systems 
                developed a practice of communicating and resolving 
                cited interoperability items. There are communications 
                between the systems experts of Harris and Motorola on 
                cited interoperability items so that these items can be 
                understood and resolved. Over the last few years, 
                vendors have deployed multiple P25 systems that are 
                operational with radio user equipment from one or 
                several other vendors. Harris has at least two deployed 
                and operational P25 systems for which all the user 
                radios are supplied by other vendors.

        <bullet>  P25 CAP: Recently, DHS recognized laboratories are 
        implementing the P25 Compliance Assessment Program (CAP) that 
        performs formalized testing to standards and requirements to 
        provide additional assurance of interoperability, performance, 
        and conformance (to the standards) for critical P25 interfaces. 
        The results of the formal P25 CAP testing for the product under 
        test are documented in SDoCs (Supplier's Declaration of 
        Compliance) and STRs (Summary Test Reports). The SDoCs and STRs 
        are reviewed by DHS and posted to the reference repository, the 
        RKB (Responder's Knowledge Base) available to public safety 
        procuring agencies and practitioners. The P25 interfaces 
        incorporated into the P25 CAP are: the P25 Ph 1 trunked FDMA 
        CAI, the ISSI, the P25 Ph 1 conventional FDMA CAI, and then the 
        P25 Ph 2 trunked TDMA CAI.

    Harris supports a solid, practical DHS P25 Compliance Assessment 
Program (P25 CAP) and associated testing for the benefit of our 
customers, other public safety agencies/users, and manufacturers. 
Harris developed and maintains a DHS Recognized P25 Compliance 
Assessment Laboratory, recognized in May 2009, for the required scopes 
of P25 CAP CAI Baseline testing for performance and interoperability. 
The Harris Recognized Laboratory has performed performance testing on 
its P25 radio products and has hosted formal P25 CAP interoperability 
testing for multiple P25 radio product vendors. Similarly, Harris P25 
radio and infrastructure products have been tested at two other 
Recognized Laboratories. As a result of this testing, SDoCs and STRs 
for seven Harris P25 products (or radio model classes) are now posted 
on the RKB website.

        <bullet>  Procurement Requirements: As part of procurement 
        requirements, procuring agencies can specify demonstration of 
        any special interoperability and function requirements 
        including, or in addition to, the P25 CAP.

        <bullet>  Special Testing as Part of Contract: Procuring 
        agencies can also specify certain interoperability and 
        functional testing, including or in addition to, the P25 CAP as 
        part of their Customer Acceptance Testing.

Question 3: What recommendations do you have to ensure that the 
standards development and compliance assessment processes meet the 
needs of public safety in a timely manner?

        <bullet>  Although challenging, the P25 suite of standards 
        could be organized into ``releases'' like some other standards 
        to simply and clarify the description of standards content over 
        time; i.e., Release 1, Release 2, Release 2.1 etc. P25 products 
        could then be marked as compliant with P25 Release 1, P25 
        Release 2 etc. This could also simplify any P25 product 
        compatibility descriptions.

        <bullet>  Again, although challenging and having been discussed 
        a number of times by users and manufacturers in the P25 
        standards community, the array of P25 mandatory and standard 
        option features could be grouped or packaged into levels of 
        increasing capability; i.e., P25 Level 0 (baseline); P25 Level 
        1 (Level 0 plus more features); P25 Level 2; etc. This grouping 
        of features could make the product marking of features 
        supported and the P25 CAP testing of features packages more 
        simplified and efficient.

        <bullet>  Agreement among public safety agencies on the 
        features for interoperability, as defined by several levels of 
        interoperability, would be beneficial. These levels could 
        include: P25 Interoperability Capability 0 (baseline); P25 
        Interoperability Capability 1 (Capability 0 plus more 
        features), etc. This grouping of interoperability capability 
        features would make specification and testing of 
        interoperability simpler, more efficient, and adaptable to the 
        interoperability needs of various public safety agencies.

        <bullet>  Prioritizing the consensus-based standards 
        development according to the needs of the public safety 
        agencies and the industry capability to support the development 
        is important.

        <bullet>  As a slight note of caution, Harris urges the 
        subcommittee to consider an appropriate balance among testing, 
        regulatory requirements and flexibility for innovation within 
        the P25 standards and products. Harris certainly supports 
        rigorous testing for compliance for mission-critical public 
        safety communication products and systems. While it can be 
        argued that more testing is always good and may catch an 
        unusual behavior or concern, there is a point where additional 
        testing, especially redundant testing, does not add significant 
        assurance benefit. It is possible that ``over-testing'' and 
        regulation requirements could become a barrier to entry into 
        the P25 market for smaller companies and deter a larger base of 
        competition. Also, for P25 manufacturers, the necessity of 
        supporting any over testing and regulation requirements will 
        divert critical engineering resources from advancement of new 
        P25 standards and the development of new P25 product features. 
        It will inevitably increase the time for completion of certain 
        standards and increase the time-to-market for some product 
        features that are much requested by public safety agencies.

CONCLUSION

    Chairman Wu and other members of the Subcommittee, thank you for 
the opportunity to testify today and share with you the Harris 
Corporation views on Interoperability in Public Safety Communications 
Equipment. As previously noted, interoperability is a multi-dimensional 
challenge that involves five interdependent elements. These elements, 
as illustrated in the diagram from the DHS Interoperability Continuum 
Brochure, include Governance, Standard Operating Procedures, Technology 
(including LMR standards), Training & Exercises, and Usage. The level 
of interoperability achieved depends on the progress in each of the 
elements and the coordination/management of all five elements. My 
remarks today have focused on the Technology (including LMR standards) 
area where we at Harris believe that substantial progress has been 
achieved in recent years in the establishment of practical technical 
solutions and approaches. For the higher levels of interoperability 
based on standards-based shared systems, Harris believes that while 
more work is needed, strong progress has been made in recent years 
through continued TIA-P25 standards development, P25 CAP testing, and 
public safety agency procurement requirement and practices that include 
separate system infrastructure and user radio procurements. The P25 
product standards, the testing standards, and product features are in 
place or soon will be in place to enable a solid level of P25 trunked 
and conventional systems interoperability.

                    Biography for Ernest Hofmeister
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Dr. Hofmeister holds the position of Senior Scientist within the 
Harris Public Safety and Professional Communications (PSPC) group. He 
is responsible for establishing and representing the Harris PSPC 
technical position on standards and regulatory issues within the 
company, industry, and standards/regulatory bodies. He provides 
leadership for Harris participation in the TIA TR-8 Mobile and Personal 
Private Radio Standards committee and associated APCO Project 25 
committees and holds several leadership positions on subcommittees and 
task groups. Dr. Hofmeister represented the Harris PSPC predecessor 
company, Tyco Electronics (M/A-COM), on the Steering Committee of the 
Public Safety National Coordination Committee (NCC) advising the FCC on 
operational rules for the emerging 700 MHz public safety band. He also 
has technical oversight involvement on new technology introduction and 
in establishing technical strategies in line with business strategies.

Relevant Experience

    Dr. Hofmeister has worked in the Land Mobile Radio industry for 17 
years in Lynchburg, VA with Harris, Tyco Electronics (M/A-COM) and 
Ericsson GE Private Radio Systems in the positions of Senior Scientist, 
Distinguished Fellow of Technology, Chief Technology Officer, and 
Manager of Advanced Technology. He also led several developments for 
the Ericsson LMR system product EDACS including the coordination of 
Prism TDMA developments and advanced marketing of EDACS TDMA technology 
and marketing. The TDMA developments included an air interface, a base 
station and portable at 800 MHz, and a TDMA infrastructure overlay. 
Previously, he spent eight years in research and development of 
industrial imaging technology at the GE Corporate Research and 
Development Center in Schenectady, NY and 21 years in research and 
development of aerospace and defense radar systems at GE Aerospace 
Electronics Systems in Utica, NY.

Past Employer

GE Corporate Research and Development Center, Schenectady, NY
GE Aerospace Electronic Systems, Utica, NY

Education and Certification

Ph.D. (EE)    Syracuse University, 1973; Communications and Controls 
Major
MSEE    Syracuse University, 1969
BSEE    Case Western Reserve University, 1963
GE Management Development Course, 1991; GE Engineering Operations 
Course, 1983; GE Advanced (ABC) Course in Engineering, 1966

    Chairman Wu. Thank you, Dr. Hofmeister.
    Mr. Muench.

 STATEMENTS OF JOHN MUENCH, DIRECTOR OF BUSINESS DEVELOPMENT, 
                         MOTOROLA INC.

    Mr. Muench. Thank you, Mr. Chairman Wu, Ranking Member 
Smith.
    When the P25 standard was first envisioned by APCO 
[Association of Public-Safety Communications Officials], the 
goal was to create a vibrant marketplace for public safety 
equipment that allows all vendors to compete on a level playing 
field. This goal has been achieved, providing interoperability, 
product innovation and price competition to the public safety 
market. Motorola took an early lead in the development of the 
Project 25 radio systems, and today over 13 radio manufacturers 
sell Project 25 equipment to public safety users throughout the 
world. Project 25 started with a wireless interface, commonly 
referred to as the common air interface, and this has been 
functionally complete for some time.
    In addition to the wireless interface, there are 10 other 
interfaces, or connection points, for Project 25 systems that 
are identified for standardization. Progress on the remaining 
interfaces is in various stages of development and driven by 
current market needs.
    There are a growing number of industry participants that 
continue the work necessary to complete and maintain a full set 
of documents for each of the 11 interfaces. Since the Project 
25 standard was first adopted by the FCC [Federal 
Communications Commission] in 2001, 36 states have developed 
statewide P25 networks as have 165 cities and counties. In 
total, nearly 70 percent of the U.S. population is covered by a 
public safety Project 25 network. Practically speaking, the 
widespread adoption of the P25 standard has allowed for 
interoperability, regardless of state or local boundaries.
    Motorola invented the police radio in 1930 and strives 
toward total customer satisfaction. When a first responder 
orders a public safety radio and network, Motorola does not 
simply perform the installation and walk away. We continue to 
work to ensure the equipment performs as advertised, as 
intended. This includes testing to validate interoperability 
with P25 equipment from other manufacturers. Motorola 
understands there are life-threatening consequences if 
equipment fails to function as intended. Motorola has an open-
door policy that allows any manufacturer to test P25 standards-
based features with our P25 networks. Motorola also 
participates in the DHS testing program. In adherence to the 
NIST guidelines, Motorola has posted the compliance testing 
results for our entire Project 25 portfolio of products on the 
Responder Knowledge Base.
    Significant progress has been made with respect to the 
development of Project 25 standards. The original Project 25 
goals created by the public safety community have been met and 
additional standards work continues for new technologies and 
features. In order to maintain an efficient P25 standards 
process, it is important to maintain a diverse group of users, 
as Project 25 covers Federal, state, county and local users. 
These users include law enforcement, fire, police and EMS 
services. It is just as critical to include industry 
representation in these discussions as industry writes the 
standards, they build to the standards and they test the 
standards. For the consensus process, this group ensures that 
there are agreed-upon common goals supported by the user 
organizations and industry. These goals are properly 
prioritized so that all participants have a common set of 
objectives. Once those priorities are set, this Project 25 
group must sustain focus on the task at hand until it is 
complete. By keeping these basic steps top of mind during the 
standards process, we can continue to meet the needs of public 
safety in a timely manner.
    Project 25, which is focused primarily on mission-critical 
voice, is not the end of the interoperability story. Public 
safety users are demanding high-bandwidth applications and 
content to facilitate greater intelligence and information 
sharing between local, state and Federal agencies. Motorola 
believes it is imperative that Congress act to dedicate the D 
block spectrum for public safety broadband. This will provide 
public safety with enough spectrum to deploy broadband networks 
in addition to the existing Project 25 mission-critical voice 
networks capable of meeting the public safety demand for the 
foreseeable future.
    Again, I want to thank you for holding this hearing on an 
issue critical to public safety in this country. 
Interoperability saves lives, and Motorola remains committed to 
building the mission-critical communications equipment first 
responders have trusted for 80 years. Thank you.
    [The prepared statement of Mr. Muench follows:]

                   Prepared Statement of John Muench

    Chairman Wu, Ranking Member Smith, and members of the Committee, 
thank you for the opportunity to discuss interoperable public safety 
voice communication, and specifically the Project 25 Standard. It seems 
only appropriate that the Technology and Innovation Subcommittee hold 
this hearing, given the significant innovation and technological 
advancements that have occurred in public safety communications, in 
part, driven by the Project 25, or P25, standard.

What is the P25 Standard?

    When the P25 standard was first envisioned by the Association of 
Public-Safety Communications Officials (APCO), the goal was to improve 
mission-critical communication interoperability, to see more 
competition in the marketplace, and to spur innovation. Through the 
hard work of APCO, Telecommunications Industry Association (TIA), 
government officials, and equipment manufacturers, the P25 standard has 
created a vibrant marketplace for public safety equipment that allows 
all vendors to compete on a level playing field, resulting in price 
competition and product innovation. Motorola took an early lead in the 
development of P25 radios and today, over 13 equipment manufacturers 
sell P25 equipment to public safety users throughout the world. (See 
Appendix A.) In fact, the P25 standard is considered the key to 
achieving interoperability by industry and government alike. As such, 
the FCC has adopted P25 as the interoperability standard for public 
safety narrowband operations in the 700 MHz spectrum recently made 
available to public safety nationwide through the DTV transition.

What Is the Status of Interoperability?

    Since the P25 standard was first adopted by the FCC in 2001, 
thirty-six states have deployed statewide P25 networks, as have one 
hundred sixty-five cities and counties. (See Appendix B.) In total, 
nearly 70% of the U.S. population is covered by a P25 public safety 
network. (See Appendix C.) Practically speaking, the wide-spread 
adoption of the P25 standard has allowed for interoperability:

        <bullet>  Among public safety agencies at the Federal, state, 
        and local level,

        <bullet>  Between state police in neighboring states,

        <bullet>  For multiple jurisdictions responding to a 
        catastrophic event, such as Hurricane Katrina, and;

        <bullet>  At large-scale, planned events, such as the Super 
        Bowl and Olympics.

    We have seen first-hand that effective, coordinated, and accessible 
communications between first responders is critical to the public 
safety mission, and the P25 standard has led to significant 
improvements in public safety interoperability.
    There is still a great deal of work to be done and several factors 
will contribute to how quickly P25 is adopted by even more 
organizations. One of the biggest hurdles to ubiquitous use is that it 
takes very long periods of time to replace old systems and radios with 
P25 compliant equipment. The life-cycle of a public safety radio is 
anywhere from seven to fifteen years, and for a public safety network, 
it can be decades. Given the limited budget resources of state and 
local governments, Congress cannot mandate interoperability today and 
see it realized tomorrow unless it provides the funds to accomplish 
equipment replacement.

When Will the Standard Be Complete?

    Standards work on P25 will only be complete when the standard is no 
longer in use. From its inception, P25 was expected to be a living 
document, subject to amendments, revisions, additions/deletions as 
technology advanced. Revisions are normal and to be expected, given 
that P25 replaces numerous proprietary solutions that have been sold by 
multiple manufacturers for decades. As more P25 systems are deployed, 
and more users become engaged in the process, additional requirements 
emerge and changes are made.
    Similarly, the original P25 architecture has been significantly 
enhanced as the list of features and services expands. The first P25 
architecture defined only five system interfaces. Interfaces are the 
physical locations where one component ``connects'' with another. 
Today, eleven P25 interfaces are identified. As desired features and 
services are added or redefined, the interfaces that make up the system 
architecture likewise must be reviewed and updated.
    To date, TIA has published nearly two hundred documents, creating 
or revising almost fifty published standards utilized by industry to 
design and develop interoperable P25 products and systems. TIA further 
develops and proposes documents for interoperability testing and 
standards compliance demonstration to the government. Project 25 has 
two phases of standards development driven by varying FCC regulatory 
requirements. Phase 1 products are designed to operate in a 12.5 kHz 
channel bandwidth and have been in use since the mid 1990s. Phase 2 
equipment is developed to operate with greater spectral efficiency and 
essentially double the number of voice paths that operate within a 
single 12.5 kHz channel.
    As of May 2010, the technical specifications for Project 25's Phase 
1 systems are functionally complete, with compliance testing underway 
and multiple manufacturers listed as meeting the National Institute of 
Standards and Technology (NIST) compliance requirements for their 
products. P25 Phase 1 allows for two critically important features. 
First, Phase 1 ensures that a P25 radio in the hands of a first 
responder can communicate directly with any other P25 radio in the same 
spectrum band. This means that the Michigan State Police officers who 
responded to Hurricane Katrina were able to directly communicate with 
the Louisiana State Police, in Louisiana. Second, P25 Phase 1 allows a 
first responder from one jurisdiction to communicate with the network 
itself in a neighboring jurisdiction. This allows the first responder 
to communicate not only with officers in the field, but with dispatch, 
even though they are outside the coverage area of their ``home'' 
network.
    While work continues on Phase 2, keep in mind that there is no 
functional change that will be apparent to the officer or firefighter 
in the field due to Phase 2 improvements. Phase 2 essentially allows 
more public safety radios to utilize a given P25 network, but future 
enhancements to the standard will not change interoperability for the 
public safety official.

How Does a First Responder Know They Are Buying P25 Equipment?

    Motorola places paramount importance on our relationship with our 
customers in the public safety community. Motorola invented the police 
radio in 1930 and views our customer relationship more like a 
partnership.
    When fire departments were concerned that firefighters who dropped 
their radios in a fire could not find them in darkness and smoke, 
Motorola responded with a glow-in-the-dark radio. Similarly, when law 
enforcement expressed an interest in finding ways to improve officer 
safety, Motorola developed emergency alerting capability in our radios. 
When a police or fire department orders a public safety radio and 
network, Motorola does not simply perform the installation and walk 
away. We continue to work to ensure the equipment performs as intended, 
including testing to validate interoperability with P25 equipment from 
other vendors. Motorola understands there are life-threatening 
consequences if equipment fails to function as intended.
    In addition to the informal internal testing Motorola performs 
individually and with our competitors at our labs in Schaumburg, IL, 
Motorola also participates in the Department of Homeland Security 
(DHS)-defined formal compliance testing programs. The formal testing 
program is validated by the standards experts at the NIST. When the 
testing is complete, manufacturers post their results in the Responder 
Knowledge Base, or RKB. To date, Motorola has posted tested and 
validated P25 equipment for portables, mobiles, and infrastructure. 
(See Appendix D.)

Recommendations to Meet Public Safety Needs

    As you can see, significant progress has been made with respect to 
P25 standards development. The original P25 goals, created by the 
public safety community, have been met, and additional standards work 
continues for new technology and features. In order to maintain an 
efficient P25 standards process, it is important to:

        <bullet>  Maintain a diverse group of users and industry to 
        drive the P25 consensus process,

        <bullet>  Document the common goal of the group, and;

        <bullet>  Sustain focus on the goals.

    By keeping these tenants top of mind during the standards process, 
P25 practitioners can continue to meet the needs of public safety in a 
timely manner.

Public Safety Needs More Spectrum for Broadband Applications

    But P25, which is focused primarily on voice systems, is not the 
end of the interoperability story. In the past ten years, we have seen 
an explosion in demand for data applications in the consumer space, via 
text, email, pictures, and video. Likewise, public safety users are 
demanding high-bandwidth applications and content to facilitate greater 
intelligence and information sharing between local, state and Federal 
agencies, to enhance criminal investigations, and to improve the safety 
of our first responders. Imagine an officer responding to a 9-1-1 call 
and arriving on the scene, already knowing the situation on the ground 
because she was able to see live video streaming in her vehicle, or a 
firefighter being able to look at an electronic blueprint of a building 
before arriving at the fire. These are just some of the innovative 
applications available today to public safety, however, the use of this 
data has been limited due to the lack of available spectrum.
    Unfortunately, today's public safety officers have limited access 
to data services. Prior to the 700 MHz allocations, public safety 
lacked the spectrum to enable mobile services. Today's public safety 
networks are only capable of providing the functional equivalent of 
commercial texting services. Of course, public safety users can buy 
mobile broadband service from commercial carriers, and many do, but 
these networks rarely provide the reliability and coverage that first 
responders demand from their communications networks. Motorola believes 
that it is imperative that the Congress act to dedicate the 10 MHz ``D 
Block'' spectrum for public safety broadband. This will provide public 
safety with a total of 20 MHz of 700 MHz spectrum to deploy broadband 
networks capable of meeting public safety demand for the foreseeable 
future. Our nation's first responders deserve the same access to 
content as anyone with a Facebook account or cell phone.

Conclusion

    Again, I want to thank you for holding this hearing on an issue 
critical to public safety in this country. Interoperability saves lives 
and Motorola remains committed to building the mission critical 
communications equipment first responders have trusted for eighty 
years. Thank you.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                       Biography for John Muench

    John Muench is the Director of Business Development as it relates 
to worldwide standards activities associated with government and public 
safety products for Enterprise Mobility Solutions for Motorola. John 
directs both the Technical and Business activities supporting Standards 
Development. Through a complete understanding of Motorola customers' 
needs, his team translates services and features into TIA standards as 
well as develops business strategies around those TIA standards. In his 
16+ years at Motorola, John has participated in system engineering, 
system design, project management and system roadmap planning for 
private two-way radio systems in the United States and Europe. John's 
experience encompasses all aspects of radio system design, including 
base site, subscriber, dispatch, central office, security, radio, and 
network management equipment. John's expertise includes managing sales 
bidding strategies of next generation products, prioritization of 
features to support the product development process and complex system 
P&L management.

    Chairman Wu. Thank you very much.
    Chief Johnson, please proceed.

  STATEMENTS OF JEFFREY D. JOHNSON, PRESIDENT, INTERNATIONAL 
ASSOCIATION OF FIRE CHIEFS, AND CHIEF, TUALATIN VALLEY FIRE AND 
                     RESCUE, ALOHA, OREGON

    Chief Johnson. Thank you, Chairman Wu and Ranking Member 
Smith. My name is Jeff Johnson. I am the Fire Chief of Tualatin 
Fire and Rescue, President of the International Association of 
Fire Chiefs, and for eight years have been Chairman of the 
Oregon Wireless Interoperable Network. I am looking forward to 
today's testimony.
    I would like to begin my testimony this morning, sir, with 
a working definition of interoperability. It is the ability for 
public safety responders to communicate with staff from other 
responding agencies and to exchange voice and data 
communications on demand, when authorized, in real time. And 
while interoperability is very important, mission-critical 
operability is of greater importance because without 
operability, there is no interoperability.
    The majority of America's 30,000-plus fire departments 
operate with analog radios. Digital radios available now for 
about 20 years are being used by a growing number of 
jurisdictions today. When these radios began entering the 
public safety market, a standard known as P25 began development 
and is still in process. P25 ensures a common standard of 
performance features and a common air interface to allow 
interoperability between the radios produced by different 
manufacturers. This P25 standard is kept to mission-critical 
operability and interoperability and has long been fully 
supported by the International Association of Fire Chiefs.
    The P25 digital standard is actually a complex suite of 
standards which define the interface for radios, consoles, base 
stations and other system components. However, we in the fire 
service are not so much interested in how radio systems work, 
but that they work.
    We are pleased that the manufacturers are working with NIST 
and DHS and that four of the major manufacturers now meet CAP 
requirements. It has taken a very long time to get to this 
point. I am pleased we are here, but we need to complete the 
P25 standard in the interest of ensuring public safety that the 
digital radios they buy will indeed work interoperably.
    I would like to end my presentation this morning with a 
glimpse of the future as we see it, which is all about 
interoperability and communications standards. The 
International Association of Fire Chiefs is working diligently 
with other public safety leadership organizations to build out 
a nationwide public safety interoperable wireless broadband 
network. This is the future for public safety communications 
and is vitally necessary. One of the major difficulties today 
in achieving interoperability is trying to connect, at great 
expense, I might add, the thin slices of disparate spectrum 
which have been allocated by the FCC over the years to public 
safety as each new band has become available. In effect, we are 
building sideways connector roads to the lanes of spectrum 
which have been allocated to public safety and adding no 
meaningful forward throughput.
    The envisioned broadband system needs to be mission 
critical at the outset. At first, it will support data and 
video communications. In time, the goal of the IAFC, and its 
allies, is to use this network for mission-critical voice 
communications. To achieve this goal, the D block of spectrum 
is vital to developing this robust network. Only then can we 
hasten the transition from the current land mobile radio 
communications to mission-critical voice over Internet protocol 
system. Our quest for the D block is a one-time opportunity to 
make sure that the inadequate spectrum we have today is moved 
to a larger, more robust and comprehensive broadband network, 
and to create a national architecture of Internet protocol for 
public safety.
    Recently, the FCC announced in its national broadband plan 
that it will auction the D block to commercial interests 
without the needed public safety requirements. Thus, public 
safety seeks passage of legislation to allocate the D block 
directly to the Public Safety Spectrum Trust. H.R. 5081, 
introduced by Representative Peter King, is currently before 
the House Energy and Commerce Committee. The bipartisan 
legislation has the strong support of both public safety 
leadership and major national organizations representing state, 
county and local government. Our collective mission is simple: 
The D block is vitally needed by public safety to ensure an 
efficient broadband system which will attract commercial 
interest and reduce the need for government funding. This is 
our only path to solving interoperability long term once and 
for all.
    Thank you, Mr. Chairman, for the opportunity to appear 
before you and this Committee on this very important subject. I 
would be happy to answer any questions.
    [The prepared statement of Chief Johnson follows:]

                 Prepared Statement of Jeffrey Johnson

    Good morning, Chairman Wu, Ranking Member Smith, and distinguished 
members of this subcommittee. I am Jeff Johnson, president and chairman 
of the board of the International Association of Fire Chiefs (IAFC) and 
chief of the Tualatin Valley Fire and Rescue Department located in 
Beaverton, Oregon.
    I would like to begin my testimony with a working definition of 
interoperability: the ability of public safety service and support 
providers--law enforcement, firefighters, EMS, emergency management, 
public utilities, transportation, and others--to communicate with staff 
from other responding agencies, and to exchange voice and/or data 
communications on demand, when authorized and in real time. And while 
interoperability is very important, mission-critical operability is of 
greater importance. Without operability, there is no interoperability.
    Significant Federal, state and local resources continue to be 
expended to develop greater interoperability between and among first 
responder agencies as well as jurisdictions. It is a daunting task but 
progress is being made. There are five separate lanes on the Department 
of Homeland Security Interoperability Continuum to achieve that goal: 
Governance, Standard Operating Procedures, Training and Exercises, 
Usage, and Technology. Radio equipment falls into the Technology lane.
    The majority of America's 30,000+ fire departments operate with 
analog radios. Digital radios, available now for two decades, are being 
used by a growing number of jurisdictions today. When these radios 
began entering the public safety market, a standard known as P25 began 
development and is still in process. P25 ensures a common standard of 
performance features and a common air interface to allow 
interoperability between the radios produced by different 
manufacturers.
    This P25 standard is key to mission-critical operability and 
interoperability and has long been fully supported by the IAFC. The P25 
digital standard is actually a complex suite of standards which define 
the interface for radios, consoles, base stations and other system 
components. However, we in the fire service are not so much interested 
about how radios and systems work, but THAT they work.
    To ensure that they work is part of the mission of both the Public 
Safety Communications Research (PSCR) program, located at the NIST 
laboratories in Boulder, CO, and the Department of Homeland Security's 
Office for Interoperability and Compatibility (OIC). The OIC and NIST 
have established a testing capability to ensure that digital radios 
used by the fire service and other public safety entities will actually 
perform as designed. It is called the P25 Compliance Assessment Program 
(CAP). The CAP is composed of three testing elements which are:

        <bullet>  Performance--the specifications are correct,

        <bullet>  Conformance--to validate the various P25 protocols 
        used in the system, and

        <bullet>  Interoperability--to prove that one or more 
        manufacturer's radios will operate on another manufacturer's 
        system.

    These three tests conducted in P25 CAP-recognized testing sites 
give fire chiefs assurance that the P25 radios they buy will work not 
only on their system but with radios from other manufacturers on other 
systems. All this is key to give assurance to fire departments that do 
not have the capability to test the radios and systems they buy.
    We are pleased that manufacturers are working with NIST and DHS, 
and that four of the major manufacturers now meet the CAP requirements. 
It has taken a very long time to get to this point. I am pleased we are 
here, but we need to complete the P25 standard in the interest of 
assuring public safety that the digital radios they buy will, indeed, 
work interoperably.
    I would like to end my presentation this morning with a glimpse of 
the future--which is all about interoperability and standards. The 
International Association of Fire Chiefs is working diligently with 
other public safety leadership organizations to build out a nationwide, 
public safety, interoperable, wireless, broadband network. This is the 
future for public safety communications and vitally necessary.
    One of the major difficulties today in achieving interoperability 
is trying to connect, at great expense, the thin slices of disparate 
spectrum which have been allocated by the Federal Communications 
Commission (FCC) over the years to public safety as each new band 
became available. In effect, we are building sideways connector roads 
to the main communications lanes. What is needed is a nationwide 
architecture allowing all public safety to have the ability to 
communicate on one, major superhighway. So, while we need to maintain 
operability and interoperability of the current mission-critical Land 
Mobile Radio (LMR) systems, our future is in broadband technology.
    The envisioned broadband system needs to be mission-critical at the 
outset. At first it will support data and video communications. In 
time, the goal of the IAFC and its allies is to use this network for 
mission-critical voice communications. To achieve this goal, the D 
Block of spectrum is vital to developing a robust network. Only then 
can we hasten the transition from current LMR communications to 
mission-critical Voice over Internet Protocol. Our quest for the D 
Block is a one-time opportunity to make sure that the inadequate 
spectrum allocations to public safety in the past are not repeated for 
this new technology.
    Public safety, from a spectrum allocation determined by Congress in 
1997, is currently licensed for 10 MHz of nationwide broadband spectrum 
in the 700 MHz band. The license is held by the Public Safety Spectrum 
Trust (PSST), a 501(c)(3) corporation composed of 15 public safety 
organizations. The original plan was to combine public safety's 10 MHz 
with 10 MHz from the adjoining D Block of spectrum to be sold at 
auction to build out a 20 MHz nationwide broadband network that would 
be built to public safety mission-critical standards. But, the 
submitted bid did not meet the reserve price set by the FCC.
    Recently, the FCC announced in its National Broadband Plan that it 
will auction the D Block to commercial interests without the needed 
public safety requirements. Thus public safety seeks passage of 
legislation to allocate the D Block directly to the PSST. H.R. 5081, 
introduced by Rep. Peter King, is currently before the House Energy & 
Commerce Committee. The bipartisan legislation has the strong support 
of both public safety leadership and the major national organizations 
representing state, county and local government. Our collective message 
is clear: the D Block is vitally needed by public safety to ensure an 
efficient broadband system which will attract commercial interests and 
reduce the need for government funding.
    Thank you, Mr. Chairman for the opportunity to appear before you on 
this very important subject. I would be pleased to respond to any 
questions.

                     Biography for Jeffrey Johnson
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Jeff Johnson, Fire Chief and Chief Executive Officer, joined 
Oregon's Tualatin Valley Fire & Rescue (TVF&R) in 1989, following an 
11-year fire service career in Douglas County, Oregon. Chief Johnson 
served as a TVF&R Division Chief and Assistant Chief prior to becoming 
Fire Chief in 1995.
    TVF&R is a fire district with approximately 500 members providing 
fire, EMS, specialty rescue and prevention services in the Portland 
metropolitan area. While under Chief Johnson's leadership, TVF&R has 
twice received the International Association of Fire Chiefs (IAFC)/U.S. 
Safety and Engineering Fire Service Excellence Award, the top award for 
organizational excellence in the fire service. TVF&R is accredited by 
the Center for Public Safety Excellence's Commission on Fire 
Accreditation International (CPSE/CFAI).
    Chief Johnson is an ambassador for excellence and innovation in our 
service to the community. Additionally, he advocates for cooperative 
initiatives and other business practices that achieve efficiencies and 
demonstrate smart government and value for the citizens' investment. He 
has authored two fire service books and is a featured guest lecturer 
across the nation.
    In August 2009, Chief Johnson was installed as the President and 
Chairman of the Board of Directors of the International Association of 
Fire Chiefs (IAFC). He also holds membership in the Metropolitan Fire 
Chiefs Association and various IAFC Sections. He is the IAFC's 
alternate representative to the SAFECOM Executive Committee and a 
member of the USA Delegation to the Comite Technique International de 
Prevention et d'Extinction du Feu (CTIF), also known as the 
International Association of Fire and Rescue Services.
    In March 2010, Chief Johnson was appointed to the U.S. DHS/FEMA 
Local, State, Tribal and Federal Preparedness Task Force by DHS 
Secretary Janet Napolitano to assist in assessing the state of the 
nation's disaster preparedness and developing recommendations specific 
to building resiliency into communities across America.
    Jeff is a graduate of the National Fire Academy's Executive Fire 
Officer (EFO) Program and achieved the CPSE Chief Fire Officer (CFO) 
Designation. He is also a member of the Institution of Fire Engineers 
U.S. Branch (MIFireE).
    By gubernatorial appointment, he is the Chair of Oregon's State 
Interoperability Executive Council, and a member of the Oregon Homeland 
Security Council and the Oregon Broadband Advisory Council. He is Past 
President of both the Western Fire Chiefs Association and the Oregon 
Fire Chiefs Association (OFCA), the Past Chair of the Oregon Governor's 
Fire Service Policy Council, and a charter member of Oregon's 
Meritorious Service Committee. Locally, he is a board member for both 
the Washington County Office of Consolidated Emergency Management 
(OCEM) and for the Washington County Consolidated Communications Agency 
(WCCCA), which is the local 911/dispatch center.
    In the corporate environment, Jeff sits on the boards of two 
private companies, specifically as a member of the Informed Publishing, 
Inc. Board and as the chair of the Emergency Services Consulting 
International (ESCi) Board. He also is on the Editorial Board of 
FireRescue Magazine.
    Chief Johnson holds a Bachelor of Science Degree in Business and 
Associate Degrees in Fire Science and Criminal Justice Administration. 
During his leisure time, Jeff enjoys spending time with his wife, Kay, 
and their two children. As an avid outdoorsman and student of Oregon 
history, Jeff enjoys camping, fishing, and motorcycling in Oregon's 
back country.

    Chairman Wu. Thank you very much, Chief Johnson.
    And now it is in order for the panel to ask questions, and 
the Chair recognizes himself for five minutes.
    Mr. Orr, in your written testimony you raise a point that 
only a limited portion of the Project 25 system is truly 
standards based. What is the practical impact of that 
statement?
    Mr. Orr. Standards, at the most basic, are blueprints to 
allow multiple manufacturers to build a product in a similar 
way which will allow those products to interoperate. In the 
absence of that blueprint, in the absence of those standards, 
you cannot have that common implementation that allows 
interoperability and, therefore, you cannot have open 
competition and you cannot have multi-vendor interoperability 
in the field. The impact of the lack of standards in this 
situation is that the standards that remain undefined in 
Project 25 make it difficult for a common implementation to 
occur which will increase the likelihood of non-operability in 
the field and increases the difficulty of open competition.
    Chairman Wu. So Mr. Orr, what you are saying is that lack 
of completeness of those standards has an impact on competition 
levels and also on safety for emergency responders?
    Mr. Orr. Absolutely.
    Chairman Wu. Are any of the panelists, are any of the 
witnesses aware of any situation in recent years where public 
safety folks using P25 labeled systems and believing them to be 
compliant were unable to communicate with other first 
responders using P25 systems? And if so, do you know what 
caused that to happen? And in no particular order. Dr. Boyd.
    Dr. Boyd. Our experience, both after 9/11 and during 
Katrina, was that systems which were labeled P25 where the 
interpretation of the standard has deviated a little bit 
between manufacturers meant they couldn't communicate directly. 
But probably the best single example we have is the testing we 
did among systems which were in the field, and the important 
element there is that it tells you there are systems in the 
field that were labeled P25 that--because of those minor 
variations in interpretation--cannot communicate with each 
other, sometimes within one manufacturer's line. So what you 
have to worry about is what happens if they are called on to 
provide mutual aid in other jurisdictions because while they 
both have P25 systems, they may not be able to communicate with 
each other because of minor differences. As any engineer 
designs a system, he has to interpret what amounts to a text-
based standard.
    Chairman Wu. And that interpretation, if there is differing 
interpretation, that is where conformance testing and 
compliance testing, that is what those forms of tests can 
address. Is that----
    Dr. Boyd. Absolutely. The only way you arrive at common 
interpretation is through a standardized test. At the end of 
the day, a standard is not operationalized until there is a 
test.
    Chairman Wu. Going back to any other examples of lack of 
communication between P25 labeled systems? Okay. Very good.
    Mr. Muench, I am not getting this quite right. You know, my 
high school German would tell me that that is Muench, but can 
you say it for me?
    Mr. Muench. Muench, bench with an M.
    Chairman Wu. Thank you very much, sir.
    Mr. Muench, in your testimony, you said that the technical 
specifications for P25 phase 1 systems are functionally 
complete. Can you explain to us what you mean by that?
    Mr. Muench. Yes. Functionally complete means that there is 
enough information in the standard for manufacturers to build 
product and deploy product, actually do interoperability 
testing with other manufacturers. As I said in my testimony, 
there have been over a million units sold of Project 25. All 
participate within interoperability testing throughout the 
informal programs that Motorola has within our facility in 
Schaumburg.
    Chairman Wu. Well, I don't know if this is in comparison or 
in contrast or the same thing, but Dr. Boyd, in your testimony 
you state that comprehensive standards do not yet exist. Can 
you explain to us what you mean by that?
    Dr. Boyd. Right now there are four primary components we 
are concerned with, such as the common air interface and the 
ISSI standard. Some of the standards--while they have been 
tested at some level--are not really fully complete and have 
not yet been accepted entirely by the community. Until the 
final vote is taken and a test is developed--some tests are 
already in place--no standard is complete, because at the end 
of the day, it is the test that determines whether variations 
in interpretation are creating an interoperability problem.
    Chairman Wu. Now, my time is expired, but I don't know if 
we have a disagreement here or not. Can we have Harris and 
Motorola on one hand and DHS and NIST on the other hand, can 
you address whether there is a difference of opinion about 
this?
    Dr. Hofmeister. Thank you, Mr. Chairman. Speaking for 
Harris, we have 50 systems deployed and we have systems that 
have different vendor radios. We have a system that was 
deployed with none of our radios, and we have achieved the full 
level of the customer satisfaction in daily operations with 
those systems. We have interoperated with Motorola systems, as 
John just said. We have gone to Schaumburg to test during our 
development as an assurance. This illustrates informal 
development practices that have been developed over time. They 
have come to our lab for testing their developments. So over 
the last few years we have actually developed a more 
cooperative relationship in the industry. I believe the 
standards are functionally complete, as John said. We have 
implemented them. We have tested them.
    Now, are the last little bits of the standards complete? I 
think the common air interface is very solid. I think the 
baseline ISSI, which is coming out, is very solid. The console 
interface is a subset of that. That is a little bit in the 
future. The fixed station interface I believe is very solid. 
Products are starting to emerge from that. So I actually think 
the picture is a little bit better than my colleagues here 
would present for fielded systems.
    Chairman Wu. Thank you.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman. I am trying to myself 
get a grasp of how widespread the problem is.
    Dr. Boyd, you mentioned that within one manufacturer, one 
product is not compatible with another or interoperable with 
another?
    Dr. Boyd. Yes. In fairness to the manufacturers, remember 
that this process started in 1989. That is 21 years ago. So 
manufacturers' equipment that was labeled as P25 compliant, and 
that, in many cases was produced long before any of these 
interfaces were really finished, often didn't communicate with 
other manufacturers or even with newer equipment in their own 
line. Both Motorola and Harris and others have increasingly 
applied more and more stringent applications in order to make 
sure that this equipment comes closer to those standards. I 
think one way to picture how well things are going is, that in 
2008 when Congress finally authorized the development of the 
Compliance Assessment Program, that really started the ball 
rolling, even though it had started in 1989 at a time before 
Bluetooth and before people texted and all those kinds of 
things we are now used to. We are now looking at a real 
compliance test probably in two more years. That is an amazing 
change over time. But I think what you have to remember is that 
this development over time is something that is reflected in 
one of my colleague's----
    Mr. Smith. Are you saying that it might have been 
interoperable at one point but maybe not as interoperable today 
as it once was?
    Dr. Boyd. Oh, absolutely. In fact, it is important to 
remember there are legacy systems out there that aren't going 
to be changed out for a long time.
    Mr. Smith. Right, so what is the solution there? I mean, 
how are we any better off today with a standard or hopefully 
not a mandate that would paint a picture that is ultimately 
going to change due to industry coming with a better way of 
doing things that meets the standard at one point, you know, 
the previous standard but yet throws in a few other bells and 
whistles along the way?
    Dr. Boyd. The way we talk about standards is that there 
ought to be some core set of functionalities that we make sure 
remain in place. Otherwise what happens if we don't----
    Mr. Smith. Right. Are we without those today?
    Dr. Boyd. I think we are getting close to having those but 
if we don't----
    Mr. Smith. We are not there?
    Dr. Boyd. --have those, then every new generation moves 
away from that and creates exactly the same problem we have 
been trying to fix. I think the manufacturers are working very 
closely with us to develop that core set of functionalities. 
That is why----
    Mr. Smith. I mean, that is in the best interest of everyone 
involved.
    Dr. Boyd. Absolutely.
    Mr. Smith. Even if it might lead to a profit that I think 
is a good thing. Sometimes I wonder around this place.
    When we get to the larger issue here, I just hope that we 
don't have the heavy hand of government establishing a mandate 
that ultimately I think will shut down innovation. Can you 
assure me that that is not going to happen?
    Dr. Boyd. Well, I would hope not. I think that both the 
challenge and the strength of the standards process in the 
United States are kind of interesting. The challenge is that 
consensus is probably best spelled S-L-O-W. The strength is 
that it makes sure everybody gets heard, it makes sure we leave 
open potential for innovation as the standards are developed, 
and it also ensures we don't have lots of diverging paths, that 
we have paths that allow innovation and move in the same 
direction so the road gets wider, but doesn't diverge.
    Mr. Smith. I appreciate that. That is actually a good 
analogy.
    Now, from an agency perspective, Chief Johnson, if you 
could tell me or tell us how you would go about verifying the 
interoperability of a particular product. Do you have to do 
that only after you purchase it? How do you verify?
    Chief Johnson. Well, I think the assessment that most 
public safety officers look at is whether it is P25 compliant 
or not and make their purchasing decision based upon that is 
pretty accurate. Very, very few departments, individual 
departments possess the individual ability to test the 
compliance of their system, plus, even if you bought it 
thinking it was compliant on day one, it doesn't mean that the 
radio network that you used couldn't change out to a different 
manufacturer a year later or that your mutual aid agency that 
you are running into changes theirs, and I think that 
illustrates why it is so important to make sure that compliance 
assessment testing is done and that it is accurate so that we 
can buy with confidence. I mean, let's face it: Public safety 
wireless communication devices are expensive. But there are 
reasons they are expensive. They are largely bulletproof. They 
are intrinsically safe. They don't cause an explosion. You 
know, they are waterproof. They are firefighter-proof, and that 
is saying something. And I think, you know, we forget those 
elements that lead the price of the product, and frankly, the 
public safety market is a pretty small market when you compare 
it to the Blackberry market or some of the others.
    Mr. Smith. I just want it to be Congress-proof, too.
    Chief Johnson. Thank you, but to a great extent, sir, we 
are relying on the certification.
    Mr. Smith. Thank you.
    Chairman Wu. Thank you very much, Mr. Smith.
    Chief Johnson, you said that you are relying upon the 
certification, in essence you are relying upon the 
representation that P25 is interoperable, that equipment 
labeled P25 is interoperable.
    Chief Johnson. Mr. Chairman, that is correct, and I think 
also many of the grants today require that you purchase P25 
equipment.
    Chairman Wu. Well, I thought I heard earlier that sometimes 
P25 equipment won't talk with each other, that they are not 
truly interoperable and that different generations of P25 
equipment may not be interoperable. It seems to me that if it 
is not interoperable, one of the two systems should not be 
labeled P25 so that Chief Johnson isn't mislead, that two items 
bearing a P25 sticker really work with each other.
    Dr. Boyd. I think in fairness I should note that I am 
talking about systems that label themselves as P25 but because 
there was no test process to ensure it really did comply around 
these core functionalities, like the common air interface or 
other interfaces. What we are after is a core set of functions. 
We want them to be able to develop lots of bells and whistles 
that go beyond core capabilities, that may later become 
necessities. I like to point at the cell phone, for example, 
which in 1970 was hardly anybody's idea of a necessity. I would 
challenge that view today.
    Mr. Smith. Now it is an entitlement.
    Chairman Wu. Chief Johnson, given the knowledge that the 
standards are arguably not complete, how much confidence do you 
and you colleagues have in those purchasing decisions without 
the certifications?
    Chief Johnson. Mr. Chairman, I think most public safety 
responders trust the P25 standard and are purchasing equipment 
expecting reliable communication with other systems, and I 
think that is the current standard of field today.
    Chairman Wu. So the confidence level is reasonably high or 
do you have some residual concerns?
    Chief Johnson. I think within our industry, the confidence 
level is reasonably high, but I think there is always the 
question mark of making sure that it operates across systems 
and that is why we reach out to our other colleagues, you know, 
fire chiefs reach out to other fire chiefs and police chiefs 
that may be operating similar types of equipment and then we 
actually check with other chiefs to make sure that they are 
having a good experience with the products we are about to buy, 
and that is frankly the benefit of an association like the 
International Fire Chiefs is, you can reach out to a large 
group. And candidly, I think this is true with the public in 
general, we are more likely to trust another fire chief's 
experience than we are the representation of the manufacturers, 
and that is just the state of the market in any product, not 
just in radio communications.
    Chairman Wu. I would like to ask the panel, and this is 
really aimed, I suppose, at the other four witnesses. What 
factors have delayed the development of technical standards and 
what factors have delayed the implementation of compliance or 
conformance tests? In any particular order.
    Dr. Boyd. I think there are three major things that have 
delayed them, and I think they are all the kinds of things we 
are all working on. The first one is that it is a consensus 
process, and I think it ought to remain a consensus process, 
but that means it is slow. The second one is that the 
technology has changed pretty dramatically since we first 
started this in 1989, and so that means that we have had to 
make lots of adjustments as we developed the standard to take 
into account all of the other things that have been happening 
technologically, because the standard you would have designed 
in 1989 is not what you are going to design now. So the 
standards process probably is never going to be fully finished, 
but we can arrive at something that allows rational migration. 
The third one is that there is a huge installed infrastructure 
that no community can afford to simply throw away, and we are 
going to have to keep that in mind as we implement any of these 
that we make sure we don't implement technologies that have the 
effect of isolating communities that can't afford to buy into 
newer systems. We always have to think about how we keep those 
legacy systems able to communicate with the newer equipment, 
and I think the manufacturers in fact have done a pretty good 
job of developing some of those bridging technologies that 
permit that to happen.
    Chairman Wu. Mr. Muench? Dr. Hofmeister?
    Mr. Muench. I would actually say that the standards based 
on--since it is a voluntary process and it requires significant 
expertise in the area with the limited resources in the 
industry, we have been moving along at a fairly good pace and 
keeping up with technology. We are just about to embark upon 
the second phase of the standard.
    Chairman Wu. Now, it has been 21 years.
    Mr. Muench. Absolutely, and we have significant progress. 
Over 70 percent of the U.S. population are covered by Project 
25.
    Chairman Wu. Well, covered by Project 25 apparently is 
different from knowing that these P25 systems are actually 
fully interoperable or, you know, functional with each other.
    Mr. Muench. So maybe I can go back to the point that was 
made earlier, a lot of the general statements about 
interoperability issues. Since 2005, we haven't had the reports 
that have come in about interoperability challenges. Motorola 
has investigated all of them, and the majority of the time it 
is how the actual equipment is configured. This is a complex 
technology. This isn't like plug-and-play that you would have 
on your Apple computer. This takes--you know, there is 
configuration of the equipment, there is the execution of the 
test or the pass and fail criteria that are set up. So some of 
the issues that have come up and they have called them 
interoperability issues are really configuration issues, and it 
has not related back to conformance or compliance to the 
standard.
    Chairman Wu. Dr. Hofmeister and Mr. Orr, I want to give you 
a chance to address this, although my time has expired.
    Dr. Hofmeister. Thank you, Mr. Chairman. I think as I said 
in my testimony, in terms of the pace of the standards, before 
2005 or the gap between 1995 and 2005, things were pretty slow. 
Since 2005, the standards pace has picked up, and as I 
testified, I believe it is at the pace that we have the 
capacity to support with the number of engineers that have the 
capability and the quality to develop the standards. In terms 
of interoperability across these systems (some are legacy 
systems), I will say the interop testing that is going now 
under P25 CAP and the posting of SDOCS [Supplier's Declaration 
of Compliance], these systems are complex. Every system that 
you test against has a hardware revision number, a software 
revision number, whether that is infrastructure or your radio, 
and you need to make sure that those are known. Now, as a 
result of that process, both Harris and Motorola--and we 
release products or product software about every six months or 
so. We then have an obligation to tell the major manufacturers 
whose radios are operating our system: look, we are having this 
new release, we don't think it is going to affect anything but 
you might want to check to make sure that your radios operate 
this way. So I think we are going to get much better going 
forward so we won't have this issue that maybe there are 
generations of the product in the field with interoperability 
challenges.
    Chairman Wu. Thank you.
    Mr. Orr, would you care to address this topic before we go 
to Mr. Smith?
    Mr. Orr. Sure, Mr. Chairman. I think I would like to point 
out something which is, I understand, the consensus process can 
be slow and it can be cumbersome. Simply building consensus is 
difficult. However, I think it needs to be pointed out and what 
is important in this case is that it has been since 1989 that 
we have gotten to the state where we are where we have one and 
a half of the eight interfaces complete. In that same period of 
time since 1989, we have had 2G cellular standards developed, 
systems deployed, 3G cellular standards developed, systems 
deployed, 4G cellular standards developed and now systems are 
being deployed. So standards don't have to be slow. The 
standards process doesn't have to be slow. In addition to that, 
every one of those wireless technologies, cellular, Wi-Fi, 
Bluetooth, as an industry knew that it is imperative as an 
industry to be successful in that deployment of that technology 
was to wrap an incredibly rigorous compliance assessment 
program around it. So every single one of those technologies 
has an industry-led compliance assessment and certification 
program. P25 is the only one, that I am aware of, that has not 
done that in a major wireless industry. So I think the key is 
here that it doesn't have to take forever but we do need to 
move the process forward and we do need to complete the first 
suite of standards.
    Chairman Wu. Does anyone know why P25 is uniquely different 
in this respect?
    Dr. Boyd. I don't really think it is uniquely different. I 
think the only complexity for--and it is not for P25, but for 
interoperability in general is that there is so much legacy 
gear out there. But P25 looks to the future. It is what we are 
going to be doing as we build out new equipment and put it into 
place. I really don't think ultimately that it is uniquely 
different. I think there hasn't been a lot of focus on it. I 
know the first time we started working on interoperability some 
time ago when I was in the Justice Department back in 1993, 
there wasn't a whole lot of interest other than in public 
safety, and even then it was a very slow, very cumbersome 
process. I can't say that folks were energized in the same way 
they have been since 9/11 and Katrina.
    Dr. Hofmeister. Just a comment on the question you asked, I 
believe the difference is the scale of the industry. This, by 
any sense, is a fairly small, specialized industry. The scale 
of people involved, the scale of income, the scale of R&D, the 
scale that can be devoted to development of standards in my 
view is much different than the commercial industry where you 
are selling millions of these things. We are selling thousands 
of these radios and so on. So I believe the scale makes a 
difference in the amount of resources that can be devoted to 
development of standards.
    Chairman Wu. Thank you.
    Apologies, Mr. Smith. Please proceed.
    Mr. Smith. Thank you.
    I am just trying to again get a grasp of what all that 
takes place here. Now, in terms of meeting P25 standards, Mr. 
Muench, could you mention what takes place in meeting those 
standards?
    Mr. Muench. First, the industry participates in the 
standards development process actually defining the technical 
definitions and producing the documents required for 
standardization to be published by a recognized standards 
development organization. This also includes the actual tests 
to validate the compliance to the standard. Once that standard 
is published, then manufacturers build the products in 
adherence to the standard. We test--we go through rigorous 
testing through our development process and then once our 
products are complete and ready to deploy out in the market, we 
do interoperability testing not only with ourselves but with 
other manufacturers to ensure that we have the Project 25 
interoperability so when we deploy these products, they are not 
going to have any issues. Then beyond that, there are external 
programs such as the Compliance Assessment Program by DHS that 
provides even further confidence that the products that have 
been manufactured and are beginning to be deployed are 
complaint to the Project 25 standard.
    Mr. Smith. So when you say testing, can you give us--I 
mean, especially in light of what Dr. Hofmeister said, we are 
not talking about the same number as we have cell phones and so 
obviously the whole bus there moves a little more slowly.
    Mr. Muench. Right.
    Mr. Smith. But in terms of testing, what is placed on 
industry in terms of the burden of testing?
    Mr. Muench. At this point in time, beyond the DHS CAP 
program, industry itself does the testing on its own within our 
internal labs because the end goal here is total customer 
satisfaction. We don't want to have an issue where public 
safety lives are in danger because a product doesn't work 
regardless of manufacturer. We understand the mission-critical 
aspect of our business.
    Mr. Smith. Okay. And so moving forward, what do you think 
should or should not be done so that perhaps there is the 
flexibility necessary for industry to innovate and yet sustain 
the necessary functions of communication?
    Mr. Muench. Thank you. Good question. I think things are 
going along relatively good right now. When we look at external 
programs and supporting these external programs, again to Dr. 
Hofmeister's comments on the scale of the industry, we would 
prefer to have a wider breadth of external testing as opposed 
to depth, and when I talk about depth of testing, it is, ``Do 
you really want to know if the ones and zeros are in the right 
place in your message,'' or do you want to ensure that ``can 
you hear me now'' tests between different manufacturers works, 
and that is the ultimate, in Motorola's view, that is the 
ultimate test is when you get out in the field and multiple 
manufacturers are able to talk to each other on the radio 
system and inherently by providing interoperability testing you 
are testing the other aspects such as conformance which 
industry continues to do internal in their development.
    Mr. Smith. Anyone else wishing to elaborate? Mr. Orr.
    Mr. Orr. I think, to follow up John's comments, first of 
all, those ones and zeros can be incredibly important to 
determine whether or not when you hit the emergency button on 
the radio whether the emergency alarm on the radio goes off or 
not. So the ones and zeros in a radio and implementing the 
protocol that is published in the standard is critical because 
that was built to do a certain function so you have to follow 
the protocol to get the functionality that it is expecting. So 
checking the ones and zeros is important, but I think, Mr. 
Smith, you bring up a very important issue, which is 
understanding what burden this may place on industry, and that 
is something we have taken very seriously from the very 
beginning. We realize that any additional testing that is 
placed upon industry is going to cost money and so we have done 
everything within this program to ensure that we are minimizing 
the burden on industry, minimizing the financial requirements 
that are needed to put the program in place, but our threshold 
at any moment always has to be that we can look a fireman or a 
policeman in the eye and tell them we created a program that 
will give them the confidence necessary that when they hit the 
button on that radio, that it is going to do what it is 
supposed to do. Every wireless industry knows in a multi-vendor 
environment that problems can occur. Find those problems in the 
lab. Do not find them in the field.
    Mr. Smith. Now, when you say confidence, is there 
confidence lacking in the field today?
    Mr. Orr. Yes, because right now--the traditional testing in 
Project 25 until the Compliance Assessment Program was 
developed was manufacturer testing in their own individual 
laboratories and the P25 logo stating that that manufacturer 
themselves believes that they have implemented the P25 standard 
in a way that is consistent with the protocol. In every other 
wireless industry, you have to take your radio to a third-party 
lab, have it certified by a third-party body to get a logo that 
say you are going to actually interoperate in the field. That 
is a level of confidence that we are used to in Bluetooth 
devices, Wi-Fi devices, cellular devices. That is the kind of 
confidence that public safety is assuming and wanting in that 
P25 logo that just doesn't exist.
    Mr. Smith. That is not necessarily a government agency, 
that certifying agency, or is it?
    Mr. Orr. No, it is not a government agency. In all of those 
industry cases, that is industry itself creating a body to do 
that in all of those other industry cases.
    Mr. Smith. But we have got the masses that are--the numbers 
are quite different. Is that----
    Mr. Orr. The numbers are different but the end result and 
the need for the same end result, which is interoperability and 
proper functionality, is not different.
    Mr. Smith. Okay. Chief Johnson, do you feel that there is 
confidence lacking in the field?
    Chief Johnson. Mr. Smith, you know, I don't have any 
personal knowledge that there is widespread lack of confidence. 
I don't dispute his observations. And probably the reason for 
that is, is that most of the systems I am familiar with are 
purchased through a Request for Proposal [RFP] in a competitive 
bid process and the procurement process in and of itself 
requires that the compliance testing at the end of it 
demonstrates that it is working and it is operable across the 
system. So it is very common for us to say I am looking for 
this kind of a system, and you don't get your money until you 
prove that it works. So I think that kind of an environment 
reduces my exposure to people that may be lacking confidence 
but I wouldn't dispute his observation.
    Mr. Smith. Back to Mr. Muench, there has been mention of 
other products, other wireless products that are subject to a 
third-party review. Obviously your company makes a lot of items 
that probably would be subject to those third-party reviews. 
Can you tell us the difference? What can we take away from that 
for the good of this discussion?
    Mr. Muench. Absolutely. To Dereck's point on compliance 
testing, we believe that compliance testing is vital to making 
sure that you have developed to the standard. The real issue 
is, do you need to do these tests outside of the development 
testing or do you need to validate them within development. 
That is really what it comes down to. Motorola does the testing 
today. And the litmus test or how Motorola determines whether 
this is important to share with customers is when customers go 
out to RFP, request the type of testing that the tests that 
they require are interoperability tests. Customers can come to 
us today and ask for, you know, before we give you our money, 
we want to see your conformance tests and Motorola would be 
happy to. We just haven't had those requests from our 
customers, you know, outside the process for that level of 
detail. So again, we look to the market, in this case the 
public safety market, to request that of industry.
    Mr. Smith. Thank you, Mr. Chairman.
    Chairman Wu. I thought the chief said that as part of the 
process that compliance testing is always asked for, and Mr. 
Muench, I thought you said that conformance tests aren't 
performed because customers don't ask for it. What am I not 
understanding here?
    Mr. Muench. So industry absolutely does conformance testing 
during the development process. That is when you are developing 
the software.
    Chairman Wu. Mr. Muench or Mr. Orr, can you explain to me 
later on the difference between developmental tests and, if you 
will, tests after the----
    Mr. Muench. Assessment tests, correct.
    Chairman Wu. Go ahead with your answer.
    Mr. Muench. I was just going to say, Motorola absolutely 
supports and does compliance testing during the development 
process to make sure that we adhere and are compliant to the 
Project 25 standard as written. Motorola writes the actual 
conformance tests and publishes them along with the other 
industry within the P25 TIA process. So we have those 
conformance tests. We run those conformance tests. The issue 
is, once we develop a product, if there is--there hasn't been a 
need to increase confidence around conformance. The customers 
are looking for confidence around interoperability because that 
makes sure that their emergency button when it is pushed on our 
system goes through every time and that can be done through an 
interoperability test with other manufacturers, and we do that 
within our testing labs before we release products. We also do 
them when customers come to pick up their systems and test them 
within our factory. We will bring other manufacturers' radios 
in and they can go and push the emergency button and make sure 
it goes through and gets through.
    Chairman Wu. Mr. Orr, would you care to address this issue, 
and also the emergency button or distress button issue, whether 
there is a problem or an issue there?
    Mr. Orr. Sure. And if you would like, I can address the 
development versus interop issue as well.
    Chairman Wu. Go ahead.
    Mr. Orr. I think the issue has come up in the past in 
discussing how to implement the Compliance Assessment Program. 
The question has been, when does the testing have to occur. The 
manufacturers, as Mr. Muench has stated, believe that they 
already do the testing in the development phase, so why do they 
want to retest the equipment again after development phase? We 
have recognized that and we have actually reached out to all 
the manufacturers and said we are happy to allow the Compliance 
Assessment Program to wrap into the development phase so that 
you can do that testing in development and count that as your 
compliance assessment. You just have to wrap the quality system 
around it and have auditing, paperwork. You have to have the 
right equipment and the right personnel doing the testing. The 
equipment has to have been proven to actually work correctly, 
the test equipment does. So you can do certain things but count 
the tests going on in development as your compliance assessment 
test. So we want to work with the manufacturers to make this 
work for them. That is our goal. We want this to work but we 
want to have a successful program.
    As to the issue of conformance tests versus 
interoperability tests, I think a very important point needs to 
be made here. Again, and I hate to belabor this point, every 
other wireless industry believes that conformance and 
interoperability tests are necessary to ensure interoperability 
in the field, not one or the other, both. It is not take one, 
take the other. It is take both. The other issue for us that I 
think is incredibly important for cost purposes is the 
interoperability testing simply tests whether Manufacturer A's 
works with Manufacturer B's product. You cannot infer that 
because A works with B that A works with C. You have to test A 
to C. That is the only way an interoperability test proves that 
something works. Conformance test looks at----
    Chairman Wu. Let me ask you, so if I have a product and I 
can talk with you, Mr. Orr, and you have a product and Mr. 
Smith has a product and you can talk with Mr. Smith, and even 
though they are both P25 compliant, it may be that Mr. Smith 
and I cannot talk with each other even though we can and you 
can but Mr. Smith and I cannot communicate?
    Mr. Orr. Absolutely, an interoperability test, if you and 
Mr. Smith and I were the only ones that did our 
interoperability test----
    Chairman Wu. Well, that was the gist of my question 
earlier. If that is the case, shouldn't one of our radios be 
required to have the P25 sticker removed?
    Mr. Orr. Well, and that is the importance of conformance 
tests. How do you know who is not conforming? There is a couple 
of cases that could have occurred here. One is, one of the 
people making the radios didn't conform to the protocol 
document so somebody is not P25 compliant. There is another 
completely legitimate scenario which is both are complying with 
the protocol document, which means the protocol document itself 
has a problem and needs to be addressed. Those are legitimate 
issues that can exist in any standards body, and that is why 
these kind of programs are put in place.
    Now, one more point, if I may, I want to make about 
interoperability testing. Because it requires me to test 
against every manufacturer, the permutations of tests against 
all other manufacturers becomes quite large. Our program only 
requires a manufacturer to test against three other 
manufacturers. We don't require them to test against every 
other manufacturer because what happens is, with every new 
version and firmware revision that comes out years and years 
down the line, that would mean you would have to do 
interoperability testing back with every existing system that 
is still in the field. If you get ten years down the line, you 
would be looking at 8,000 interoperability tests. That is 
financially impossible. Conformance testing allows each 
individual manufacturer to prove adherence to the standard and 
traceability to the standard without testing against another 
product in the market.
    Chairman Wu. Mr. Muench, you are not opposed to conformance 
testing?
    Mr. Muench. Absolutely not. We do it. We perform it today.
    Chairman Wu. Mr. Smith.
    Mr. Smith. So I guess I am still unclear. You are saying 
that A and B might be compatible but A and C aren't, the users, 
so how do you go about requiring and mandating tests without 
having this huge burden that you just said you can't go back to 
thousands of other points? Unless I am missing something.
    Mr. Orr. So how do you find out whether A or B or A or C is 
implementing correctly? Well, there are two things you have to 
do to improve the confidence that it is going to work in the 
field, in the labs. One is, you have each manufacturer run the 
tests that show they have implemented the standard correctly, 
the protocol. They have done it right. They look at the ones 
and zeros and make sure they are in the right order, they are 
in the right place, they have all met the standard correct. You 
then do a series of interoperability tests to increase the 
confidence that people are implementing correctly, but what we 
have not done is said you have to go out and do 
interoperability testing against every other manufacturer 
because of the permutations of tests required and because of 
the financial burden that would place on the burden.
    Dr. Boyd. Basically what you are doing is what amounts to a 
statistical series of tests. When you add the second test, I 
can't be certain that my triangle--A, B, and C--works. When I 
add the third test, I dramatically increase the likelihood that 
you will be able to communicate with lots of other systems in 
addition to the three we talk to. There is a point when testing 
against more and more systems provides very, very small 
diminishing returns. It is just the reality that I am far less 
likely to have a conformance problem that creates an issue once 
I have tested three or four systems. I don't have to test a 
thousand systems.
    Mr. Smith. Okay.
    Chairman Wu. But if you test against the standard, you 
don't have to guess about the number? You don't have to do 
three to interpret that five also works. If you test against 
the standard, then you know that it works?
    Dr. Boyd. That is exactly right.
    Mr. Smith. I am still trying to get a grasp of how urgent 
this situation is, because I want to be sensitive to the use of 
public funds, taxpayer dollars that are oftentimes in huge 
amounts and having served at the local government level, these 
are big hits to a budget and you want it to be effectively 
spent and also have the opportunity in the future to acquire 
maybe some updates and things like that that work and build 
even greater confidence.
    So Dr. Boyd, Mr. Orr, on a scale of one to ten, what is the 
urgency for taking action? Ten being extremely urgent.
    Dr. Boyd. I would say it approaches ten, and the reason 
that I say that is, the reason this whole program started is 
because the public safety community kept asking us how they 
could know what works and what they ought to invest their very, 
very precious and limited grant money on so they would not end 
up in three years behind the eight ball because the standards 
that were going to be required as part of the grant process 
created new issues for them. In fact, I think it actually helps 
industry because by providing that confidence to first 
responders, they are much more likely now to begin to free up 
and make those investments and they don't get challenged nearly 
as much by county commissions or city councils who are 
understandably very concerned that their first responders not 
buy into a system that is going to turn out to not be 
interoperable in three years.
    Mr. Smith. Right. Okay. So you say it is extremely urgent 
that action be taken.
    Mr. Orr, same question.
    Mr. Orr. I agree completely with Dr. Boyd.
    Mr. Smith. Okay. Thank you, Mr. Chairman.
    Chairman Wu. Thank you.
    Ms. Biggert, would you care to ask questions?
    Ms. Biggert. Yes. Thank you, Mr. Chairman, and I am sorry I 
missed the testimony.
    So I understand that you all have been discussing a little 
bit of what I wanted to ask, and I am sorry I missed that, but 
I am from Illinois and I know, Dr. Hofmeister, you work with 
Naperville, which is in my district, and Mr. Muench, Motorola 
has been a longstanding company in Illinois. Both do fine jobs.
    I just wanted to ask you both, does there need to be an 
industry-led formal compliance assessment program in place as 
Mr. Orr has testified? Does either of your companies offer your 
facilities to other vendors to validate interoperability across 
multi-vendor product platforms prior to formal interoperability 
testing under DHS and NIST guidelines?
    Dr. Hofmeister. Thank you for the question. Certainly 
Harris, as I think I mentioned earlier, has an interoperability 
lab in our facility in Lynchburg, Virginia, as a result of 
putting that together for the Compliance Assessment Program. We 
also offer that for informal testing for other radio vendors to 
come in. Motorola has been there testing some products they are 
developing in terms of data. So yes, that is happening, and we 
fully support that.
    To your first question, whether it should be an industry-
led compliance assessment effort, sort of on the scale I think 
of what other industries are doing, we at Harris have a hard 
time thinking about that because of the size and scale of the 
industry. We just can't afford to do everything to the scale 
that cellular and other industries do. We have to make the best 
judgments we can. I think the P25 Compliance Assessment Program 
that is in place is moving in that direction. We support 
conformance testing, as Mr. Muench mentioned, during product 
development. We are less supportive of repeating that testing 
afterwards but we are trying to work through the issues with 
Mr. Orr and others to make sure that we meet those 
requirements. So if you take a Wi-Fi system or something like 
that, take WiMAX, for example, I believe it costs somewhere in 
the neighborhood of $100,000 to $300,000 to put your product 
through that testing. That is a scale, if you set that up. We 
just can't support; and we don't believe the industry can 
support that. Thank you.
    Ms. Biggert. Thank you.
    Mr. Muench, would you care to comment?
    Mr. Muench. Thank you. Yes. Motorola absolutely supports 
the informal testing. We have a lab set up. We visit the other 
manufacturers' labs so very similar to what Dr. Hofmeister just 
spoke of. As far as the first question, you know, the industry 
that we work in is fairly small. There are 13 manufacturers, 
and I can tell you from the DHS Compliance Assessment Program, 
we have had 10 of the 13 manufacturers participate in our 
interoperability testing and it is referenced on our Supplier 
Declaration of Compliance that is loaded up onto the DHS site, 
so I think participation is very good. I think confidence level 
is fairly high. So at this point in time, I don't believe that 
a formal program led by industry is necessary.
    Ms. Biggert. Do you work with other manufacturers in your 
testing or do you rely solely on your internal tests?
    Mr. Muench. No, we absolutely work with other 
manufacturers.
    Ms. Biggert. Is it possible that a communication device 
could pass the test but fail to operate, interoperate 
seamlessly with a third vendor's product?
    Mr. Muench. In the extreme case where a manufacturer either 
didn't have the expertise or was trying deliberately not to 
conform, yes. The experience that we have had with deploying 
product, we have not come across that yet. The industry, we 
have a good working relationship with each other and we--it is 
in all of our best interests to make sure that these products 
interoperate together as specified in the Project 25 standard.
    Ms. Biggert. Thank you very much. I yield back, Mr. 
Chairman.
    Chairman Wu. Thank you.
    I think what I just heard is some concern about a formal 
compliance testing process. In the written testimony, there was 
testimony to the fact that the European standard, TETRA 
[Terrestrial Trunked Radio], requires a formal testing process 
and that American manufacturers which sell in Europe actually 
go through this compliance testing process. What distinguishes 
the approach you take in Europe where there is this testing 
versus your position here in the United States?
    Mr. Muench. The first point is that it is actually mandated 
by the E.U. that you perform this level of testing, which right 
now the tests are over 300 tests and take a significant amount 
of time to get a product certified through that process. The 
concern here would be that by putting those rigorous tests and 
that amount, as I said, depth into the testing in a formal 
process, and again, looking at the permutations of how many 
products you bring to market as well as a number of 
manufacturers, you could slow down the adoption of Project 25 
and actually create larger barriers of entry to smaller 
companies.
    Chairman Wu. But we heard concerns about the cost of 
testing and yet you still find it worthwhile to be in the 
European market where this testing has to be performed?
    Mr. Muench. Absolutely. We support standards that are 
defined by their marketplace.
    Chairman Wu. Dr. Hofmeister or Mr. Orr?
    Dr. Hofmeister. Just a quick comment on the TETRA testing. 
We don't actually participate in that market with the TETRA 
testing, but we do sense that there are some second thoughts in 
that marketplace and they are sort of thinking of the cost and 
there is one document with a recommendation that you actually 
do conformance testing along with interoperability. You do 
interoperability testing and do some conformance monitoring as 
part of that to maybe help reduce the impact, and that is 
something we have talked about with Mr. Orr and his colleagues 
about--maybe that is something that we could consider as a way 
of doing interoperability testing and doing conformance 
monitoring as part of that process.
    Chairman Wu. Any comments from either Mr. Orr or Dr. Boyd?
    Mr. Orr. I would just like to reiterate, we certainly 
looked at the TETRA model. We heard loud and clear the 
manufacturers in Project 25 concerns about the costs, and like 
I said before, we have truly tried in every way possible to 
make this as least burdensome a process on the U.S. 
manufacturers. We do not want to negatively impact the U.S. 
manufacturers. We do want to create a higher level of 
confidence for our public safety users that the products are 
going to work when they are in the field and they need those 
radios to work. So I do want to make that very clear, and I 
also would like to make the point that I think both of these 
companies have pointed out in the past, it was the Compliance 
Assessment Program itself that really started to open up these 
multi-manufacturer laboratories and create the atmosphere where 
multiple manufacturers began to travel to other manufacturers' 
labs and test within them. So it has had a beneficial impact 
but we do pay attention to their concerns and we continue to 
work with them to make this a beneficial but cost-reducing 
program.
    Dr. Boyd. I think that is an important point, which is why 
the program very consciously decided that we ought to use 
existing manufacturers' laboratories, not invent a new Federal 
laboratory to drive all of this. That is really the foundation 
piece of the model.
    Chairman Wu. Thank you. I believe, Mr. Smith, you have some 
further questions.
    Mr. Smith. Let me ask Chief Johnson, on a scale of one to 
ten on urgency for action in terms of where we are today and 
what needs to be done, on a scale of one to ten, how urgent is 
this?
    Chief Johnson. Thank you, Mr. Smith. Pursuing this where we 
are today in the Project 25 standard has not been my primary 
area of study, so I really do not have a feel for it, sir. I 
think reflecting back on my comment about how in public safety 
we make sure that we are buying compliant products, I think the 
larger the purchase, the larger the scale and the more likely 
you are to use a request for proposal bid system where you can 
hold people accountable on the back end for functional testing, 
the safer you are as a public safety responder. If you buy one 
or two radios, you are more subject to the certification and 
having to trust the certification. I think to reiterate a 
component of my testimony, and I really appreciate where the 
Committee is coming from in this regard is, at the end of the 
day, I think it is unreasonable to expect a police chief or a 
fire chief to be conversant enough in the technical details, 
and I think you basically want to be able to look at a standard 
and trust that that standard says it will work from provider to 
provider to provider in case you are not doing an RFP-based 
system where you can actually test in a field.
    Chairman Wu. Chief, it is awfully hard for a Congressman to 
be conversant in this area also.
    Mr. Smith. Here, here. Thank you, Chief.
    On the European model then, is that a more desirable 
situation, Dr. Boyd?
    Dr. Boyd. I don't think we want a mandated system that in 
fact is very, very government heavy and very, very government 
driven, and quite frankly is much more expensive than anything 
we think is really appropriate to put into place here. I think 
we want the kind of voluntary consensus-based assessment 
program that we have.
    Mr. Smith. Mr. Orr, is that European model more desirable 
than what we have now?
    Mr. Orr. No, I believe what I would like to see happen is 
for the program we have in place to become fully functional, 
and if that meets the requirements and we see in the field what 
needs to happen and the result is that we have equipment that 
meets the standard and we don't have any significant problems 
in the field, then the program is working and there is no 
reason to do anything more than that.
    Mr. Smith. Dr. Hofmeister, would TETRA testing be the 
reason Harris is not in Europe?
    Dr. Hofmeister. No, I don't think that is the full reason. 
I think it is just a full business reason. That would be a 
component but not----
    Mr. Smith. Contributing factor?
    Dr. Hofmeister. A contributing factor but not a full 
reason, right.
    Mr. Smith. Anyone else wishing to weigh in? Thank you.
    Chairman Wu. If none of the Members of the Subcommittee 
have any further questions, I would like to offer folks this 
opportunity because you all have come a long ways and also done 
a lot of preparation for this hearing, so if there is anything 
that we have not asked but you would like to contribute to this 
hearing, I would like to give you an opportunity going from 
left to right to add that now. Dr. Boyd?
    Dr. Boyd. Just one brief point, and that is to remember 
that while we have been talking about land mobile radio, the 
movement of the world into a digital arena means that we are 
now really talking about interoperability across all of these 
digital systems and so over the long haul we have to remember 
that as we look at interoperability, we have to think beyond 
just voice into data maps, imagery, video and all the rest that 
public safety requires in large-scale emergencies like so many 
of these we have unfortunately seen in the last few years.
    Chairman Wu. Mr. Orr?
    Mr. Orr. I would simply end on the fact that I would point 
out that over the last few months, like I said in my testimony, 
we have been having some healthy discussions with our industry 
partners in Project 25 and we are moving forward and deciding 
what are the appropriate interoperability performance and 
conformance tests for each of the existing interfaces right 
now, and I feel confident and I want to remain confident that 
when we report back to the Committee at some point that we will 
have seen progressed and moved forward in this issue, but I 
think the momentum over the last few months has been a positive 
one.
    Chairman Wu. Dr. Hofmeister?
    Dr. Hofmeister. Yes, thank you, Mr. Chairman. Just a couple 
points that didn't come out and were in my written testimony in 
terms of recommendations. One, there is an array of mandatory 
and standard option features that are part of the standards 
suite. One suggestion would be to get the user community and 
manufacturers to work together to define those into packages, 
baseline level zero, baseline level one, so that you could 
refer to them as packages and not have to constantly refer to a 
whole array of these things. I think that would help with 
simplification of what it is compliant with and what the 
functionality is. But even more than that, and it gets back to 
Dr. Boyd's testimony, the interoperability, again, to define 
levels of interoperability from very baseline level zero, what 
functions are required there, level one, and make sure those 
are rock solid. Right now, I think there could be much progress 
in making sure that you define what those levels of 
interoperability are and make sure those are present and tested 
for in every product. Thank you.
    Chairman Wu. Thank you.
    Mr. Muench.
    Mr. Muench. Thank you, Mr. Chairman. Yes, I would just like 
to reiterate that significant progress has been made in Project 
25 and we continue to stay up with technology maybe making it 
look like we are not making progress but we continue to adopt 
new technology. As we move forward, Motorola absolutely 
supports the formal Compliance Assessment Program but we would 
like to make sure that industry representation is part of that 
process since it is industry that are the ones that write the 
standards, we are the ones that develop the equipment, 
manufacture the equipment and actually perform the testing. So 
again, having these industry experts as part of the process and 
providing, you know, the recommendations, we have been making a 
lot of progress as of late and we are going to continue to make 
progress.
    Chairman Wu. That is a good thing. Thank you, Mr. Muench. 
You know, these are consensus standards developed by multiple 
parties, mostly private industry, and my understanding is that 
Underwriter Laboratories and such testing efforts are also 
joint ventures of private industry. Thank you.
    Chief Johnson?
    Chief Johnson. Thank you, Mr. Chairman and Members of the 
Committee. We have spent a great deal of time today talking 
about the technical standards and how functional the radio 
system is. As Oregon's governor asked me to solve Oregon's 
interoperability problem, I found myself in front of the House 
and the Senate trying to explain what the national standard was 
for interoperability in a radio network, and it was then that I 
discovered there wasn't one, that there was no national 
recommendation for radio network, and I think that part of our 
problem is, of course, the technical matters we talked about 
today, but that is only one of the swaths in terms of solving 
interoperability. I think what we need next to truly move past 
our interoperability challenges in this country is, we need a 
predictable national architecture for public safety 
communications, and that means that we combine the public 
safety broadband spectrum which is allocated today with the D 
block and that will create an adequate enough swath that we can 
foresee and predict that public safety will move into what I 
will call a radio over Internet protocol, and OEC [Office of 
Emergency Communications] has actually identified this in their 
dual path strategy about moving from this land mobile radio-
based environment that we have today, moving out of--(frankly, 
there are still systems out there today operating on crystal 
radios and many system operating on stamp chip sets) to moving 
to an Internet protocol-driven radio system.
    Now, this will take time. Moving from LMR today to IP 
[Internet protocol] radio is going to take many, many years but 
it is the only way to identify a national architecture that 
will draw industry to a common place and give fire chiefs and 
police chiefs a predictable system that we can move to and move 
out of interoperability being this connection sideways to this 
disparate radio spectrums, and if we don't identify an adequate 
enough path moving forward, we are going to address our 
frequency spectrum limitations by adding yet another small 
swath out of yet another spectrum, and that will perpetuate the 
interoperability problems that we have faced for the last 30 
years. I hate to quote Dr. Phil, but I would just ask, ``How is 
that working for us?'' We have 30 years of giving us little 
slice by little slice by little slice and we haven't got the 
job done. It is time to take this one-time opportunity, Mr. 
Chairman, when we vacated these TV stations to allocate the D 
block to public safety. That will give us a predictable swath 
that will move us toward radio over Internet protocol.
    Mr. Chairman, Members of the Committee, I appreciate the 
opportunity to be heard.
    Chairman Wu. Thank you very much, Chief.
    This has been a steep technical hill for the Committee to 
climb, for Members to climb, for staff to climb, and I want to 
thank you all for helping us understand that. It still seems 
that there is some differences in viewpoint or perhaps we are 
talking about technical standards in a slightly different way. 
What it comes down is, I remain concerned that Mr. Smith and I 
can both have handhelds and each of us can talk with the chief 
and yet we can't talk with each other and all three of us have 
P25 certified systems Project 25 systems. It seems to me that 
if it is P25 certified, we should have taken the standards and 
the testing to a point where these three P25 certified devices 
will all talk with each other rather than two of them not 
communicating, and I remain concerned about that. And evidently 
there is consensus in the panel that progress has been made and 
that some important progress has been recently made, and I 
encourage all the parties which are active in this industry, 
the government players and the end user community, to work 
together in the best spirit of doing what is good for customers 
and shareholders and especially the general public to develop 
systems which are interoperable and dependably so and permit 
additional layers to be added on without dire problems. It is 
in that spirit that I want to seriously consider holding a 
follow-up hearing to see where we are on this and to clarify 
issues that remain unclear, and I will take responsibility for 
the fact that perhaps we haven't dug deeply enough in this 
particular hearing.
    Again, I want to thank each and every one of you for 
appearing, for your travel time, for your preparation time. The 
record will remain open for two weeks for additional statements 
from Members and for questions, additional questions and your 
answers to follow-up questions that the Committee may ask.
    The witnesses are excused and the hearing is adjourned. 
Thank you very much.
    [Whereupon, at 11:45 a.m., the Subcommittee was adjourned.]

                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


Responses by Dr. David Boyd, Director, Command, Control and 
        Interoperability Division, Science and Technology Directorate, 
        Department of Homeland Security (DHS)

Questions submitted by Chairman David Wu

Q1.  P25 equipment purchased with DHS grant dollars must follow the CAP 
testing and evaluation requirements. How does DHS monitor the grant 
programs to ensure that grantees follow this requirement?

A1. The DHS Office of Emergency Communications (OEC) and the Office for 
Interoperability and Compatibility (OIC) support SAFECOM's development 
of guidance, research, testing, and standards of communications 
technology. SAFECOM issues an annual document titled ``Recommended 
Guidance for Federal Grant Programs'' to provide a point of reference 
for Federal grant programs that fund interoperable emergency 
communications activities. The guidance is intended to ensure that 
Federal grant funding for interoperable communications aligns with 
national goals and objectives and ensures alignment of state, local, 
and tribal investment of Federal grant funding to statewide and 
national goals and objectives.
    The SAFECOM guidance specifically states that when a grantee 
procures P25 equipment and systems they should, at a minimum, ``ensure 
the vendor has participated in equipment testing consistent with the 
Project 25 Compliance Assessment Program (P25 CAP).''
    FEMA/GPD acknowledges this guidance and incorporates it by citation 
into all grant guidance and application kits, ``States that are using 
FY 2010 HSGP funds to purchase Interoperable Communications Equipment . 
. . must consult SAFECOM's coordinated grant guidance, which outlines 
standards and equipment information to enhance interoperable 
communications.''
    FEMA/GPD does not monitor its grantees to ensure they follow the 
P25 CAP requirement. However, in an effort to assist grantees 
purchasing communications equipment, information related to the P25 CAP 
has been incorporated into the Responder Knowledge Base (RKB) website, 
which maintains the DHS Authorized Equipment List. P25 vendors can now 
include test result summary reports and a Supplier's Declaration of 
Compliance (SDoC) on the RKB for grantees to reference.
    The grant program that most directly addresses the P25 CAP is the 
Public Safety Interoperable Communications (PSIC) grant program, which 
is administered by both FEMA/GPD and the National Telecommunications 
and Information Administration (NTIA). Approximately 90 percent of all 
available PSIC funding ($848 million out of the available $968 million) 
is being used by grantees to acquire and deploy equipment to improve 
interoperable communications.
    As background, the PSIC Grant Program Guidance and Application Kit 
released in August 2007 stated that:

         ``Agencies purchasing Project 25 (P25) compliant equipment 
        must obtain documented evidence from the manufacturer that the 
        equipment has been tested to and passed all of the applicable, 
        published, normative P25 compliance assessment test procedures 
        for performance, conformance, and interoperability as defined 
        in the ``Grant Guidance--Project 25 Explanatory Addenda,'' 
        which can be found at www.safecomprogram.gov/SAFECOM/grant/
        defaults.htm.''

    In June 2009 with the designation of the initial eight laboratories 
approved to test equipment under the P25 CAP, PSIC program managers and 
officials from the Office of Emergency Communications (OEC) met with 
the National Institute of Standards and Technology (NIST) Office of Law 
Enforcement Standards and received guidance on the program. The PSIC 
Grant Program included language in its technical assistance offering in 
the National Preparedness Directorate Technical Assistance Catalog.

Q2.  Acknowledging that P25 is a work in progress, at the end of his 
testimony, Dr. Hofmeister suggested that defining the standard 
functions and features included within a ``package'' may offer public 
safety a clearer picture of the functionality of the LMR systems they 
are choosing. What are your thoughts on this recommendation or on other 
ways of providing agencies with a better window into the status of P25 
and the implications the status may have on functionality?

A2. Defining the standard functions and features required to identify a 
product as P25 compliant would provide greater transparency to the 
public safety community. A common definition for the sets of features 
offered by manufacturers could be beneficial, but only if it better 
informs the public safety community's procurement process and defining 
these feature sets does not cause additional delays. When there is a 
common definition of features across manufacturers, public safety 
officials can directly compare equipment based upon its functionality 
and how it will meet their requirements. This transparency combined 
with a robust compliance assessment program, including conformance 
testing, will provide increased confidence that equipment will meet the 
needs of the public safety community. (Conformance testing demonstrates 
how equipment conforms to the standard and will interoperate with all 
compatible equipment that correctly implements the standard, including 
equipment that was not tested.)
    The Office for Interoperability and Compatibility (OIC) and the 
National Institute of Standards and Technology (NIST) are actively 
working to provide more information on P25 to the public safety 
community. The P25 Document Suite Reference identifies the current 
status of the highest priority P25 standards. Manufacturers are also 
required to submit Suppliers' Declaration of Compliance (SDoC) and 
Summary Test Reports. The SDoC is the manufacturer's formal, public 
attestation of compliance with the standards for the equipment. The 
Summary Test Reports provide the equipment purchaser with a summary of 
the tests conducted on the equipment along with the testing outcome. 
All of these documents are available to the public safety community 
through the Federal Emergency Management Agency's Responder Knowledge 
Base Web site (https://www.rkb.us/) and through NIST's Public Safety 
Communications Research Program Web site (http://www.pscr.gov/).

Q3.  In your testimony you mentioned that there are products in the 
field that were built in the early phases of P25 and that these 
systems, though labeled P25, may not interoperate. How widespread is 
this problem and how well aware are public safety agencies that their 
older P25 systems may not interoperate with newer systems?

A3. There are more than 50,000 public safety agencies throughout the 
United States, each with its own local and state government regulations 
and requirements that can impact interoperability. It is difficult to 
assess how widespread the problem is. Often responders do not know 
whether they can truly communicate until the need to interoperate with 
different agencies arises. Based on our work in the field, there is a 
perception in the public safety community that buying P25 equipment 
does not guarantee interoperability. The perception that P25 equipment 
does not interoperate has impacted the pace of adoption. The best way 
to ensure P25 systems can communicate and also improve the public 
safety community's confidence in these systems is to have a robust 
compliance testing program that includes conformance testing.
    The Department of Homeland Appropriations Act, 2007, (P.L. 109-295, 
Title VI, Sec. 672(a)) (October 4, 2006) amended the Homeland Security 
Act of 2002 (Act), by adding a new section 314 to that Act. Under 
section 314, codified at 6 U.S.C. 195, the Director of the Office for 
Interoperability and Compatibility is required to, among other things, 
in coordination with the Federal Communications Commission, the 
National Institute of Standards and Technology, and other Federal 
departments and agencies with responsibility for standards, support the 
creation of national voluntary consensus standards for interoperable 
emergency communications. P25 CAP provides a process through which 
equipment can demonstrate that it correctly follows the standard and is 
able to interoperate with other equipment following the standard. When 
interoperability testing is combined with conformance testing, the 
public safety community can be assured that equipment conforms to the 
standard and will interoperate with all compatible equipment that 
correctly implements the standard, including equipment that was not 
tested. Conformance testing helps provide increased confidence that 
equipment developed in the future will retain compatibility with legacy 
systems.

Q4.  One issue raised at the hearing was that some of the 
interoperability problems that have emerged were not due to a failure 
to conform or comply with the standard, but were due to configuration 
issues. Do you agree with this? What is the role of the P25 process 
and/or the Federal Government in ensuring that configuration issues do 
not hinder interoperability?

A4. Radio systems are complex and include many features and functions 
that need to be configured. The way a radio is programmed varies from 
manufacturer to manufacturer. When public safety practitioners respond 
to an emergency and attempt to use their own equipment to communicate 
with responders from different agencies they may be forced to 
reconfigure their radios. This effort can waste valuable time and 
expend limited resources during an emergency. Additionally, improperly 
configuring a radio can prevent interoperability. Configuration issues 
could be addressed either through the voluntary consensus process or 
directly by manufacturers.
    To date, P25 has focused on standardizing interfaces instead of 
internal functions of equipment, such as the method for configuration. 
Communication standards focus primarily on standardizing the interfaces 
because that is critical to ensuring devices can communicate across 
manufacturers. Internal device functions allow for product 
differentiation and manufacturers are free to be innovative with their 
product as long as they correctly implement the interface, allowing for 
interoperability.

Questions submitted by Representative Ben R. Lujan

Q1.  I am glad to see that we are having this important discussion, and 
I look forward to working with you all and my colleagues on policy that 
supports effective, high-tech public safety equipment. As a border 
state, New Mexico is faced with unique public safety challenges. Can 
you elaborate on how interoperability can affect border security? How 
can we support interagency coordination as well as coordination with 
state and local governments on establishing interoperability standards 
and technology to assist border security efforts?

A1. Since its creation, the Office for Interoperability and 
Compatibility (OIC) has supported user driven processes such as P25. 
Recognizing the need for an open and transparent compliance process, 
OIC established a P25 Compliance Assessment Program Governing Board to 
represent the collective interests of organizations that procure P25 
equipment. The Governing Board consists of local, state, and Federal 
Government employees who are active in the operation or procurement of 
communication systems. Members of the Governing Board represent states 
and communities on the northern and southern border. Their input into 
the Governing Board helps ensure the work benefits interoperability on 
the border.

Questions submitted by Representative Gary C. Peters

Q1.  First responders in Michigan and other border regions must be 
prepared to coordinate with foreign first responders should an 
emergency occur at border crossings. Has the effort to increase 
compliance and interoperability of public safety LMR systems included 
coordination with international entities, such as Canadian first 
responders and regulators?

A1. As part of its efforts to improve interoperability, the Office for 
Interoperability and Compatibility (OIC) is coordinating with 
responders from Canada. Representatives from OIC have participated in 
the Canadian Voice Interoperability Workshop to discuss the need to 
accelerate P25 standards and use a robust compliance process. 
Additionally, the P25 Compliance Assessment Program provides a 
universal method for testing for compliance to P25, which is used 
internationally.

Q2.  First responders in Michigan tell me that radio communication 
would be one of the most significant challenges in communicating with 
Canadian personnel in case of emergency and that they currently lack 
the capability to communicate in the event of a large scale disaster 
such as a tunnel failure or bridge sabotage at the border. Has there 
been any effort to develop or provide first responders at border 
regions with specialized shared radio units that would provide seamless 
cross border communication? Have government regulators worked with 
Canadian regulators to discuss how to create radios that would be 
interoperable and meet both countries' regulatory requirements?

A2. One of the goals of Office for Interoperability and Compatibility's 
(OIC) Multi-Band Radio (MBR) Project is the advancement of MBR 
technology to improve key communications between local, tribal, 
regional, state, and Federal agencies. To do this, OIC is collaborating 
with practitioners and industry to develop MBR technology that will 
enable a single radio to operate across disparate radio bands in use by 
the emergency response community in both the United States and Canada. 
OIC is funding the test and evaluation (T&E) of a single handheld MBR 
through three phases of pilot testing. Phase One involved T&E by U.S. 
and Canadian emergency response organizations along the Seattle/Blaine, 
WA border region and other Canadian emergency response agencies (e.g., 
Vancouver Transit Police) during the 2010 Olympics. During Phase Two, 
representatives of various emergency response disciplines in Michigan 
will use the MBRs, which have already been deployed and programmed. 
Upon the completion of full software development, OIC plans to conduct 
another pilot with cross-border potential in Phase Three with DHS's 
Customs and Border Protection in the Greater Detroit area. Pilot 
planning remains underway and is expected to include Canadian 
counterpart agencies. Additionally, OIC is collaborating with 
practitioners in Nogales, Arizona to conduct MBR T&E along the 
southwest border.
    U.S. and Canadian regulators have a close working relationship and 
have worked together for many years to share radio spectrum along the 
border region. This is no simple task, as radio signals do not stop at 
the border and each nation has equal access to all radio spectrum. The 
State Departments of both Nations, the U.S. Federal Communications 
Commission, the National Telecommunications and Information 
Administration, and the Canadian spectrum regulatory body, Industry 
Canada, have all been actively engaged in solving regulatory issues, 
including the sharing of the radio spectrum along the border region.

                   Answers to Post-Hearing Questions
Responses by Mr. Dereck Orr, Program Manager, Public Safety 
        Communications Systems, National Institute of Standards and 
        Technology (NIST)

Questions submitted by Chairman David Wu

Q1.  Acknowledging that P25 is a work in process, at the end of his 
testimony, Dr. Hofmeister suggested that defining the standard 
functions and features included within a ``package'' may offer public 
safety a clearer picture of the functionability of the LMR systems they 
are choosing. What are your thoughts on this recommendation or on other 
ways of providing agencies with a better window into the status of P25 
and the implications the status may have on functionability?

A1. Public safety users today have great difficulty understanding what 
P25 is or means as they are procuring equipment. Part of that confusion 
stems from the fact that not all of the P25 interface standards are 
complete. Additionally, there is no set of standardized features 
required for a product to be labeled P25. The definition of a feature 
set required for the use of the P25 logo would give public safety 
increased confidence that a system labeled as P25 at least meets a 
minimum set of requirements and promotes interoperability.
    Public safety users also benefit from the clear definition of each 
feature's completion status. With this information, public safety can 
determine which features of a system are truly standardized, and thus 
make better-informed procurement decisions.
    In response to the absence of these initiatives within the P25 
process, NIST and the Department of Homeland Security's (DHS) Office 
for Interoperability and Compatibility (OIC) have instituted the P25 
Document Suite Reference (P25 DSR) and the P25 Compliance Assessment 
Program (P25 CAP). The P25 DSR identifies the current status of each of 
the five standards that make up the P25 interfaces. This information is 
updated following each P25 standards meeting, or faster as needs 
dictate. The P25 DSR can be found on the Public Safety Communications 
Research (PSCR) program's website (www.pscr.gov).
    Addressing the lack of a standard feature set required for the use 
of the P25 label, NIST and the Department of Homeland Security launched 
the P25 Compliance Assessment Program, a voluntary program that allows 
P25 equipment suppliers to formally demonstrate their products' 
compliance with a select group of requirements by testing it in 
recognized labs. The output, Suppliers' Declarations of Compliance and 
Summary Test Reports, from the P25 CAP are available on DHS's 
Responders Knowledge Base website (www.rkb.us). All agencies (Federal, 
state, and local), however, have a unique set of requirements or 
operating conditions, and as such, each agency should require test 
information for those unique requirements, beyond those provided by the 
P25 CAP, during their procurement process (i.e., through Request for 
Proposals (RFPs), etc.).

Q2.  One issue raised at the hearing was that some of the 
interoperability problems that have emerged were not due to a failure 
to conform or comply with the standard, but were due to configuration 
issues. Do you agree with this? What is the role of the P25 process 
and/or the Federal Government in ensuring that configuration issues do 
not hinder interoperability?

A2. NIST does not know the degree to which configuration issues lead to 
radio problems in the field, but in our experience, the difficulty in 
configuring or programming a public safety radio, which varies from 
manufacturer to manufacturer, can be considerable. One variable that 
plays a large role in the complexity of radio configuration is the 
number of features incorporated into each radio. Additionally, each 
manufacturer has a different physical method of programming the radios 
along with a different software interface. In other words, there is no 
common method of configuring radios across multiple manufacturers.
    This complexity, and the lack of a standardized method for 
programming radios across different vendors, can lead to operability 
and interoperability issues. However, in discussions with public safety 
organizations responsible for the provisioning of radios operating on a 
system, we have been informed that many of the issues found in the 
radios also require software upgrades to the radios themselves rather 
than a simple reconfiguration. Thus we are confident that some issues 
found in the field are due to problems beyond configuration and 
programming, and are instead due to non-conformance to the standard or 
problems with the standard itself.
    That said, we do believe that configuration issues could become 
critical, hindering interoperability during an event where agencies 
from surrounding areas bring their own equipment into a response. If 
each radio used in an event requires configuration prior to use, and 
reconfiguration is complex and difficult, then the ability to 
communicate could become compromised.
    If configuration issues are indeed contributing to interoperability 
issues, as has been identified by Mr. Hoffmeister, then it behooves 
those involved in the P25 process to address this issue given that the 
purpose of P25 is to standardize interfaces to facilitate 
interoperability.

Questions submitted by Representative Gary C. Peters

Q1.  First responders in Michigan and other border regions must be 
prepared to coordinate with foreign first responders should an 
emergency occur at border crossings. Has the effort to increase 
compliance and interoperability of public safety LMR systems included 
coordination with international entities, such as Canadian first 
responders and regulators?

A1. Coordination among American and Canadian first responders is 
critical should an incident occur at the border. It is important that 
both American and Canadian public safety agencies are able to leverage 
P25 standards to increase confidence in interoperability among their 
systems. It is also important that PSCR and other Federal emergency 
communications agencies work closely with their Canadian counterparts.
    For the last several years, PSCR staff have been invited to 
participate in the Canadian Voice Interoperability Workshop to speak on 
issues such as P25 and voice quality in land mobile radio systems. 
During these presentations, PSCR staff speaks to the status of P25 
standards development and points out the fact that Canadian public 
safety agencies can also use the P25 CAP given the public distribution 
of the information. PSCR anticipates continuing its participation in 
such events as long as invited. In addition to direct participation in 
Canadian interoperability events, PSCR has committed to sharing all 
work product that can be shared publicly with the Canadian first 
responder community.
    In addition to this direct cooperation with Canada, other 
organizations are working directly on border interoperability issues 
with both Mexico and Canada. These organizations include the Department 
of Homeland Security's Office of Emergency Communications (OEC) and its 
Border Interoperability Demonstration Project as well as the National 
Public Safety Telecommunications Council's Border Issues Working Group.

Q2.  First responders in Michigan tell me that radio communication 
would be one of the most significant challenges in communicating with 
Canadian personnel in case of emergency and that they currently lack 
the capability to communicate in the event of a large scale disaster 
such as a tunnel failure or bridge sabotage at the border. Has there 
been any effort to develop or provide first responders at border 
regions with specialized shared radio units that would provide seamless 
cross border communications? Have government regulators worked with 
Canadian regulators to discuss how to create radios that would be 
interoperable and meet both countries' regulatory requirements?

A2. While PSCR works directly with the Canadian first responder 
community (through Industry Canada and the Canadian Interoperability 
Technology Interest Group), it does not work with specific border 
agencies in either the U.S. or Canada. Both DHS OEC and DHS OIC have 
direct relationships with their Canadian counterparts and are likely 
better informed to answer this question.

                   Answers to Post-Hearing Questions
Responses by Dr. Ernest L. Hofmeister, Senior Scientist, Harris 
        Corporation

Questions submitted by Chairman David Wu

    Thank you Chairman Wu for your sincere interest in the Hearing 
subject and related topics. Harris appreciates the opportunity to 
provide additional information in response to your questions.

Q1.  At the end of your testimony you suggested that ``there could be 
much progress in making sure you define what those levels of [baseline 
and above] of interoperability are and make sure those are present, 
tested for and present in every product.'' What would be required to 
implement this type of product labeling?

A1. The intent of this comment was to reference one of the Harris 
recommendations in the written testimony that: ``Agreement among public 
safety agencies on the features for interoperability, as defined by 
several levels of interoperability, would be beneficial. These levels 
could include: P25 Interoperability Capability 0 (baseline); P25 
Interoperability Capability 1 (Capability 0 plus more features), etc. 
This grouping of interoperability capability features would make 
specification and testing of interoperability simpler, more efficient, 
and adaptable to the interoperability needs of various public safety 
agencies.'' Within the P25 suite of standards, there is an array of 
mandatory and standard option features.\1\ As the name implies, 
mandatory features are those features that must be included in every 
P25 radio and system product. For example, Unaddressed Voice Call is a 
mandatory feature for the conventional mode of operation and Group Call 
Voice is a mandatory feature for the trunked mode of operation. For the 
current published suite of P25 standards, there are approximately 10 
mandatory conventional features and 13 mandatory trunked features. 
However, for standard option features, there are approximately 30 
standard option conventional features and 34 standard option trunked 
features. A standard option feature is a feature that the user has the 
option of purchasing/deploying and the manufacturer has the option of 
providing in its P25 radio and system product. With the 10-13 mandatory 
features representing the most basic level of operation and the 30-34 
standard option features variably implemented in public safety P25 
systems according to the buying needs/requirements of the user and the 
manufacturers option to provide, the range of P25 features varies 
significantly from P25 system to P25 system. The reason for the 
relatively large number of standard option features is to allow 
flexibility for various size public safety agencies to implement 
systems with capability scaled to their needs from relatively small, 
lower capability to very large, high capability needs. While such 
flexibility is good to allow adaption to user needs, it does create 
challenges when attempting to define one or more standard 
interoperability profiles (levels of capability) that can be tested and 
practiced with high assurance that the needed interoperability will 
work well when needed.
---------------------------------------------------------------------------
    \1\ The official definitions of mandatory and standard option 
features are included in the Project 25 Statement of Requirements (P25 
SoR, Mar 3, 2010 Approved Version) as:

      <bullet> GA Mandatory service, feature, or capability 
      supported by the suite of P25 standards is to be supported 
      by all P25 systems. Implementation of the so-designated 
      services, features, or capabilities shall comply with the 
---------------------------------------------------------------------------
      P25 standards defined by TIA.

      <bullet> GLikewise, a Standard Option service, feature, or 
      capability is supported by the suite of P25 standards. The 
      user has the option of deploying so designated services, 
      features, or capabilities. Likewise, manufacturers have the 
      option of offering so designated services, features, or 
      capabilities. If deployed in a particular P25 system, 
      implementation of the Standard Option shall comply with the 
      P25 standards defined by TIA.
    It is Harris' view that with such variability and flexibility in 
P25 features supported, interoperability in terms of features/
capability means something quite different from public safety agency to 
public safety agency and especially from smaller, more likely rural 
agencies to larger, more likely metropolitan agencies. As noted in the 
Harris written testimony, ``although challenging and having been 
discussed a number of times by users and manufacturers in the P25 
standards community, the array of P25 mandatory and standard option 
features could be grouped or packaged into levels of increasing 
capability; i.e., P25 Level 0 (baseline); P25 Level 1 (Level 0 plus 
more features); P25 Level 2; etc. This grouping of features could make 
the product marking of features supported and the P25 CAP testing of 
features packages more simplified and efficient.'' A similar grouping 
or packaging of features into levels or profiles of interoperability 
would reduce the large variability in terms of interoperability 
features supported to a reduced set levels or profiles. Such grouping 
of interoperability capability features would make specification, 
testing, and marking of interoperability capability simpler, more 
efficient, and adaptable to the interoperability needs of various 
public safety agencies.
    Harris views that the steps needed to implement such a 
specification, testing, and marking of interoperability levels or 
profiles would include:

        a.  P25 knowledgeable public safety agencies working together 
        for consensus to define the P25 features for several levels of 
        interoperability capability. These levels or profiles could 
        include: P25 Interoperability Capability 0 (baseline and 
        probably just the mandatory features); P25 Capability 1 
        (Capability 0 plus more features); P25 Capability 2 (Capability 
        1 plus more features), etc. Harris would envision that there 
        should be five or fewer capability levels.

        b.  Once the Capability Levels are defined in item a, the P25 
        community (industry and users) would select or develop the 
        interoperability test standards corresponding to the features 
        specified in the Capability Levels. This could be a selection 
        of a subset of tests in the current trunked voice 
        interoperability and the conventional voice interoperability 
        standards. For the higher level(s) of interoperability, it may 
        be necessary to develop supplemental interoperability tests for 
        the standards.

        c.  The results of item b could be provided to the P25 
        Compliance Assessment Program Governing Board for their 
        consideration to incorporate into the formal P25 Compliance 
        Assessment Program interoperability tests through a Compliance 
        Assessment Bulletin (CAB).

        d.  The current or additional Recognized P25 Compliance 
        Assessment Laboratories could be assessed as necessary and 
        recognized for these Interoperability Capability Levels.

        e.  Manufacturer's products could then be tested in the P25 CAP 
        Recognized Laboratories per the CAB.

        f.  Based on the results of the P25 CAP interoperability 
        testing, the posted Summary Test Reports (STRs) and the 
        Supplier's Declaration of Compliance (SDoCs) could reflect the 
        Interoperability Capability Level(s) passed.

        f.  If desired, a suitable P25 Interoperability Capability 
        Level sticker or marker could be developed and used to visually 
        show the P25 Interoperability Capability Level of the subject 
        P25 product.

    This approach could be consistent with the testimony during the 
Hearing of Dr. Boyd, ``The way we talk about standards is that there 
ought to be some core set of functionalities that we make sure remain 
in place. I think the manufacturers are working very closely with us to 
develop that core set of functionalities.'' \2\
---------------------------------------------------------------------------
    \2\ From 5.27 hearing transcript for Dr. Boyd statements at lines 
874 and 883.

Q2.  One issue raised at the hearing was the difference between 
performing conformance testing while the product is in development and 
doing so after the product has been developed. Can you please comment 
on Mr. Orr's statement that testing during development meets 
conformance testinq requirements if done with the ``right'' equipment 
and quality system in place? What is involved in developing the testing 
---------------------------------------------------------------------------
equipment and quality system?

A2. As a preface before answering the question and specifically on ISSI 
conformance testing, Harris views ISSI conformance testing as a design 
verification method used on software subsystems during product 
development in engineering laboratories. Harris does conformance 
testing as part of product development in engineering laboratories and 
at various stages of development (e.g., unit test, integration test, 
and SVT) to verify subsystem design. The testing is less formal, but 
done. In general, Harris does not feel that repeating conformance tests 
on a formal basis after complete product development adds significant 
value compared to the effort required. Harris is on public record 
several times in comments \3\ \4\ to the P25 CAP Governing Board 
regarding its position on formal P25 CAP ISSI conformance testing. That 
being said, Harris recognizes that the P25 CAP Governing Board issued a 
P25 CAP ISSI Compliance Assessment Bulletin (CAB) that specifies 
approximately 30 conformance and 27 interoperability tests and that 
this CAB is in effect.\5\
---------------------------------------------------------------------------
    \3\ Harris Comments on DHS OIC P25-
CAB<INF>-</INF>ISSI<INF>-</INF>REQ--December 2009, Ernest L. 
Hofmeister, Harris Corporation, January 18, 2010.
    \4\ Harris Comments to DHS P25 CAP Governing Board--March 31, 2010, 
Ernest L. Hofmeister, Harris Corporation
    \5\ P25 Compliance Assessment Bulletin, Baseline Inter-RF Sub-
System Interface Testing Requirements, P25-CAB-
ISSI<INF>-</INF>TEST<INF>-</INF>REQ, Office for Interoperability and 
Compatibility, U.S. DHS, March 2010.
---------------------------------------------------------------------------
    In terms of answering the question, Harris agrees with Mr. Orr's 
statement that there is a provision in the P25 Compliance Assessment 
Laboratory guidelines that would allow ``recognized'' conformance 
testing during product development if done with the ``right'' equipment 
and quality system in place. The Guide \6\ ``discusses an approach of 
integrating recognized P25 CAP compliance test activities with the 
Product Development organization design validation testing activities. 
However, in order for this integrated approach to be successful, the 
recognized P25 CAP laboratory and product development must ensure that 
the provisions of NIST Handbook 153 \7\ are completely satisfied.''
---------------------------------------------------------------------------
    \6\ P25 CAP Laboratory Testing: Guide for Integration With Product 
Development Organizations, issued by P25 CAP, June 26, 2009, file 
Integration of P25 lab testing with product development r10.pdf.
    \7\ NIST Handbook 153, 2009REV Edition, ``Laboratory Recognition 
Process for Project 25 Compliance Assessment,'' Kurt B. Fischer and 
Andrew Thiessen, Editors, Office of Law Enforcement Standards, 
Electronics and Electrical Engineering Laboratory, National Institute 
of Standards and Technology, U.S. Department of Commerce, June 2009.
---------------------------------------------------------------------------
    While Harris continues to evaluate the integrated approach, Harris 
is concerned about the operational practicality of integrating the 
product development environment into the P25 Compliance Assessment Lab 
environment in compliance with the Guide and NIST Handbook 153 and the 
business investment impact to do so. The practicality and investment 
challenges include establishing the ``right'' test equipment (including 
software test tools) and the quality system per NIST Handbook 153.

a. ``Right'' Test Equipment

    Regarding the ``right'' test equipment, for conformance testing for 
interfaces like the Common Air Interface (CAI) where commercial off-
the-shelf test equipment like protocol analyzers and RF test equipment 
exists that can be readily validated per NIST Handbook 153, 
establishing the ``right'' test equipment is not a challenge. However, 
for conformance testing for interfaces like the Intra-RF SubSystem 
Interface (ISSI) where the ISSI product is primarily software and where 
commercial off-the-shelf software test tools that can be readily 
validated per NIST Handbook 153 do not exist, establishing the 
``right'' test equipment is a significant challenge. Conformance 
testing for software products like the ISSI by its nature is tedious 
and labor intensive without some automated and validated test tool. 
Harris is not aware of such a tool, but maintains a high interest level 
in sources or information on such a tool. An R&D version of an 
automated tool has been offered by NIST, but it has not been validated 
to our knowledge and especially not per the NIST Handbook 153 
requirements for software test tools. Similarly, an ISSI software test 
tool offered a small company, Valid8, has been evaluated by Harris. Our 
assessment is that while this tool is promising for the future, a 
sizeable amount of continued development, maturation, and validation 
would be required before it could be considered a ``right'' test tool. 
Harris and industry experience with software and products from R&D labs 
and small companies is that much effort is often required to finish the 
development to a product and to validate and then to support.
    Harris also notes that formal ISSI conformance testing will likely 
not be a onetime event where tedious, labor intensive testing might be 
more supportable. As with many complex P25 products, Harris expects 
that ISSI product releases will occur over time with successive 
releases supporting more and more of the ISSI features. ISSI 
conformance testing would be required for each successive ISSI product 
release.
    Harris cannot afford to be both an LMR P25 equipment manufacturer 
and a test equipment/tool manufacturer. The public safety LMR P25 
industry is just not like the cellular industry where we understand 
formal conformance tests are done. The much higher product mix and the 
much, much smaller volumes means that Harris, and likely the industry, 
must do things differently than the cellular industry. The orders of 
magnitude difference in scale between the LMR P25 industry and the 
cellular industry was identified and discussed during the hearing.
    Thus, for ISSI conformance testing, the lack of a validated, 
automated software test tool (``right'' equipment) represents a 
significant practical technical and business investment challenge. This 
challenge applies independent of whether the formal conformance testing 
is integrated with product development or whether it is done separate 
from product development after the product is complete in a recognized 
P25 CAP lab. Development and validation of an automated ISSI 
conformance test tool by the Public Safety Communications Research 
(PSCR) \8\ program (or another NIST/OLES or NTIA/ITS) group or 
validation of a 3rd party tool by PSCR for use by industry is an area 
where the DHS (or PSCR, NIST/OLES, NTIA/ITS) could make a significant 
contribution toward reducing the burden on the small P25 industry 
consistent with their intent indicated in the statements of Mr. Orr 
during the hearing.\9\ A rough order of magnitude (ROM) estimate for 
Harris to develop and validate an automated ISSI test tool is $1.4 MUSD 
with a recurring expense of about 10% to maintain the tool. This amount 
represents a substantial portion of the R&D cost to develop the ISSI 
product itself. In the resource constrained R&D environment, 
development of an automated ISSI test tool by Harris would require 
diverting critical software engineering resources from ISSI product 
development to test tool development. The result would affect Harris' 
ability to compete in the marketplace through reduced ISSI product 
innovation and longer time to market for ISSI features in order to 
implement formal ISSI conformance tests. Such an investment and 
diversion of resources would not be justified or acceptable for normal 
business considerations and practices and especially for the formal 
testing that Harris believes provides little added value or compliance 
assurance beyond that already provided by the normal in-formal 
conformance testing as part of product development.
---------------------------------------------------------------------------
    \8\ Per Mr. Orr's written testimony for this hearing, ``The PSCR 
program serves as the technical lead for several Administration 
initiatives focusing on public safety communications, most importantly 
the Department of Homeland Security's (DHS) Office for Interoperability 
and Compatibility (OIC) within the Science and Technology 
Directorate.'' For more information on PSCR see the website: http://
vvww.pscr.gov.
    \9\ Mr. Orr's statement starting at line 1201 of the 5.27 hearing 
transcript: ``We realize that any additional testing that is placed on 
industry is going to cost money and so we have done everything within 
this program to ensure that we are minimizing the burden on industry, 
minimizing the financial requirements that are needed to put the 
program in place''. . . .

---------------------------------------------------------------------------
b. Operational Practicality and Quality System

    Harris understands the need for the rigor and careful formal 
control in the P25 CAP as defined in the Guide and NIST Handbook 153 
for such testing to be recognized by DHS/NIST. While not impossible, 
the rigor and careful formal control is more challenging to implement 
for the case where the product development environment is integrated 
with the separate P25 CAP lab environment than when the P25 CAP lab is 
maintained as a separate and self-sustaining environment.
    For Harris, the Product Development environment, while controlled, 
is very dynamic, flexible, fast-paced, and less formal with hardware 
and especially software changes rapidly implemented, tested, and 
revised leading to a final hardware and software configuration. The 
final hardware and software configuration is then released to the 
System Verification & Test (SVT) environment within the Product 
Integrity organization for more rigorous, controlled, and formal 
product and system verification testing. There is interaction and 
iteration between the SVT and product development groups for items 
found in SVT testing that could be problems or unexplained behavior 
leading to a final version of hardware and software that is releasable 
for products and systems. The SVT testing often extends over a period 
of months and usually includes Beta testing at one or more customer 
installations. Harris has formal product releases indicated as PR-AB-C 
and system releases indicated as SR-DE-F.
    Establishing a Quality Management System for integrating elements 
of the product development and SVT environments into the Harris P25 CAP 
lab environment can be done with suitable effort, care, and due 
diligence. The challenge Harris sees is the operational practicality of 
the integrated environments. The concern is the coordination and 
interruption of the flow and interaction of the normal activities in 
the product development and SVT environments to accomplish the P25 CAP 
conformance testing. Repeated interruptions for P25 CAP conformance 
testing for the various near-final versions of software before final 
release could have an undesired impact on the product and system 
software release schedule. While still under evaluation, Harris, at 
this point, would likely favor performing the P25 CAP conformance 
testing after the product has been developed and ready for release in 
the separate P25 CAP lab environment. An earlier concern about CAP 
testing of the final product because some P25 CAP conformance tests are 
invasive and require special software test code that would undesirably 
reside in the final product has been alleviated. The recent practice in 
the TIA-P25 and NIST/OLES groups has been to not include any invasive 
tests in the P25 CAP.

c. Harris Summary and Business Perspective for P25 CAP ISSI Conformance 
Testing

    Harris supports a solid, practical DHS P25 Compliance Assessment 
Program (P25 CAP) and associated testing for the benefit of our 
customers, other public safety agencies/users, and manufacturers. 
Harris agrees with Mr. Orr's statement that there is a provision in the 
P25 Compliance Assessment Laboratory guidelines that would allow 
``recognized'' conformance testing during product development if done 
with the ``right'' equipment and quality system in place. The Guide 
\10\ ``discusses an approach of integrating recognized P25 CAP 
compliance test activities with the Product Development organization 
design validation testing activities.'' While Harris continues to 
evaluate the integrated approach, Harris is concerned about the 
operational practicality of integrating the product development 
environment into the P25 Compliance Assessment Lab environment in 
compliance with the Guide and NIST Handbook 153 and the business 
investment impact to do so. The practicality and investment challenges 
include establishing the ``right'' test equipment (including software 
test tools) and the quality system per NIST Handbook 153. Regarding the 
``right'' test equipment, for conformance testing for interfaces like 
the Common Air Interface (CAI) where commercial off-the-shelf test 
equipment like protocol analyzers and RF test equipment exists that can 
be readily validated per NIST Handbook 153, establishing the ``right'' 
test equipment is not a challenge. However, for conformance testing for 
interfaces like the Intra-RF SubSystem Interface (ISSI) where the ISSI 
product is primarily software and where commercial off-the-shelf 
software test tools that can be readily validated per NIST Handbook 153 
do not exist, establishing the ``right'' test equipment is a 
significant challenge. Establishing a Quality Management System for 
integrating elements of the product development and SVT environments 
into the Harris P25 CAP lab environment can be done with suitable 
effort, care, and due diligence. The challenge Harris sees is the 
operational practicality of the integrated environments. The concern is 
the coordination and interruption of the flow and interaction of the 
normal activities in the product development and SVT environments to 
accomplish the P25 CAP conformance testing. Harris, at this point, 
would likely favor performing the P25 CAP conformance testing after the 
product has been developed and ready for release in the separate P25 
CAP lab environment.
---------------------------------------------------------------------------
    \10\ P25 CAP Laboratory Testing: Guide for Integration With Product 
Development Organizations, issued by P25 CAP, June 26, 2009, file 
Integration of P25 lab testing with product development r10.pdf.
---------------------------------------------------------------------------
    In terms of a Business perspective to establish and maintain a 
recognized P25 CAP ISSI conformance testing laboratory, Harris has 
conducted a ROM scoping analysis of the total ISSI market and the 
investment to establish and maintain a recognized P25 CAP ISSI 
conformance testing laboratory. The ROM scope investment to establish 
and maintain a recognized P25 CAP ISSI conformance testing laboratory 
ranges from a substantial portion of the total estimated annual ISSI 
market to several times the total estimated annual ISSI market. The 
range corresponds to the situations of establishing and maintaining a 
recognized laboratory integrated with the product development 
environment and establishing and maintaining a recognized laboratory 
separate from the product development environment. Such an investment 
for either situation would not be justified or acceptable for normal 
business considerations and practices and especially for testing that 
Harris believes provides little added value or assurance beyond that 
already provided by the normal conformance testing as part of product 
development. Harris believes that a validated 3rd party automated ISSI 
conformance software test tool as a minimum and likely a 3rd party 
recognized P25 CAP lab for ISSI conformance testing are critical for 
the practical implementation of formal ISSI conformance testing per the 
P25 ISSI CAB in effect and cited earlier. Development and validation of 
an automated ISSI conformance test tool by the Public Safety 
Communications Research (PSCR) \11\ program (or another NIST/OLES or 
NTIA/ITS) group or validation of a 3rd party tool by PSCR for use by 
industry is an area where the DHS (or PSCR, NIST/OLES, NTIA/ITS) could 
make a significant contribution toward reducing the burden on the small 
P25 industry consistent with their intent indicated in the statements 
of Mr. Orr during the hearing.\12\
---------------------------------------------------------------------------
    \11\ Per Mr. Orr's written testimony for this hearing, ``The PSCR 
program serves as the technical lead for several Administration 
initiatives focusing on public safety communications, most importantly 
the Department of Homeland Security's (DHS) Office for Interoperability 
and Compatibility (OIC) within the Science and Technology 
Directorate.'' For more information on PSCR see the website: http://
vvww.pscr.gov.
    \12\ Mr. Orr's statement starting at line 1201 of the 5.27 hearing 
transcript: ``We realize that any additional testing that is placed on 
industry is going to cost money and so we have done everything within 
this program to ensure that we are minimizing the burden on industry, 
minimizing the financial requirements that are needed to put the 
program in place''. . . .

Additional Comments

    Harris offers the following additional comments to clarify certain 
areas brought out during the course of the hearing:

P25 Equipment Interoperability:
    It was implied that not all P25 certified (vendor self-
certification) equipment can interoperate. An example was given where 
you have three P25 radios from different systems and only two could 
talk to each other. Harris believes that this is not the norm and that 
the status of interoperability among P25 equipment from various vendors 
is very good and we testified to that fact. Land Mobile Radio systems 
are complex and one could say that each system deployed is custom to 
that user. This presents challenges in how a particular system is 
configured. We have testified that many times inconsistencies are a 
result of how a radio system is configured versus whether or not the 
equipment meets the standard. We should also point out that currently 
P25 systems of one frequency can not interoperate with P25 systems of a 
different frequency regardless of whether they pass testing. This is 
being addressed by the in-place ISSI standard.

Completion Status of P25 Standards:
    In the context of the hearing subject, ``Interoperability in Public 
Safety Communications Equipment,'' Harris believes it is important to 
state the completion status in terms of the interfaces that are 
critical and fundamental to system and equipment interoperability. 
Harris agrees with Dr. Boyd's DHS S&T testimony that the CAI 
(conventional and trunked) and the ISSI are the interfaces critical and 
fundamental to system and equipment interoperability. Per Mr. Orr's 
PSCS testimony, ``To date, only the conventional portion of the CAI and 
the Inter-RF-Subsystem Interface have a completed suite of documents as 
defined above. The more complex trunked CAI continues to lack 
conformance test documents (crucial for uniform implementation) 
although trunked CAI products have been sold for almost a decade.'' 
From this view and using the five standards documents per interface for 
completion per the Mr. Orr written testimony, the P25 standards 
completion status for the interfaces critical and fundamental to system 
and equipment interoperability is pretty solid:

        <bullet>  Conventional CAI--5 of 5 documents complete--100% 
        Complete

        <bullet>  Trunked CAI--4 of 5 documents complete with 
        conformance to be completed--80 % Complete

        <bullet>  ISSI--5 of 5 documents complete--100% Complete.

    For this analysis, 14 of 15 standards documents are complete; i.e., 
93 % Complete.
    In addition, for the trunked CAI interoperability as reported in 
the Harris written testimony, multiple radio products and 
infrastructure radio products have demonstrated a high functional level 
of interoperability through the formal CAI interoperability testing as 
part of the P25 Compliance Assessment Program (CAP) over the last year. 
As of May 2010, twenty vendor radio products (or radio model classes) 
from four vendors (EF Johnson, Harris, Motorola, and Tait) have 
approved Suppliers Declaration of Compliance (SDoCs) and Summary Test 
Reports (STRs) posted to the official RKB website for information and 
review by public safety agencies and practitioners. To have passed the 
trunked voice interoperability standard for these tests, each P25 radio 
needed to pass 20 tests in the standard on at least three different 
manufacturer's system infrastructure. It is for these reasons of 
standards completion status above and the cited trunked 
interoperability testing results that Harris stated in its testimony 
that the P25 product standards, the testing standards, and the product 
features are in place or soon will be in place to enable a solid level 
of P25 trunked and conventional systems interoperability.

Standards pace is at full industry support capacity:
    While some not involved in the standards development process might 
comment that standards development takes a long time, the TIA process, 
like other Standards Development Organizations, is a consensus-based 
process by design. The standards are developed by top engineers from 
industry who have the knowledge and perspective to assure successful 
product implementation to the standard. Getting to consensus and 
developing the requisite detail of the standard takes time, but the 
resultant standard product is technically solid and long lasting. 
Harris believes that since 2005, the standards pace is at full 
industry/user support capacity. As a rough estimate, there are less 
than 25 top engineers in this industry with the knowledge, perspective, 
and capability to develop credible Project 25 standards. Since 2005, 
there have been approximately 23 week-long, face-to-face TIA & P25 
meetings with over 40 working attendees per meeting amounting to 
37,000 person hours or over 23 person years. In addition, there have 
been over 10 hours of subcommittee or task group conference calls per 
week over this period with over 10 people participating amounting to 
28000 person hours or over 17 person years. In addition, the 
preparation time of technical document contributions is done outside of 
the conference call and meeting time. Since 2005 over 13,000 
contributions toward the TIA-P25 suite of standards have been submitted 
for review, critique, and edit. Without researching the TIA records for 
years 2005-2007, over 75 documents have been formally balloted as a 
standards documents and over 60 documents have been published as TIA-
P25 standards in the 2 1/2 years since 2008 through the present time in 
2010. Hence, the Harris view that the standards pace is at full 
industry/user support capacity.

On-site Compliance Assessment Labs:
    There was testimony about voluntary testing programs for P25 
systems. Both Harris and Motorola testified to the fact that they both 
have established Compliance Assessment Laboratories and have hosted 
multiple vendors. Harris testified that it has invested significant 
resources in support of the P25 standards process. We should highlight 
that in addition to time, personnel and the costs associated with these 
standards activities, Harris spent close to $2M to establish an in-
house test capability including capital and operating/development 
costs. It is in the vendor's best interest to deploy compliant 
equipment. As Chief Johnson testified, most systems are procured 
through a process that ensures that all equipment is operational before 
the system is approved for first responder use.
    Established testing paired with the strict requirements of the 
procurement process ensures positive results.
    As noted during Harris' oral testimony, the P25 industry is small 
by comparison to the commercial industries of cellular, WiFi, and 
Bluetooth mentioned by Mr. Orr in his written and oral testimony. To 
illustrate the total 2009 North American Land Mobile Radio market is 
estimated to support 12 million users of which 4 million represent 
public safety users. The P25 industry is estimated to be about half of 
the total with about 1.5 million users. In contrast, the total 2009 
U.S. cellular market is estimated to support about 270 million users/
subscribers. The P25 market is about 0.5% of the commercial users/
subscribers. Given the scale difference of the P25 industry with a 
commercial industry like cellular, Harris believes that comparisons and 
expectations for the P25 industry in terms of the rate of standards 
development and industry-led compliance assessment are not relevant.

Beyond P25:
    Complete ubiquitous interoperability among existing narrowband LMR 
systems will not be achieved through deployment of P25 equipment alone. 
As Dr. Boyd testified, public safety has an installed base of radio 
systems equal to approximately $100 Billion. These systems are of 
varying ages, operating frequencies, mode, etc. . . . Other than cost, 
there are many considerations when procuring a radio system; some of 
which are size, use, geography, spectrum availability, future proof, 
etc. . . . There are smaller, rural entities today that do not have the 
funds to upgrade to an expensive digital system yet may be the central 
site of a manmade or natural disaster and will need to interoperate 
with other first and second responders during an incident. To address 
the unique needs of public safety entities and to achieve varying 
levels of interoperability, vendors provide a wide array of products 
from P25 radios and infrastructure to Internet Protocol (IP) networks 
that connect disparate systems through standardized network 
architecture.

                   Answers to Post-Hearing Questions
Responses by Mr. John Muench, Director of Business Development, 
        Motorola Inc.

Questions submitted by Chairman David Wu


Q1.  One issue raised at the hearing was the difference between 
performing conformance testing while the product is in development and 
doing so after the product has been developed. Can you please comment 
on Mr. Orr's statement that testing during development meets 
conformance testing requires if done with the ``right'' equipment and 
with a quality system in place? What is involved in developing the 
testing equipment and quality system?

Q1a.  Can you please comment on Mr. Orr's statement that testing during 
development meets conformance testing requirements if done with the 
``right'' equipment and with a quality system in place?

A1a. Any testing within the Department of Homeland Security (DHS) 
Compliance Assessment Program (CAP), be it Performance, Conformance or 
Interoperability testing, is required to be done in a lab that has been 
formally assessed by National Institute of Standards and Technology 
(NIST) and as a result, is formally recognized by the DHS CAP for 
specific types of testing, such as Conformance testing. The formal 
assessment of the lab includes providing the assessment team with Lab 
Management and Lab Quality manuals. These describe the management and 
quality practices of the lab. According to the NIST Handbook on CAP Lab 
Assessment, the assessment does not concern itself with the maturity of 
or adequacy of these practices. Instead, the assessment only ensures 
that evidence exists that these practices are documented by the lab and 
followed by the lab.
    Mr. Orr's statement is based on an observation that conformance 
testing may occur in a recognized lab that is dedicated to DHS CAP 
testing or that conformance testing may occur in a manufacturer's 
``development'' lab that is not dedicated to DHS CAP testing. Note that 
some types of conformance tests are intrusive to the physical product 
and so, it may be more practical to execute such tests in a product 
development lab that essentially ``opens up'' the equipment under test.
    Mr. Orr's statement about ``a quality system in place'' means that 
if conformance testing is to be done in a development lab that is not 
dedicated to DHS CAP testing, the management and quality practices of 
that lab must meet the expectations of the NIST Handbook on CAP Lab 
Assessment in order for the development lab's test results to be 
accepted by the DHS CAP.
    The nature of conformance testing is validation that the 
standardized messages are sent under specified conditions and that when 
standardized messages are received, the resulting reaction to the 
standard message content is as specified. Conformance tests require 
validation of specified stimulus conditions, specified message content 
and specified reaction to the message content. This requires test 
equipment that can capture messages exchanged, and display the message 
sequence and content.
    The NIST Handbook for Lab Assessment identifies four categories of 
test equipment that may be used by a recognized lab for DHS CAP 
testing. For each category, the Handbook also identifies certain 
requirements for each category of equipment. During assessment, the lab 
is required to provide evidence supporting the categorization of the 
equipment to be used and to provide evidence that the equipment is 
meeting the requirements specific to that categorization.
    Mr. Orr's statement about ``done with the ``right'' equipment'' 
means that the equipment used to produce the test results has been 
assessed and approved during lab assessment.

Q1b.  What is involved in developing the testing equipment and quality 
system?

A1b. The quality system is a document describing the policies and 
practices of the lab intended to produce quality results. This 
documentation also typically describes how these policies and practices 
will be monitored and enforced. This documentation is created and 
maintained by the management of the lab and provided to the assessors 
during NIST lab assessment.
    As previously noted, the NIST Handbook on Lab Assessment identifies 
4 categories of test equipment:

        <bullet>  Commercial Off the Shelf (COTS) test tools--Test 
        equipment is not modified in any way after purchase and prior 
        to use.

        <bullet>  Modified Off the Shelf (MOTS) test tools--Test 
        equipment is modified to some extend after purchase and prior 
        to use.

        <bullet>  Custom test tools--Test equipment is not commercially 
        available and is custom made for specific use.

        <bullet>  Open Source/Freeware test tools--Test equipment is 
        available to the general public under an open source license 
        agreement and is not modified prior to use.

    Only test equipment falling into the ``MOTS'' or ``Custom'' 
categories requires any sort of development. In these cases, the 
developer determines the requirements for the test equipment imposed by 
the test methodology and using a documented design and development 
process, builds or modifies the equipment capabilities to meet the 
requirements of the test methodology. Once the custom or modified 
capabilities have been implemented, per the documented design and 
development processes, these capabilities are validated the against the 
design requirements prior to actual use.

Q2.  Acknowledging that P25 is a work in progress, at the end of his 
testimony, Dr. Hofmeister suggested that defining the standard 
functions included with a ``package'' may offer public safety a clearer 
picture of the functionality of the system they are buying. What are 
your thoughts on this recommendation, or other ways of better 
communicating the status of P25 to purchasers?

A2. The reality of the P25 market is for P25 compliant products to be 
designed and manufactured for flexibility in order to meet the diverse 
mission needs of the users. Standardized packaging of P25 features is 
something that can be done, but in my opinion will not ultimately 
satisfy the end user requirement for better information on the status 
of P25.
    Public Safety Practioners commonly ask for Project 25 status and 
feature information as outlined by these four questions:

        1.  What features are in P25?

        2.  Where can a definition for these features be found?

        3.  What features have been implemented by a manufacturer?

        4.  What features have been tested for multi-manufacturer 
        interoperability?

    The answers to four questions help them determine, what set of P25 
features meet their specific communications needs, which manufacturers 
provide the desired set of P25 features that meet their specific needs 
and whether the desired P25 feature set has been successfully tested 
for interoperability with the desired manufacturers.
    The answers to the first two questions can be found in the P25 
Statement of Requirements document published by the P25 User Needs 
Subcommittee and in TIA-102 Standard documents. The Public Safety 
Practioners develop and publish the ``P25 Statement of Requirements'' 
themselves. Public Safety Practioners receive free access to the 
published TIA-102 Standard documents through a special TIA web access. 
Normally, the TIA Standard documents have to be purchased.
    Each manufacturer markets the information as to what features and 
functions their company has implemented in their product lines. Among 
the supported features and functions are those claimed to be compliant 
to the Project 25 standard. If this information is not readily 
available, purchasers can get insight as to which P25 features have 
been implemented by a manufacturer by issuing either a Request for 
Information or a Request For Proposal.
    Information on which features and functionality have been tested 
for interoperability and between which manufacturers, has not been 
publicly available in the past. The driving force for formal 
interoperability testing is the DHS grant monies. The grant guidance 
outlines a requirement for manufacturers to produce a P25 Suppliers 
Declaration of Compliance (SDoC) and Summary Test Report (STR). These 
documents include the results of formal interoperability testing. 
Purchasers can obtain information describing what P25 functionality has 
been tested by which manufacturers by requesting SDoC/STRs from the 
manufacturers or obtaining them from the Responder Knowledge Base (RKB) 
website.
    The P25 Standard will never be comparable to the 3G/4G or WIMAX 
standards when it comes to public recognition or when a user is looking 
for information. The P25 manufacturers are not selling equipment to 
multiple global cellular service companies-each with massive marketing 
departments, operating worldwide cellular networks. P25 manufacturers 
are not shipping hundreds of millions of hand held radios every year.
    The P25 manufacturers sell products to a unique marketplace that 
values products based on the Project 25 standard and implemented to 
provide guaranteed performance, long-term durability, security and 
features necessary for mission critical communications. Project 25 
actively involves and uses the input of Public Safety Practioners 
(Police, Fire, EMS personnel, as well as State, Local and Federal 
agencies) when determining the needs and the scope of the P25 standard. 
Public Safety Practioners are members of P25 committees, they can 
submit comments on draft P25 standard documents and they can attend 
meetings in person and on conference calls. They are free to comment on 
the priorities of the P25 standard. Public Safety Practioners have 
always been involved with the development of the P25 Standard. Although 
the P25 market is smaller, the involvement of the user community in the 
standard development enables an informed user community without the 
massive marketing departments like the cellular marketplace.
    There have been discussions within P25 about structuring specific 
features into packages to make ordering easier with the assumption that 
this would make it easier for the purchaser to understand what he is 
purchasing. One of the challenges of offering prepackaged P25 features 
for `mission critical' communications equipment and systems is that the 
size, mission and communication needs of public safety agencies vary 
dramatically. It is this variation that limits the value and utility of 
standardized feature packages.
    The size of a public safety agency can vary from 6 officers to over 
35,000 officers; who serve populations from a few thousand to a few 
million. This size variation impacts the features needed and how the 
system operates. The different communication needs of the fire fighter 
all geared-up with breathing masks at the fireground, the metropolitan 
patrol police officer walking a beat, the state trooper patrolling the 
highways at high and slow speeds, Federal law enforcement patrolling 
remote borders and the military communicating at forts and bases 
require different communication features and operations. The frequency 
bands in which these agencies operate are different, with different FCC 
and NTIA licensing requirements that directly impact the design and 
operation of the equipment and system. These public safety practioners 
use some of the same P25 services and features but may also require 
services and features with special behaviors, or various combinations 
of features, services and accessories that make their operations 
unique. For example, Federal law enforcement using P25 equipment have 
wireless security requirements that are not imposed on state and local 
users.
    Motorola does not envision a future where there is just one model 
of a P25 radio, nor should there be a P25 radio limited to only the P25 
features fully-defined by published P25 standards. Today, there are 
many radio models and configurations that are P25-complaint and also 
support other standards or proprietary operations. Manufacturers offer 
product tiers at different price points and are free to configure 
feature sets to meet particular marketplaces. A manufacturer offers 
feature variations that are marketed to meet the individual business 
opportunities for that manufacturer. Customers continue to request 
features for their equipment that are not part of P25.
    It has been Motorola's experience that purchasers of P25 equipment 
are most concerned with the status of multi-manufacturer 
interoperability. Aside from having a defined TIA Standard, P25 
purchasers want to know what features, with what P25 portable and 
mobile radios, are interchangeable with what P25 fixed radio systems. 
The only action that resolves this concern is documented 
interoperability testing. The faster more features are added to the P25 
CAP interoperability test suites, the faster users will know the 
interoperability status of products that can meet their feature needs. 
The P25 CAP could be expanded to cover more features faster, if the 
expansion first focused on interoperability testing of functionally-
defined features with follow-on testing expansion to include 
conformance testing of these same features. The current P25 CAP testing 
approach is more vertical in nature. The current approach defines 
conformance and interoperability testing feature by feature. This 
provides a complete testing profile by feature but slows the initial 
interoperability testing for all features. Conformance testing is part 
of P25, but it is not a substitute for interoperability testing.
    Also, the current `rule of 3' for posting interoperability testing 
maybe keeping some vendors from posting interoperability performance 
status on the RKB. The 'rule of three' requires that the P25 equipment 
from one vendor be interoperability tested with three P25 equipment 
vendors. It is difficult, and can take many calendar months, for 
multiple manufacturers to schedule interoperability testing considering 
the multiple product development schedules of P25 manufacturers. 
Motorola would suggest that the `rule of 3' for posting 
interoperability testing results be relaxed, allowing posting results 
with just one other manufacturer, but maintaining the `rule of 3' for 
equipment to be eligible for DHS grant monies.

                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


         Statement for the Record from Skyterra Communications

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



PROGRESS ON P25: FURTHERING INTEROPERABILITY AND COMPETITION FOR PUBLIC 
                         SAFETY RADIO EQUIPMENT

                              ----------                              


                      THURSDAY, SEPTEMBER 23, 2010

                  House of Representatives,
         Subcommittee on Technology and Innovation,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 2:00 p.m., in 
Room 2318 of the Rayburn House Office Building, Hon. David Wu 
[Chairman of the Subcommittee] presiding.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

               SUBCOMMITTEE ON TECHNOLOGY AND INNOVATION

                     U.S. HOUSE OF REPRESENTATIVES

                      Progress on P25: Furthering

                    Interoperability and Competition

                   for Public Safety Radio Equipment

                      thursday, september 23, 2010
                          2:00 p.m.-4:00 p.m.
                   2318 rayburn house office building

I. Purpose

    The Project 25 standard for digital land mobile radios is intended 
to further seamless communications interoperability among America's 
first responders, enable competition among radio equipment 
manufacturers, and provide for the efficient use of limited spectrum 
resources. In May of 2010, the Science and Technology Committee's 
Subcommittee on Technology and Innovation held a hearing to discuss the 
status of the Project 25 standard and the remaining challenges. This 
hearing will discuss these challenges further and explore how the 
status of Project 25 affects an array of stakeholders.

II. Witnesses

        <bullet>  Mr. Tom Sorley, Deputy Director Radio Communication 
        Services, City of Houston Information Technology Department

        <bullet>  Ms. Ellen O'Hara, President, Zetron

        <bullet>  Mr. Marvin Ingram, Senior Director, ARINC, Public 
        Safety Communications

        <bullet>  Mr. Russ Sveda, Manager of the Radio Technical 
        Service Center, Department of the Interior

III. Brief Overview

    In 1989, the public safety community joined together to address the 
lack of interoperability between digital radios supplied by different 
vendors through the development of the Project 25--or P25--technical 
standard for digital land mobile radios (LMRs). For over a decade, the 
P25 process made minimal progress in completing the standards. However, 
major disaster events (including the September 11th attacks and 
Hurricane Katrina) renewed motivation to drive the process forward and 
eliminate the technical barriers that prevent public safety officials 
from different agencies and jurisdictions from communicating during an 
emergency response.
    In a May 2010 hearing, the Subcommittee heard testimony on this 
progress, as well as on what some viewed as remaining challenges. For 
example, witnesses disagreed on the status of the P25 standards. 
Whereas witnesses representing two federal agencies claimed that many 
of the technical documents within the suite of P25 standards were not 
yet completed, those representing equipment manufacturers argued the 
standards were ``functionally complete,'' enabling engineers to build 
interoperable equipment. Witnesses also debated the degree and rigor of 
testing that should be required to verify manufacturers' claims that 
radio systems are P25-complaint.
    This hearing will continue the Technology and Innovation 
Subcommittee's examination of the P25 standard, and explore how the 
status of the standards documents and the testing requirements impact 
P25 stakeholders. This hearing will also review the role of the P25 
standard in ensuring radio systems are interoperable and that there is 
competition among vendors.

IV. Background

Project 25
    The lack of interoperability--often defined as the ability of 
emergency responders to communicate with whom they need to, when they 
need to, and as authorized--has long challenged America's public safety 
community. Interoperability problems between responding agencies were 
documented in the response efforts to the 1995 Oklahoma City bombing, 
the September 11th attacks, and Hurricane Katrina, making response 
efforts more chaotic, less efficient, and even more dangerous. In the 
World Trade Center attacks, firefighters did not receive the New York 
Police Department message to evacuate the building immediately, 
contributing to the deaths of those firefighters. In the response to 
Hurricane Katrina, officials in helicopters could not communicate with 
responders in boats, slowing rescue efforts. First responders in these 
cases, and other large-scale events, ended up employing message 
runners, which limited the flow of information to incident 
commanders.\1\
---------------------------------------------------------------------------
    \1\ Tristan Weir, Federal Policy Toward Emergency Responder 
Interoperability: A Path Forward. Thesis submitted for a Masters of 
Science in Technology Policy from the Massachusetts Institute of 
Technology, 2006.
---------------------------------------------------------------------------
    While planning, governance, and training are essential components 
of interoperability, standards-based technology is generally accepted 
as critical to achieving seamless interoperability either in an 
emergency or during day-to-day operation.\2\ The emergence of digital 
technology in the late 1980s highlighted the importance of standards in 
ensuring interoperability. These digital radio systems used proprietary 
protocols and technology which, unlike their analog forbearers, were 
incompatible with the proprietary technologies of other vendors, even 
when those radios were deployed within the same spectrum band.\3\
---------------------------------------------------------------------------
    \2\ Department of Homeland Security, SAFECOM Program's 
Interoperability Continuum tool, available at: http://
www.safecomprogram.gov/NR/rdonlyres/54F0C2DE-FA70-48DD-A56E-
3A72A8F35066/0/
Interoperability<INF>-</INF>Continuum<INF>-</INF>Brochure<INF>-</INF>2.p
df.
    \3\ COPS Interoperable Communications Technology Program, May 2007 
Issue Brief, Project 25: The Quest for Interoperable Radios, by Dan 
Hawkins, available at: http://www.dps.mo.gov/homelandsecurity/
documents/SEARCHP25Primer.pdf.
---------------------------------------------------------------------------
    In 1989, to escape proprietary systems and promote 
interoperability, the Association of Public-Safety Communications 
Officials (APCO) and the National Association of State 
Telecommunications Directors (NASTD), along with several federal 
agencies, began work on the P25 suite of standards for digital LMR 
systems. The originators of P25 sought to develop a user-defined and 
user-driven standard that would allow for interoperability, multi-
vendor procurement, and the transition from legacy analog equipment to 
digital equipment, as well as promote greater spectrum-use 
efficiency.\4\
---------------------------------------------------------------------------
    \4\ Id.
---------------------------------------------------------------------------
    The APCO process eventually led to a partnership between the public 
safety community and the Telecommunications Industry Association (TIA) 
\5\ to collaborate on standards. Through a process agreed to by TIA and 
the participating representatives from the public safety community, 
public safety users define the requirements for the standard and the 
standards documents are then produced by engineers from TIA and digital 
radio manufacturers who volunteer their expertise.
---------------------------------------------------------------------------
    \5\ The Telecommunications Industry Association is an ANSI-
accredited standards development organization.
---------------------------------------------------------------------------
    Representatives from several federal agencies were among the 
original participants in P25. However, the slow rate of progress toward 
greater interoperability spurred Congress to direct the Department of 
Homeland Security to take a more active role in promoting 
interoperability and hastening the development of the P25 standards. 
The 2004 Intelligence Reform and Terrorism Prevention Act (P.L. 108-
458) directed the Secretary of Homeland Security to establish a program 
to improve the state of interoperable communications capabilities for 
first responders. Among other requirements and activities, the 
legislation directed the Department of Homeland Security to work--in 
consultation with NIST, the private sector, and others--to ``accelerate 
the development of national voluntary consensus standards for public 
safety interoperable communications.'' Since the passage of the Act, 
NIST, through the Public Safety Communication Research Program (a joint 
program between NIST and the National Telecommunications and 
Information Association), has taken leadership roles in the P25 
standards development process, particularly in areas of testing and 
certification.
    A 2007 Government Accountability Report (GAO) report \6\ noted 
that, despite over $2 billion of federal spending to advance 
interoperability, communities across the country were still far from 
achieving that goal. GAO identified a number of barriers to 
interoperability, but also cited the slow rate of P25 standards 
development as among the factors hindering faster adoption of 
interoperable public safety communications systems.
---------------------------------------------------------------------------
    \6\ GAO Report 07-301, April 2007. First Responders--Much Work 
Remains to Improve Communications Interoperability.
---------------------------------------------------------------------------
    GAO noted that while the P25 standards developers took four years 
(from 1989 to 1993) to develop the Common Air Interface (defined 
below), they did not complete any additional standards between 1993 and 
2005. GAO found that P25 participants had made ``significant progress'' 
on the standards for interoperability after 2005, but that many 
standards were still incomplete. Further, GAO reported that tests 
conducted between 2003 and 2006 showed that inconsistent 
interpretations of the standards caused P25 radios to fail aspects of 
interoperability tests.
    P25 encompasses a suite of standards, each of which defines the 
technical requirements necessary for components of the radio system 
infrastructure to interface--or interoperate--with one another. Public 
safety land mobile radio (LMR) systems include the portable handheld 
and car-mounted radios used by emergency responders, as well as fixed 
infrastructure such as towers, base stations, and console. Those P25 
standards identified as most critical to interoperability are listed 
below: \7\
---------------------------------------------------------------------------
    \7\ COPS Interoperable Communications Technology Program, May 2007 
Issue Brief, Project 25: The Quest for Interoperable Radios, by Dan 
Hawkins, available at: http://www.dps.mo.gov/homelandsecurity/
documents/SEARCHP25Primer.pdf.

        <bullet>  The Common-Air Interface (CAI), which defines the 
        communication protocols between radio transmitters and 
        receivers. This standard is intended to ensure that a portable 
        radio from one manufacturer can communicate with a portable 
---------------------------------------------------------------------------
        radio from a different manufacturer.

        <bullet>  The Console Subsystem Interface (CSI), which defines 
        how radio frequency components of the system and console (such 
        as the equipment used by dispatchers) connect with one another.

        <bullet>  The Fixed Station Interface (FSI), which defines how 
        components of the radio system that are fixed in place (such as 
        base stations) connect with other components of the system.

        <bullet>  The Inter-RF subsystem Interface (ISSI), which 
        defines the connection between different radio system networks.

Compliance Assessment Program (CAP)
    Standards are technical documents, but engineers may vary in their 
interpretation of the protocols included in the documents. Ultimately, 
this variability in interpretation can impact the functionality of 
equipment. For this reason, in the case of many telecommunications 
standards--such as Wi-Fi or BlueTooth, the relevant industry 
stakeholders develop testing and certification processes to ensure 
products meet the specifications of the standards and that the standard 
is being interpreted consistently among vendors.
    For many years, P25 lacked a formal testing process to validate 
that manufacturers had correctly and uniformly implemented the 
standards in their equipment and were not misappropriating the P25 
label. In 2005, in response to reports of failed interoperability tests 
of P25-labeled equipment (between different manufacturers, and even 
between different models from the same manufacturer), Congress directed 
the Department of Homeland Security (DHS), working with the Department 
of Justice (DOJ) and the National Institute of Standards and Technology 
(NIST), to develop a P25 Compliance Assessment Program (CAP).\8\ The 
DHS CAP certifies laboratories and specifies which tests must be 
conducted to show compliance with the standard. The DHS CAP is a 
voluntary program, but any P25 digital radio systems purchased with DHS 
grants must meet the requirements of the program.
---------------------------------------------------------------------------
    \8\ Directed in the FY2006 Department of Homeland Security 
Appropriations Act (H. Rept. 109-241)
---------------------------------------------------------------------------
    The P25 CAP sought to specify testing requirements for performance, 
interoperability, and conformance.\9\ Conformity assessment tests 
whether manufacturers have correctly and consistently interpreted and 
implemented the standard. It is generally more rigorous than 
interoperability and performance testing and it is arguably the best 
mechanism for ensuring that all standardized functions will 
interoperate across all manufacturers. Conformance testing is also 
considered particularly important in ensuring backwards compatibility 
of new technology, which must connect and interoperate with legacy 
systems, some as many as 20 years old or older.
---------------------------------------------------------------------------
    \9\ Charter for the P25 Compliance Assessment Program, April 2008, 
available at: http://www.safecomprogram.gov/NR/rdonlyres/D295A545-44A4-
4226-AAF7-56A33684908E/0/
Project25ComplianceAssessmentProgramCharter.pdf

May 2010 Hearing
    On May 27, 2010, the Subcommittee on Technology and Innovation of 
the House Committee on Science and Technology held a hearing on the 
status of interoperability for public safety communications equipment. 
The Subcommittee heard testimony from the public safety community, 
federal agencies, and major manufacturers of radio equipment.\10\ The 
hearing addressed the status of the P25 standards and the degree of 
testing needed to ensure that P25 products conform to the applicable 
standards.
---------------------------------------------------------------------------
    \10\ Witnesses at May 27th Hearing: Dr. David Boyd, Director of the 
Command, Control, and Interoperability Division of the DHS Science and 
Technology Directorate; Mr. Dereck Orr, Program Manager for public 
Safety Communication Systems, at NIST; Dr. Ernest Hofmeister, Senior 
Scientist at the Harris Corporation; Mr. John Muench, Director of 
Business Development for Motorola, Inc.; and Chief Jeffery Johnson, 
President of the International Association of Fire Chiefs, and Chief of 
Tualitin Valley Fire and Rescue, Aloha, Oregon.
---------------------------------------------------------------------------
    The witnesses made different arguments on the scope of P25 and the 
impact the status of the process had on digital radio equipment being 
fielded today. Witnesses from DHS and NIST identified eight interfaces 
(i.e., standards) encompassed by P25, and according to NIST's 
testimony, only one and a half of the eight interfaces were complete. 
The witness testified that:

         To date, only the conventional portion of the CAI and the 
        Inter-RF-Subsystem Interface have a completed suite of 
        documents [\11\] . . . The more complex trunked [\12\] CAI 
        continues to lack conformance test documents . . . although 
        trunked CAI products have been sold for almost a decade. The 
        remainder of the six interfaces is in various stages of 
        document completion.
---------------------------------------------------------------------------
    \11\ From testimony provided by Dereck Orr: for P25, each complete 
interface, or standard, includes five documents--a protocol document, 
which provides the details to implement the particular interface, and 
three test documents (tests for performance, interoperability, and 
conformance), which allow manufacturers to ``comprehensively test their 
implementations in a common way'' to limit variants in interpretation 
of the protocol. All of these documents are developed via a consensus 
process.
    \12\ Trunked radios are considerably more complex than 
conventional. In a trunked radio system, users are not assigned to 
particularly frequencies, but instead have access to any frequency that 
is open, and are connected automatically via the system. Not being 
confined to assigned channels allows more efficient use of the 
frequencies because more users can be on the system at any given time.

    The witness further testified that because the P25 standards remain 
incomplete, radio systems that are sold as P25 are in actuality only 
partially standards-based.
    LMR industry representatives did not dispute that P25 was 
technically incomplete, but they stressed that the standards needed to 
change as technology evolved and argued that the available standards 
actually enable interoperability across vendors. Motorola, a major 
manufacturer of LMR equipment, held that ``the technical specifications 
for Project 25's Phase 1[\13\] systems are functionally complete.'' 
Accordingly, the industry representatives pointed out that the P25 
standards documents completed to date enable two important functions: 
(1) ensuring that a P25 portable radio can communicate directly with 
any other P25 portable radio in the same spectrum band; and (2) 
allowing a first responder, within the coverage area of a neighboring 
network, to communicate with his/her home network (e.g., dispatchers) 
through the neighboring network.
---------------------------------------------------------------------------
    \13\ As noted in the testimony provided by Motorola and Harris, 
Phase 1 of Project 25 refers to enabling communication at bandwidth's 
of 12.5 kHz to comply with FCC ``narrow-banding'' requirements. Phase 2 
will further reduce the width of the communication channel to 6.25 kHz 
in anticipation of future FCC mandates to use limited spectrum 
resources more efficiently.
---------------------------------------------------------------------------
    The manufacturer representatives also noted that P25 developers 
have generated approximately 69 published standards, with an additional 
13 in the ballot phase and 15 in the draft phase. Given that the 
standards development process relies on the voluntary efforts of expert 
engineers, and consensus amongst all of the stakeholders, Harris' 
testified that ``the standards pace is at full industry and user 
capacity.''
    Witnesses at the hearing also disagreed about the degree of testing 
that should be required to validate that products meet the standards. 
NIST testified that the CAP attempted to create a rigorous and formal 
testing program, while minimizing the burden the testing requirements 
would impose on industry. NIST noted that not only does the CAP not 
require third-party certification, CAP developers leverage the testing 
standards developed and published by the P25 standards developers 
themselves.
    Federal Government witnesses also noted that, although the CAP as 
originally planned was to include interoperability, performance, and 
conformance testing for all completed interfaces, the first P25 CAP 
requirements (which were issued in 2008) did not include conformance 
testing. Those requirements covered only the CAI standard, which--at 
the time--was incomplete and included no conformance testing documents. 
NIST and DHS further testified that manufacturers strongly objected to 
a proposal to include conformity testing for the ISSI standard, which 
had a completed conformance testing document, in the CAP in 2009. The 
agency witnesses voiced strong support for including conformance 
testing, arguing it was the best tool to ensure interoperability and 
backwards compatibility with legacy systems.
    At the hearing, the manufacturer representatives noted that both of 
their companies follow rigorous internal testing procedure, and had 
worked extensively with other companies, and within the P25 process, to 
resolve identified interoperability problems. Harris noted that past 
interoperability problems reflected ambiguities within the P25 
standards, which have subsequently been resolved, and should no longer 
pose problems. Motorola contended that any interoperability problems 
found today are likely a result of differences in equipment 
configuration between radio systems.\14\
---------------------------------------------------------------------------
    \14\ As noted by NIST in response to Questions for the Record 
(located in the Appendix to this charter), methods for the 
configuration, or programming, of radios vary across manufacturers. 
Such programming is complex, and made more complex by the number of 
features present in a particular radio. The lack of standardized 
methods for programming can lead to interoperability, as well as 
operability, problems, particularly in an emergency response setting, 
where time is critical. However, NIST further noted that ``. . . in 
discussions with public safety organizations responsible for the 
provisioning of radios operating on a system, we have been informed 
that many of the issues found in the radios also require software 
upgrades to the radios themselves rather than a simple reconfiguration. 
Thus we are confident that some issues found in the field are due to 
problems beyond configuration and programming, and are instead due to 
nonconformance to the standard or problems with the standard itself.''
---------------------------------------------------------------------------
    While the manufacturers were supportive of the P25 CAP, they 
questioned whether the benefit of more rigorous testing would outweigh 
the cost. Both Harris and Motorola pointed to the costs of developing 
the needed equipment to perform the tests. They also noted that while 
conformance testing is routinely done in the telecom industry, the 
public safety equipment industry and market is significantly smaller 
and testing would therefore be more burdensome.
    The charter, witness testimony, and webcast to the May hearing can 
be found on the Science and Technology Committee's website (http://
science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2866).

700 Mhz and Public Safety Broadband Networks
    The P25 standards cover interoperability for voice communications 
over digital LMR systems. With the availability of broadband, many 
public safety agencies are seeking to integrate data functions into 
their operations. Generally, public safety agencies that seek to 
integrate these functions now must rely on commercial carriers to 
provide broadband service. However, the National Broadband Plan 
recommended the creation of a nationwide interoperable public safety 
wireless broadband network, which would allow data and extra voice 
capacity for public safety.
    Many policy and technology issues may need to be resolved before 
more widespread implementation of public safety broadband networks is 
possible. In addition to questions about the fate of the ``D-Block'' 
(an additional 10 Mhz of the 700 band spectrum) and debate on how to 
govern, finance, and build a network for public safety, significant 
issues arguably remain with respect to standards and testing. NIST and 
the National Telecommunications and Information Administration (NTIA) 
have worked with the public safety community over the past three years 
to define the technical requirements needed for a public safety 
broadband network. Working with the broadband industry, NIST and NTIA 
are also developing a test-bed to test broadband technology against 
public safety needs. Testing will begin early next year. Public safety-
specific standards for broadband technology have not yet been addressed 
in an organized fashion.

V. Issues and Concerns

    Even in their current state, the P25 standards have improved 
interoperability for public safety radios. LMR vendors have shown that 
handheld and portable radios from different manufacturers can 
communicate with one another. However, there are unanswered questions 
on whether further progress is still needed to address two key goals of 
the P25 process: (1) ensuring seamless and reliable interoperability, 
and (2) fostering competition for public safety communications 
equipment.
    Although representatives from industry claim that the P25 standards 
are ``functionally complete'', concerns persist that currently fielded 
P25 systems are not completely standards-based. In addition, questions 
remain on the extent to which testing should be required to validate 
that products meet the standard.
    Though there are clear disagreements over these technical matters, 
it is less clear what the consequences of these disagreements are for 
the interoperability of the equipment and for ensuring competition 
among vendors in the P25 equipment market. Further discussion of the 
practical impacts of these issues should help provide more insight into 
whether, and to what extent, the P25 process is meeting its original 
goals.
    Chairman Wu. Good afternoon. This hearing will now come to 
order. I would like to welcome everyone, and everyone who has 
joined us this afternoon for our hearing.
    This is the second hearing the Subcommittee has held on the 
interoperability of public safety communications equipment, and 
I am glad we have the opportunity to revisit this important 
topic.
    The ability of first responders to communicate with each 
other during an emergency is absolutely vital. In many major 
disasters, including 9/11, response efforts have been hindered 
or imperiled because emergency officials responding from 
surrounding jurisdictions could not use their equipment to 
communicate with each other.
    While many factors contribute to this lack of 
interoperability, proprietary technology makes the situation 
far worse. Without a common technical standard, there is no 
assurance that equipment from one manufacturer will work with 
equipment from another manufacturer. This means that first 
responders may not be able to communicate with each other when 
it matters most, and it means that public safety agencies may 
be forced into buying components of their public safety 
communications systems from a single manufacturer, limiting 
competition and driving up prices.
    In 1989, the public safety community and other stakeholders 
set out to create a common technical standard for public safety 
radios, known as P25. Although progress has been made over the 
last 20 years, the P25 standard is not yet complete.
    At our hearing in May, we learned about disagreements among 
some of the players in the P25 standard-setting process over 
the status of the standard and the degree and rigor of testing 
that should be required. While these disagreements are on 
highly technical and complicated issues, they have real-world 
implications for our first responders and for those in harm's 
way. Simply put, our local public safety officials need the 
certainty that open standards provide. Right now that certainty 
does not exist.
    I am pleased that we have the opportunity today to hear 
from people who build, test and operate P25 equipment. I hope 
to learn from our panel about how technical disagreements over 
document status and testing affect interoperability and 
competition for public safety radio systems.
    Local, state and federal public safety agencies spend 
billions of dollars on communications equipment. The size of 
this investment and the mission-critical nature of this 
equipment make it imperative that P25 fulfill its goals.
    I would now like to recognize Ms. Biggert for her opening 
statement.
    [The prepared statement of Chairman Wu follows:]

                Prepared Statement of Chairman David Wu

    Good afternoon. I would like to welcome our witnesses, and 
everybody who has joined us, to today's hearing.
    This is the second hearing the Subcommittee has held on the 
interoperability of public safety communications equipment, and I am 
glad we have the opportunity to revisit this important topic.
    The ability of first responders to communicate with each other 
during an emergency is vital. As reports have shown, in many major 
disasters, including 9/11, response efforts have been hindered or 
imperiled because emergency officials responding from surrounding 
jurisdictions could not use their radios to communicate with each 
other.
    While many factors contribute to this lack of interoperability, 
equipment based on proprietary technology makes the situation far 
worse. Without a common technical standard, there is no assurance that 
equipment from one manufacturer will work with equipment from another 
manufacturer. This means that first responders may not be able to 
communicate with each other when it matters most. And it means that 
public safety agencies may be forced into buying the various components 
of their public safety communications systems from a single 
manufacturer, limiting competition and driving up prices.
    In 1989, the public safety community and other stakeholders set out 
to create a common technical standard for public safety radios, known 
as the P25 standard. Although progress has been made over the last 20 
years, the P25 standard is not yet complete.
    At our hearing in May, we learned about disagreements among some of 
the players in the P25 standard process over the status of the standard 
and the degree and rigor of testing that should be required. While 
these disagreements are on highly technical and complicated issues, 
they have real-world implications for our first responders and those in 
harm's way. Simply put, our local public safety officials need the 
certainty that a standard provides and, right now, that certainty does 
not exist.
    I am pleased that we have the opportunity today to hear from people 
who build, test, and operate P25 equipment. I hope to learn from our 
panel about how technical disagreements over document status and 
testing impact interoperability and competition for public safety radio 
systems.
    Local, state, and federal public safety agencies spend billions of 
dollars on communications equipment. The size of this investment and 
the mission-critical nature of this equipment make it imperative that 
P25 fulfill its goals.

    Ms. Biggert. Thank you, Chairman Wu, and thank for you 
calling today's hearing on the interoperability of public 
safety communications equipment, specifically Project 25, or 
P25 standards.
    A previous hearing on this topic in May highlighted the 
fact that though the Project 25 process has been ongoing for 
more than 20 years, progress on standards for communication 
interoperability has been slow.
    Today's hearing will focus on the process to ensure that 
communications equipment not only incorporates the existing P25 
standards but also performs at the level anticipated by the 
National Institute of Standards and Technology (NIST) and the 
other stakeholders developing the standards. I hope we will 
also learn about P25 standards that have not been fully 
completed and how we can encourage the advancement of that 
process.
    One of the challenges faced by improving public 
communication interoperability is the inherent friction between 
our free market system and the desire for multi-vendor 
equipment to work seamlessly together. In the interest of 
public safety, it is obvious that the first responders must 
have functional, interoperable equipment. The public expects 
that in times of emergency, whether it is fire, a crippling 
winter snowstorm or a terrorist attack that public safety 
communications will work across geography and jurisdictions 
without a hitch. But when the public safety agencies and 
vendors do not work closely together on standards confirmation, 
the end result may be equipment that works perfectly in some 
situations but fails miserably in others.
    So I look forward to learning more about the standard-
setting process and how we can encourage innovation, 
competition and truly interoperable products available to the 
men and women working so hard to protect our safety.
    So with that again, Chairman Wu, thank you, and I welcome 
our witnesses and look forward to an informative hearing. I 
yield back the balance of my time.
    [The prepared statement of Ms. Biggert follows:]

           Prepared Statement of Representative Judy Biggert

    Thank you, Chairman Wu, for calling today's hearing on the 
interoperability of public safety communications equipment--
specifically Project 25, or P25, standards.
    A previous hearing on this topic in May highlighted the fact that 
though the Project 25 (P25) process has been ongoing for more than 20 
years, progress on standards for communications interoperability has 
been slow. Today's hearing will focus on the process to ensure that 
communications equipment not only incorporates the existing P25 
standards, but also performs at the level anticipated by the National 
Institute of Standards and Technology (NIST) and the other stakeholders 
developing the standards. I hope we will also learn about the P25 
standards that have not been fully completed and about how we can 
encourage the advancement of that process.
    One of the challenges faced by improving public communication 
interoperability is the inherent friction between our free market 
system and the desire for multi-vendor equipment to work seamlessly 
together. In the interest of public safety it is obvious that first 
responders must have functional, interoperable equipment. The public 
expects that in times of emergency--whether it is fire, a crippling 
winter snow storm, or a terrorist attack--that public safety 
communications will work across geography and jurisdiction without a 
hitch. But when public safety agencies and vendors do not work closely 
together on standards conformance, the end result may be equipment that 
works perfectly in some situations, but fails miserably in others.
    I look forward to learning more about the standards-setting process 
and how we can encourage innovation, competition, and truly 
interoperable products available to the men and women working so hard 
to protect our public safety.
    With that, thank you again Chairman Wu, and welcome to our 
witnesses. I look forward to a informative hearing and I yield back the 
balance of my time.

    Chairman Wu. Thank you very much, Ms. Biggert.
    If there are other Members who wish to submit additional 
opening statements, your statements will be added to the record 
at this point.
    [The prepared statement of Mr. Mitchell follows:]

         Prepared Statement of Representative Harry E. Mitchell

    Thank you, Mr. Chairman.
    Communication among first responders is critical in an emergency 
response situation. However, to communicate effectively and 
efficiently, it is essential that first responders have compatible 
technology that will allow them to communicate with their counterparts 
from other agencies and jurisdictions.
    Today we will continue to discuss the P25 standard, including how 
the status of the standards documents and the testing requirements 
impact P25 stakeholders. We will also examine the role of the P25 
standard in ensuring radio systems are interoperable and that there is 
competition among vendors.
    I look forward to hearing more from our witnesses today on the 
issue of public safety interoperability.
    At this time, I yield back.

    And now it is my pleasure to introduce our witnesses. Mr. 
Tom Sorley is the Deputy Director of the Radio Communication 
Services for the City of Houston Information Technology 
Department. Ms. Ellen O'Hara is the President of Zetron. Mr. 
Marvin Ingram is the Senior Director of ARINC, Public Safety 
Communications. And our final witness is Mr. Russ Sveda, who is 
the Manager of the Radio Technical Service Center of the 
Department of Interior.
    You will each have five minutes for your spoken testimony. 
Your written testimony will be included in the record for the 
hearing in its entirety, and when all of you complete your 
testimony, we will begin with questions. Each Member will have 
five minutes to question the panel. Mr. Sorley, please proceed.

 STATEMENT OF TOM SORLEY, DEPUTY DIRECTOR, RADIO COMMUNICATION 
  SERVICES, CITY OF HOUSTON INFORMATION TECHNOLOGY DEPARTMENT

    Mr. Sorley. Hello. My name is Tom Sorley. I am the Deputy 
Director of Radio Communications for the City of Houston. I 
also serve as the Chair of the Technology Committee for the 
National Public Safety Telecommunications Council and as Vice 
Chair of the Governing Board for the Department of Homeland 
Security's Project 25 Compliance Assessment Program.
    I am leading the city's efforts to implement one of the 
largest P25 radio systems in the country. The system will be 
one of the first to implement the newest version of the P25 
standard known as Phase 2. Phase 2 will operate with double the 
spectral efficiency of currently deployed Phase 1 systems, 
which is critical to large metropolitan areas such as Houston 
where we suffer from severe spectrum shortages.
    Designing and purchasing a P25 system can be a challenge. 
The P25 standard is actually a suite of standards that has many 
sub-elements. Most people who write specifications do not know 
enough about the suite of standards to properly document their 
requirements. Thus, the result is systems are sold as P25 
compliant when many parts of the systems remain proprietary.
    As a large agency, the City of Houston has more resources 
than most other agencies in the country. However, even with our 
expertise, items were missed related to the Project 25 
standards. Imagine the challenges facing small rural agencies 
trying to buy these systems.
    The P25 process has been ongoing for more than 20 years. As 
years passed, the rate of technology change increases. While it 
is true that technology standards must be constantly updated, 
some better way of delineating the project standard should be 
deployed.
    Over the years, public safety involvement in P25 has paled 
to that of vendors. Most of the major vendors have several 
people that dedicate a substantial portion of their work time 
to participation in the process. In reality, this means that 
the standard is being driven by those that actively 
participate: the vendors.
    A good start to improving the process could be to provide 
more public safety representation on the Steering Committee 
that makes the rules on how the process functions and then 
creating limited staggered terms for those representatives.
    P25 manufacturers often sell proprietary features on top of 
the basic P25 operation. The standard has provisions that allow 
vendors to do this in cases where there is not an equivalent 
feature mandated by the standard. However, radios on systems 
are almost never replaced en masse so an initial decision on 
proprietary options has far-reaching impact for years to come.
    The biggest barrier, in my opinion, to P25 competition is a 
lack of knowledge within the public safety agencies themselves. 
I believe a group needs to be established that is focused 
solely on the education and the success of the public safety 
agencies using or contemplating the use of the P25 equipment. 
Therefore, the DHS and OEC [Office of Emergency Communications] 
partnership that is in place for the DHS Compliance Assessment 
Program should be expanded to include this new role. However, 
in order for it to be effective, it needs to be undertaken 
seriously and funded appropriately.
    Years ago, the P25 participants produced a paper regarding 
what compliance assessment should be made of, and it specified 
three types of test to prove compliance: performance, 
conformance and interoperability. Recently, the P25 Compliant 
Assessment Process Procedures Task Group--bear with me, I have 
to give you an acronym--CAPPTG, changed its stance and said 
that conformance testing in most cases should be replaced with 
enhanced interoperability testing. The CAP Governing Board and 
several leading public safety agencies objected to this change. 
I believe that was one of the subjects of your hearing you had 
before. Eventually the CAP Governing Board established the 
requirement to include conformance testing over the objection 
of the manufacturers.
    The vendors are continuing to assert that conformance 
testing is too burdensome, even though NIST recently created a 
test, developed a test tool, and published all the applicable 
test codes. If developing conformance tests and tools to do 
them are too onerous, DHS should charge NIST to develop all 
future test tools and then make them available directly to the 
test laboratories.
    The CAPPTG is charged with making recommendations on 
appropriate compliance tests. These recommendations are used as 
input documents into the CAP program. NIST participates and 
provides input into that process. However, like public safety, 
NIST is outnumbered on this group. In the past two years, 
several critical votes have been divided down the line of 
vendors versus public safety. Each one decided in favor of the 
vendor position.
    The development of these recommended tests is sometimes 
delayed. As an example, P25 trunk radio systems have been sold 
for more than ten years but yet there is not a single 
recommended test available that includes conformance tests for 
this functionality, not one test. The CAP Governing Board would 
like to release compliance assessment bulletins for P25 
equipment features prior to these features entering the 
marketplace. To meet this goal, the CAP may need to develop an 
alternate process that is not dependent on the P25 process to 
recommend the test.
    In closing, I would like to thank Chairman Wu for inviting 
me to testify today, and on behalf of public safety and the 
City of Houston, I would like to commend the work of the 
Subcommittee as it relates to public safety communications and 
encourage you to continue to weigh in on this very important 
topic.
    [The prepared statement of Mr. Sorley follows:]

                    Prepared Statement of Tom Sorley

    Hello, my name is Tom Sorley. I am the Deputy Director of Radio 
Communication Services for the City of Houston. I also serve as the 
Chair of the Technology Committee for the National Public-Safety 
Telecommunications Council and as Vice-Chair of the Governing Board for 
the Department of Homeland Security Project 25 Compliance Assessment 
Program.
    I am leading the City of Houston's efforts to implement one of the 
largest P25 radio systems in the Country. Once completed, the system 
will be one of the first to implement the newest version of the P25 
standard known as Phase 2. This newest version of the standard was 
created to operate with double the frequency efficiency of the 
currently deployed Phase 1 systems. This efficiency is paramount for 
large metropolitan areas such as Houston which suffer from severe 
spectrum shortages.
    Designing, building, and operating a P25 radio system can be a big 
challenge. The standard is actually a suite of standards that has 
hundreds of sub-elements. Most people that are writing specifications 
to buy a new system do not know enough about the P25 suite of standards 
to even properly document their requirements. In fact, most just 
specify that the technology must be P25 compliant. They fail to specify 
individual elements that must be complaint and the result is that 
systems are sold as P25 complaint when many parts of the system that 
could be standards-based remain proprietary.
    The City of Houston has more resources than most agencies in the 
country and therefore we were able to employ one of the largest 
consulting firms in the public safety communications industry. However, 
even with our expertise and the assistance of our consultant, there 
were still items that we missed related to the P25 standard. Imagine 
the challenges facing small rural public safety entities. I believe 
this is due to the complexity of the standard and the ever changing 
elements that make up the standard.
    The P25 standards development process has been going on for more 
than 20 years. As mentioned previously, there are many elements to the 
standard and several interfaces that all must be fully defined. While 
this work is being done, technology continues to change. In fact as the 
years pass, the rate of technology change is increasing. Further 
complicating the process are regulatory changes, such as frequency 
efficiency rules, that must be addressed in the standards development 
process. While it is true that technology standards must be constantly 
updated, some better way of delineating the P25 standard must be 
developed.
    It would be very helpful if the P25 process created versions that 
could be easily summarized. (example P25 version 3) This version number 
would allow agencies to know what is included as part of the P25 
standard and more importantly what is not included. This is done in 
other technology standards such as IEEE 802.11 which is a widely 
accepted standard for wireless local area networks. The 802.11 standard 
has many versions delineated by different letters of the alphabet. 
Although consumers don't necessarily understand the difference between 
802.11a and 802.11n, they can easily understand that a product is 
compliant to one version or the other. The bottom line is that P25 has 
so many moving parts comprised of many different standards within the 
suite of standards that the lay person would have no real way of 
determining if the products they are buying really conform.
    The three key aspects of Project 25 that make it particularly 
important for improved communications interoperability:

        1.  The initiative was begun and is driven by public safety 
        agencies and organizations.

        2.  It proceeds with both a vision of forthcoming technological 
        change and the need for graceful migration between technologies 
        used by public safety.

        3.  Competition founded on open standards would produce the 
        best technology, at the best prices for pubic safety agencies.

Driven by Public Safety Agencies and Organizations

    Over the years, public safety involvement in the P25 standards 
development process has become harder and harder to maintain. Some key 
public safety representatives have been involved virtually from the 
beginning of the process. However, the number is small and the 
involvement of others is limited at best. Vendor representatives vastly 
outnumber public safety. Most of the major vendors have several people 
that dedicate a substantial portion of their work time to participate 
in P25. In reality, this means that the standard is being driven by the 
active participants--vendors.
    The P25 standard development process is set up to encourage 
consistent participation from both vendors and public safety officials. 
While this seems like a valid approach, travel restrictions on local 
public safety representatives often leave them unable to consistently 
attend making them ineligible to vote on key items. Also, the P25 
Steering Committee only has two of the initial public safety 
representatives who have never been rotated, leaving the impression 
that they have become more partial to the vendors' perspectives on key 
issues.
    The process could be improved by providing more public safety 
representation on the Steering Committee and by creating limited, 
staggered terms for those representatives.

Technology Change and Graceful Migration

    As previously discussed, the pace of the standards development 
process is slow. The rapid pace of technology change further slows the 
completion of this complicated suite of standards. Also, in some cases, 
it is in the best interest of the vendor community to have parts of the 
standard lag as this creates an unmet need that must be filled with a 
proprietary option. For example: The P25 standard has provisions that 
allow vendors to offer proprietary features/functions provided there is 
not an equivalent feature/function mandated by the standard. This 
serves as a motivator to slow the process down.

P25 Competition

    Competition is hampered by a lack of understanding by public safety 
agencies. The only consistent P25 education effort is conducted by the 
P25 Technology Interest Group (PTIG). This group is made up of vendors 
and public safety representatives that are charged to promote the 
success of Project 25 and educate interested parties on the benefits 
that the standard offers. As indicated in their purpose statement, this 
group is focused on the success of the standard. I believe that a group 
needs to be established that is focused solely on the education and 
success of public safety agencies using or contemplating the use of P25 
equipment.
    This public safety education effort should be focused around 
helping local, state, and federal agencies understand the standard by 
creating outreach materials, draft requirements language, draft 
purchasing language, and draft contract language. It would seem that 
the existing partnership between DHS and OEC in the P25 CAP could be 
expanded to include this new role. However, to be effective this effort 
must be undertaken seriously and appropriately funded.
    Competition is not encouraged by manufacturers. P25 manufacturers 
often try to sell proprietary features that reside on top of the basic 
P25 operation of the radios in order to force future sales of their 
products. Some examples include very simple encryption algorithms that 
are proprietary and appear to solve a problem for local agencies by 
providing a cost-effective alternative to standards-based encryption 
that typically costs several hundred dollars more. However, new 
entrants into that system, or existing agencies on that system that 
need radios, are forced to remain with that particular vendor to 
maintain interoperability with the existing radios that utilize the 
proprietary encryption. Radios on systems are rarely replaced in mass. 
Therefore, an initial decision on proprietary options has far-reaching 
impact for years to come.
    Another example of this practice is making accessories that are 
dependent on particular radios and/or other related items. Years ago, 
siren controls in police cars were integrated into mobile radios to 
make the user experience easier. However, compatibility ultimately 
became an issue as a result most public safety agencies de-coupled 
siren controls and radios in the late 1980's. Recently, our vendor 
proposed that we consider using a new integrated control head for our 
radios. The users were very interested in the device as the 
functionality and ease of use met most of their needs. However, the 
control head would only operate that particular vendor's siren control 
package. This would have forced us into a proprietary relationship with 
radios and related sirens limiting our future buying options. We chose 
to pass on the option.

P25 Compliance Assessment Program

    The DHS CAP is a relatively new program that endeavors to ensure 
that products marketed and sold to public safety as P25 actually adhere 
to the standard. Years ago, the P25 participants produced a paper on 
compliance assessment that established three types of tests to prove 
compliance:

        1.  Performance--This test ensures the device performs to the 
        specifications.

        2.  Conformance--This test ensures the device adheres to the 
        P25 standard.

        3.  Interoperability--This test ensures the device seamlessly 
        interacts with similar devices.

    The P25 Compliance Assessment Process and Procedures Task Group 
(CAPPTG) drafts Recommended Compliance Assessment Tests (RCAT). These 
RCATs are used as input documents into the DHS CAP program. The 
National Institute of Standards and Technology (NIST) participates in 
P25 and provides input to the CAPPTG to consider in the development of 
RCATs. However, like public safety representatives, NIST is outnumbered 
by vendors on this task group. In the past two years, several critical 
votes have been divided down the line of vendors versus public safety. 
Each of these votes was decided in favor of the vendor position.
    The DHS CAP program created and published the first Compliance 
Assessment Bulletin that was based substantially (but not completely) 
on the RCAT from the CAPPTG. Subsequently, the CAPPTG changed its 
stance and said that Conformance testing was no longer needed. Instead, 
they advocated replacing conformance testing with enhanced 
Interoperability testing. The CAP Governing Board and several leading 
public safety agencies objected to this change. Eventually, the 
manufacturers acquiesced on this in regard to the Inter Subsystem 
Interface (ISSI). In fact, some of them testified earlier this year at 
this sub-committee stressing that they were committed to the CAP 
program and would continue to participate even if conformance testing 
were required.
    Over the last several months, those same vendors are reverting back 
to their previous stance on Conformance testing. They have asserted 
that the testing is too complicated, expensive and burdensome. This is 
their position even though NIST has created a test and developed a test 
tool that is easily adopted. In meetings earlier in the year, one 
vendor stated that they already run ALL the conformance tests during 
development making the need to repeat them unnecessary. None of the 
other vendors in attendance at that meeting raised an issue with that 
statement. If the vendors already run ALL the conformance tests during 
development and NIST has develop a test while publishing all the 
applicable test code, why is it that conformance testing is still too 
complicated, expensive, and burdensome? If developing a test tool to 
perform conformance tests is too onerous for the vendors, DHS should 
charge NIST to expand their support of the CAP program by developing 
the tests and making them available to the test laboratories.
    The DHS CAP work plan has been largely driven by the availability 
of RCATs from the CAPPTG. This is based on the assumption that the P25 
process contained the largest collection of P25 experts making it the 
logical place for test requirements development. Again, NIST and public 
safety representatives are involved in that process. However, 
development of RCATs can be delayed based on any number of factors. As 
an example, P25 trunked radios have been sold in the market place for 
more than 10 years but there is not one RCAT available that includes 
conformance tests for trunking functionality. The CAP governing board 
would like to develop and release Compliance Assessment Bulletins 
establishing the testing of P25 features prior to or in concert with 
those features entering the market place. We have a great deal of 
catching up to do, but it clear to us that we may have to develop an 
alternate process that is not dependent upon the P25 CAPPTG developed 
RCATs.
    Most major public safety associations have publicly advocated for 
retaining all three types of tests: performance, conformance, and 
interoperability as each play a key role in determining if a product is 
compliant. First responders must be able to predict with certainty what 
the device they use will perform as expected. It is imperative that 
each type of test be performed to make sure.
    One complicating factor in the DHS CAP is the fact that it is 
voluntary. No vendor is forced to participate. To date, most vendors do 
participate, but during the disagreement over conformance testing of 
the ISSI several vendors informally indicated that if conformance 
testing was pursued, they would simply not participate. If all the 
vendors chose to opt out of the process, the process dies. DHS has 
included a requirement in the Federal Grant Guidance that requires any 
P25 equipment purchased with grant funds must have a Suppliers 
Declaration of Compliance (SDOC) on file on the Responder Knowledge 
Base (RKB) website. However, there are creative ways to get around this 
requirement. For instance, I heard a story last month that a vendor was 
willing to give away certain features as ``add-ons'' to avoid the SDOC 
requirement. I am not sure if making P25 CAP a mandatory requirement is 
practical, but it should be investigated.

Why not just use Cell Phones?

    Recently, Reuven Carlyle a State Representative from the Seattle, 
Washington area posted an entry into his blog entitled, ``Want 
Government Reform? Idea #3: A new public safety communication 
strategy.'' (Attachment A). In this blog post, Representative Carlyle 
asserted (among other things) that P25 radios are too expensive and 
public safety would be better served using cell phones. He asserts that 
US public safety agencies pay many times more for their equipment than 
do their counterparts in other countries. While some points in the blog 
on the surface appear to be true, they are not presented in context.
    Several days after Rep. Carlyle's blog, Bill Schrier, CIO of the 
City of Seattle drafted his own blog entry in response. (Attachment B). 
In Mr. Schrier's post, he points out many of the flaws in the original 
post by Rep. Carlyle. I agree with all of Mr. Schrier's points. Simply 
put, public safety has several requirements that can't possibly be met 
by cellular devices. Network priority, reliability, availability during 
disasters or weather events, talk-around mode, and ruggedness are 
several of the requirements that public safety radios need and cellular 
devices and systems can't provide.
    I have the responsibility of buying these devices for the City of 
Houston. I would love to be able to purchase a cellular phone that met 
the needs of public safety. However, one does not exist and it is quite 
unlikely that one will exist in the foreseeable future.
    I would like to thank Chairman Wu for inviting me to testify today. 
On behalf of public safety and the City of Houston, I would like to 
commend the work of the sub-committee as it relates to public safety 
communications and encourage you to continue to weigh in on this 
important topic.

Attachment A

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Have you ever noticed how police officers carry both a cellular 
phone and a hand-held radio? It might surprise you to learn that you 
are paying hundreds of times more for the radio than the cell phone. 
And you're about to pay millions more unless we have the courage to 
change course. Even the New York Times is starting to agitate.
    When I joined McCaw Cellular Communications in the early 1990s--one 
of the world's most entrepreneurial companies--less than 10 million 
Americans had mobile phones. They were big, clunky and had no data 
capability. Today there are as many mobile phones as people, prices 
have fallen and consumers have benefitted from innovation that led to 
iPhones, Windows Mobile, Droid and other robust platforms. The change 
has been technically disruptive and positive. In that same time, the 
nation's public safety community--law enforcement, fire, EMS--has also 
spent billions of public tax dollars on new infrastructure and yet the 
quality, cost and functionality of their expensive, proprietary, two-
way radios has not materially improved since the 1970s.
    Now, the taxpayers of Seattle, King County and Washington State are 
being asked to spend up to hundreds of millions more for a brand new 
radio system for police, fire, EMS and other emergency workers.
    In Seattle and King County alone my gut check is that the cost will 
be in the $50 million to $250 million range. Since I'm not on the 
inside I don't know if this is close or far from the truth, but my gut 
is that it's uncomfortably in that range. And that says nothing of our 
friends in Pierce, Snohomish and other communities who are struggling 
through a similar journey. And Oregon is much further down the same 
pathway and is now politically panicking in the face of a $600 million 
bill.
    It's time for courageous honesty: In my personal view, the decision 
is the wrong direction technically, politically, and financially.
    The uncomfortable truth is that for city, county and state 
governments public safety radio equipment costs between 10x and 100x 
more than it does in most other countries, despite the U.S. leadership 
position for wireless technologies such as smartphones, WiFi, WiMax and 
more. Even Seattle, in many ways the hometown of the consumer wireless 
industry, will pay tens of millions for a proprietary new police radio 
system.
    The reason is that the nation's public safety communications market 
does not enjoy healthy, vibrant, market-based competition in any way 
comparable to consumer mobile services
    First of all, it is important to acknowledge that we must ensure 
our police, fire and EMS officials have access to high quality 
emergency communication systems. Unfortunately, we must upgrade the 
hardware-based system because the current vendor for the Seattle and 
King County system, Motorola, has made a business decision to end 
support for the current network.
    In fairness, they told us long ago they would eventually turn off 
our system, and we needed to buy their next generation system (or 
conceptually their competitor's system). Unlike in the consumer market, 
we may have purchased the equipment, but the company retains the right 
to determine how long our system is supported. It's not much of an 
exaggeration to say that it's sort of like Verizon asking consumers to 
directly fund new cell towers and network and then forcing everyone to 
buy new mobile phones because the company wants to upgrade their 
internal network capabilities.
    Second, our nation's first responders and 9-1-1 dispatchers 
aggressively moved to establish an industry standard for first 
responders called ``P25'' to get better radios at lower prices, to 
break the monopoly of the current structure. Unfortunately, more than 
25 years later, P25 is still not available, still not implemented and 
even the Chainnan of the FCC recently jolted Members of Congress by 
acknowledging ``. . . [P25] has taken more than 20 years to develop and 
is still not complete'' and ``the protracted development of P25 has 
allowed vendors to take advantage of selling proprietary solutions.''
    The industry knows that P25 isn't, in fact, truly standards-based 
and has resulted in even more expensive radios, not the other way 
around. If our state's march toward P25 continues, it will be more 
business as usual--and first responder radios will still cost $5,000 
each. (Did you catch that? Just one P25 radio for one police officer 
costs $5,000 and yet it has less processing power and functionality 
than an iPhone, Windows Mobile or Droid phone).
    Yet with few exceptions that is exactly where our current `group 
think' in Seattle and King County is leading.
    Third, some local Seattle and King County officials have recently 
applied for the Obama Administration's plans for broadband across the 
nation utilizing ``4G'' or ``LTE'' technology on 700 MHz . . . for the 
Seattle area. Their position is inspired in part because the broadband 
system would help first responders. And yet The National Broadband 
Plan, as written, doesn't help with voice communications--the most 
essential element for police, fire and EMS officials.
    This isn't a modest technical decision, it's a major policy choice 
facing King County Executive Dow Constantine and the county council as 
well as Mayor Michael McGinn and the city council.
    Here's a picture of where Seattle and King County are headed if we 
don't change direction: The first 4G or LTE system built in the U.S. 
for first responders is already underway, in the San Francisco Bay 
Area--a geography and population similar to our own. The federal 
government is fronting the $50 million it will cost, and the result is 
that 300 public safety vehicles will be equipped with 4G data modems. 
That is $167,000 per police car and fire truck, for video to and from 
the scene.
    At the same time the consumer marketplace--AT&T, Verizon, Sprint 
and T-Mobile--provides virtually the same mobile service at a fraction 
of the cost at equal or higher service quality levels in many cases. 
Public safety is building their own mirror system to commercial 
services. A mirror system that is on track to be proprietary, closed, 
and expensive like our existing first responder radio systems.
    Of course consumer cellular phones are not perfect nor always a 
technically viable alternative, and they are by no means a simple 
alternative, but philosophically they demonstrate the profound value of 
market-based competition.
    I am willing to bet a private tour of the State Capitol building 
that if you ask 20 police, fire and EMS officials to choose between 
their cellular phones and their two way radios, the majority will 
choose to hold onto the former. Their mobile phones are easier, more 
flexible, equally as reliable in most cases and now support data.
    Without question it's important to acknowledge that technically 
cell phones do have limitations--in basements, rural and other ``out of 
coverage'' areas they won't provide essential voice communications for 
first responders. But the very important and dirty little secret is 
that neither do the P25 radio systems, or the 4G/LTE systems. Our first 
responders need handsets that utilize the high feature/low cost 
advantages of open market cell phone systems, but also work in 
basements ``peer to peer'' when out of range of the system. And that 
solution still shouldn't cost $5,000 for each and every single radio.
    While it is true public safety radios need to be heavy duty, it 
doesn't inherently mean they should cost 10 times as much as commercial 
systems that have more processing power, more technical flexibility and 
more application functionality.
    Yes this is a bit technical and wonky but the financial 
implications are stunning in scale--as Oregon is experiencing, 
approaching $1 billion when the costs of all local agencies are 
included with the first $600 million buildout.
    Is it too late? There is a way forward if we have the courageous 
honesty to tackle old assumptions and myths.

        1.  We should stop buying P25 radios at literally $5,000 per 
        radio and start buying TETRA radios. TETRA is similar to P25, 
        but it is truly open standard radio used by police and fire 
        departments in Europe and Asia . They offer more features and 
        are tested around the globe . . . and cost less than $500 each. 
        They are essentially ``Nextel-like'' in their capability but 
        are a fraction of the cost of the non-open standard P25.

        2.  We should absolutely back a national broadband plan--but 
        not this one. Not until it is legally bound to an open, public 
        standard that enables true, free market participation from any 
        and all vendors. Not a penny of federal or state funding should 
        go towards any proprietary 4G/LTE solutions, and Seattle and 
        King County public safety leaders should insist on an open 
        standard before launching any 4G/LTE 700 MHz construction in 
        Washington.

        3.  Let's ask line officers and regular firefighters what they 
        need to do their jobs. They are the users and yet we rarely ask 
        them firsthand what they need to succeed.

        4.  Investigate the real-deal of the $50 million pilot project 
        in San Francisco, which puts the proprietary 4G/LTE technology 
        in the lead for another 20-year monopoly. Let's understand the 
        implications before Seattle goes down the same expensive 
        route--but likely without the pot of federal money provided to 
        San Francisco.

        5.  We're not the only ones with this issue. We should ask 
        other regions and states to join us in asking for a market that 
        gives our first responders what they really need, at a price 
        that we can afford.

        6.  We should have the courage to explore a stronger 
        partnership with commercial mobile operators in underserved 
        areas. We could subsidize the expansion of their networks and 
        provide cell tower sites, for example, in exchange for more 
        sophisticated `priority access' for public safety--and improved 
        service level agreements--and pricing breaks.

    Perhaps a stronger partnership with Oregon could save us both 
hundreds of millions of dollars or more. We can no longer afford a 
world where each state, each county, each city `goes it alone' in the 
delivery of `utility' services such as communications. Imagine our 
buying power united by a technical vision and strategy?
    Unfortunately, at the end of the day, we acknowledge we have to buy 
a new radio system for our faithful and hard-working police, 
firefighters, and EMTs in the Seattle and King County area.
    We as a city, county and state are more innovative, entrepreneurial 
and technically sophisticated than this. If we believe in government 
reform and want to display to the public that we have the courageous 
honesty to seize the opportunity of this crisis, we need to change 
course even in sacred areas like public safety. We have to question old 
assumptions, challenge monopolies inside and outside of government, and 
demand that when taxpayers are paying the bill, there is value for our 
dollar.
    It's the right thing for the public who are served by our 
courageous law enforcement, firefighters and EMS officials. And it's 
right for taxpayers.

Your partner in service,
Reuven.

Attachment B

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                        Biography for Tom Sorley

    Tom Sorley is the Deputy Director Radio Communications Services for 
the City of Houston. He is currently leading the City's efforts to 
implement a $125+ million P25, public safety radio system. Mr. Sorley 
is a nationally recognized leader in public safety communications with 
over 25 years experience in many facets of the field. Mr. Sorley serves 
on several national and international committees including the 
Governing Board Vice-Chair of the Department of Homeland Security P25 
Compliance Assessment Program and as the Chair of the Technology 
Committee for the National Public Safety Telecommunications Council 
(NPSTC).

    Chairman Wu. Thank you, Mr. Sorley.
    Ms. O'Hara, please proceed.

          STATEMENT OF ELLEN O'HARA, PRESIDENT, ZETRON

    Ms. O'Hara. Chairman Wu and Members of the Subcommittee, 
thank you for this opportunity to offer testimony on Project 25 
standards and their implementation in public safety radio 
systems.
    I am the President and CEO of Zetron, a manufacturer of 
public safety communications equipment. Zetron has been serving 
the communication needs of public safety agencies in our Nation 
for over 30 years. With several thousand installations 
worldwide, we are the largest independent manufacturer of 
interoperable dispatch consoles in the Nation.
    I appreciate the opportunity to testify to the Subcommittee 
regarding the P25 standards. We feel that Project 25, or P25, 
is critically important to public safety. Zetron is in 
agreement with the goals of P25. Our company was one of the 
early signers of the Memorandum of Understanding that created 
the project, and we have been an active participant in the 
standards process for the last 10 years.
    Chairman Wu, you asked me to address two questions 
concerning P25. First, what challenges has Zetron faced in 
integrating our products with those of other vendors? And 
secondly, how has this impacted our customers? In addition, you 
asked what recommendations would Zetron make to ensure that the 
P25 process helps foster competition in the marketplace.
    Now, in order to put my answers into context, I would like 
to refer you to the following graphic. This is a highly 
simplified depiction of a P25 system. It includes the P25 
network and connection to another P25 network, the dispatch 
console, radios that are used on the system and the critical 
interfaces that connect these components: the wireless Common 
Air Interface, or CAI, the Inter Subsystem Interface, which is 
a wireless interface, ISSI, and the wireline Console Subsystem 
Interface, or CSSI.
    Now, in your first hearing in May, you focused on radio-to-
radio interoperability and competition, which is achieved in 
P25 through the wireless Common Air Interface, CAI. All P25 
network manufacturers today in the United States have adopted 
the CAI standard. As a result, their systems are compatible 
with all P25 radios regardless of the radio vendor. In this 
case, competition is well served. It gives customers more 
choices and better value.
    Now, different circumstances affect competition on the 
wireline side where dispatch consoles are connected to the 
network. To support competition on the wireline side, two 
standards have been created. One is the Inter Subsystem 
Interface, which provides an interface between two different 
vendors' P25 networks, and the other is the Console Subsystem 
Interface. The CSSI provides a seamless wired interface between 
the dispatch consoles of one vendor, such as Zetron, and 
another manufacturer's P25 network. The CSSI ensures that the 
customer has a choice in their selection of dispatch consoles. 
Now, this is important because the dispatch console is the 
heart of a public safety communications system. It connects 
first responders such as police officers on their beat with a 
public safety communication center. The console also supports 
interoperability among radios by patching together radios that 
use different frequency bands.
    Because dispatch consoles play such a critical role in the 
communications center, customers are best served when they have 
the freedom to choose the console that best meets their needs 
and cost requirements. Without a CSSI standard and the adoption 
of that standard by the P25 network vendor, the customer's 
choice is limited to the proprietary consoles provided by the 
network vendor.
    There are several reasons why the adoption of the CSSI 
standard by P25 network vendors has been slow. Now, each P25 
interface, as Mr. Sorley mentioned, is defined by a suite of 
standards documents that specify how the interface is to be 
implemented, tested and verified. These are critical documents, 
and the most important ones which define the CSSI and define 
how that is to be implemented are indeed complete. Due to other 
priorities in the standards process, however, the 
Telecommunications Industry Association, TIA, that manages the 
process has not yet finalized the testing and verification 
documents. This situation has given some P25 network 
manufacturers reason to delay the implementation of the CSSI in 
their network offerings. A customer who purchases a P25 network 
from one of these vendors today has no choice but to purchase 
the network manufacturer's own proprietary console.
    Zetron has invested considerable resources to implement the 
P25 CSSI written standard but today our CSSI-enabled consoles 
are currently able to connect to the networks of only three of 
the seven network vendors' equipment: Tait Radio 
Communications, EADS North America, and Raytheon. The other 
network manufacturers have not yet publicly adopted the CSSI 
and thus proprietary consoles are the only choice available to 
customers of their networks.
    We are concerned that competition and customer choice are 
limited by the slow adoption of the open standards CSSI. 
Indeed, the lack of widespread adoption of the CSSI has led 
some of Zetron's customers to delay their transition to P25, 
which in turn negatively impacts both competition and 
interoperability.
    We feel that incentives are needed to solve this problem. 
To that end, I would like to offer two recommendations that 
could help eliminate some of the obstacles to competition.
    First, we believe that the completion of the full suite of 
published standards for P25 wireline interfaces would remove a 
significant roadblock to their adoption. To hasten this 
process, we recommend that the Federal Government consider 
issuing grants to manufacturers so that they can allocate the 
resources necessary to complete the standards. This would allow 
a manufacturer such as Zetron to provide dedicated engineering 
resources to the TIA for the purposes of completing the testing 
and verification documents of the CSSI, thereby completing the 
full suite of standards for this P25 wireline interface.
    We also recommend that the Federal Government set a date 
within the next 12 dates after which it will no longer fund 
through grants the purchase of P25 networks that offer only 
proprietary consoles rather than the open standard CSSI. This 
means that if the offered P25 network equipment can support 
consoles, then that equipment must also support the open 
standard CSSI. Otherwise it is ineligible for purchase using 
interoperability grants.
    In closing, I would like to reiterate Zetron's strong 
support for these two objectives of Project 25. We believe that 
policies that support the completion and adoption of open 
standards, wireline interfaces such as the CSSI will help 
ensure that P25's goals of interoperability and competition 
will be fully realized.
    Chairman Wu and Members of the Subcommittee, thank you 
again for this opportunity to testify before you on these 
important matters.
    [The prepared statement of Ms. O'Hara follows:]

                   Prepared Statement of Ellen O'Hara

    Chairman Wu and members of the Committee, thank you for this 
opportunity to offer testimony on Project 25 standards and their 
implementation in public safety radio systems.
    I am President and CEO of Zetron, a manufacturer of public safety 
communications equipment.
    Zetron has been serving the communications needs of our nation's 
public safety agencies for over 30 years. With several thousand 
installations worldwide, we're the largest independent manufacturer of 
interoperable dispatch consoles in the nation.
    I appreciate the opportunity to testify to the Committee regarding 
the Project 25 standard. We feel that Project 25 (P25) is critically 
important to public safety. Zetron is in agreement with the goals of 
P25. Our company was one of the early signers of the P25 Memorandum of 
Understanding (MOU), and we have been an active participant in the P25 
standards-development process for the past decade.
    Chairman Wu, you asked me to address two questions concerning P25:
    First, what challenges has Zetron faced integrating our products 
with those of other vendors, and how has this impacted our customers?
    Second, what recommendations would Zetron make to ensure that the 
P25 process helps foster competition in the marketplace?
    In order to put my answers into context, I'd like to refer you to 
the following graphic.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    This is a highly simplified depiction of a P25 system. It includes 
the P25 network, the dispatch console, radios that are used on the 
system, and the interfaces that connect these components: the Common 
Air Interface (CAI), the Inter Subsystem Interface (ISSI), and the 
Console Subsystem Interface (CSSI).
    In your first hearing in May, you focused on radio-to-radio 
interoperability and competition, which is achieved in P25 through the 
wireless Common Air Interface.
    All P25 network manufacturers in the United States have adopted the 
CAI standard. As a result, their systems are compatible with all P25 
radios, regardless of the radio vendor. In this case, competition is 
well served--it gives customers more choices and better value.
    Different circumstances affect competition on the wireline side, 
where dispatch consoles are connected to the network.
    To support competition on the wireline side, two standards have 
been created. One is the Inter Subsystem Interface--which provides an 
interface between two different vendors' P25 systems.
    The other is the Console Subsystem Interface. The CSSI provides a 
seamless wireline interface between the dispatch consoles of one vendor 
(such as Zetron) and another manufacturer's P25 network.
    The CSSI ensures that the customer has a choice in their selection 
of dispatch consoles. This is important because the dispatch console is 
the heart of a public safety communication system. It connects first 
responders, such as police officers on their beat, to the public safety 
communications center. The console also supports interoperability among 
radios by patching together radios that use different frequency bands.
    Because dispatch consoles play such a critical role in a 
communication center, customers are best served when they have the 
freedom to choose the console that best meets their needs and cost 
requirements. Without a CSSI standard and the adoption of that standard 
by the P25 network vendor, the customer's choice is limited to the 
proprietary console provided by that network vendor.
    There are several reasons why the adoption of the CSSI standard by 
P25 network vendors has been slow.
    Each P25 interface is defined by a ``suite'' of standards documents 
that specify how the interface is to be implemented, tested and 
verified. The critical documents, which define the CSSI and how to 
implement the standard, are complete. Due to other priorities in the 
standards process, the Telecommunications Industry Association (TIA) 
has not yet finished the testing and verification documents.\1\
    This situation has given some P25 network manufacturers reason to 
delay the implementation of the CSSI in their network offerings. A 
customer who purchases a P25 network from one of these vendors today 
has no choice but to purchase the network manufacturer's own 
proprietary console.
    Zetron has invested considerable resources to implement the P25 
CSSI wireline standard. But today our CSSI-enabled consoles are 
currently able to connect to the networks of only three of the seven 
network vendors' equipment--Tait Radio Communications, EADS North 
America, and Raytheon. The other network manufacturers have not yet 
publicly adopted the CSSI, and thus proprietary consoles are the only 
choice available to customers of those networks.
    We are concerned that competition and customer choice are limited 
by the slow adoption of the open-standard CSSI. Indeed, the lack of the 
widespread adoption of the CSSI has led some of Zetron's customers to 
delay their transition to P25, which in turn negatively impacts both 
competition and interoperability.
    We feel that incentives are needed to solve this problem. To that 
end, I would like to offer two recommendations that could help 
eliminate some of the obstacles to competition.

        <bullet>  First, we believe that the completion of the full 
        suite of published standards for P25 wireline interfaces would 
        remove a significant roadblock to their adoption. To hasten the 
        completion of these standards, we recommend that the federal 
        government consider issuing grants to manufacturers so that 
        they can allocate the resources necessary to complete the 
        standards. This would allow a manufacturer such as Zetron to 
        provide dedicated engineering resources to the TIA for the 
        purposes of completing these standards.

        <bullet>  We also recommend that the federal government set a 
        date within the next 12 months, after which it will no longer 
        fund, through grants, the purchase of P25 networks that offer 
        only proprietary console interfaces rather than the open-
        standard CSSI. This means that if the offered P25 network 
        equipment can support consoles, that equipment must also 
        support the open-standard CSSI; otherwise, it is ineligible for 
        purchase using interoperability grants.

    In closing, I would like to reiterate Zetron's strong support for 
the objectives of Project 25. We believe that policies that support the 
completion and adoption of open-standards wireline interfaces such as 
the CSSI will help ensure that P25's goals of interoperability and 
competition will be fully realized.
    Chairman Wu, and members of the Committee, thank you again for the 
opportunity to testify before you on these important topics.

Note

    \1\ Why Are the P25 Standards Taking So Long?
    This is perhaps the most frequently asked question regarding P25. 
When asked, it is often in comparison to other wireless communications 
standards, such as cellular or even Europe's narrow-band public safety 
standard called TETRA.
    We believe that a significant portion of the answer to this 
question lies in the scope of P25. P25 is unique among all other 
wireless communications standards in that it includes open, published 
standards not only for over-the-air protocol and data dispatch consoles 
to P25 networks (via the CSSI), and to accommodate the unique need of 
cross-band interoperability (via the ISSI).
    While other standards may identify similar interface points, only 
P25 has gone to the extent of creating standards for these interfaces. 
This is to ensure that the needs of our nation's public safety agencies 
are met. Thus the scope of the P25 standard is at least twice that of 
other wireless communications protocols. In addition, some of the other 
wireless standards, particularly cellular, were able to leverage the 
substantial number of existing telephony standards. Land mobile radio, 
with its unique push-to-talk and selective signaling characteristics, 
is not able to use telephony standards to the same extent.
    Another reason it has taken longer to produce P25 standards is the 
collaborative, cooperative, and consensus-based approach used. While 
P25's requirements are identified by its users, as it should be, the 
actual development of standards to meet those requirements is done 
mostly by manufacturers.
    P25 may not be unique in this approach; some cellular standards 
have also developed in this way. But being a much smaller market with 
smaller revenue potential and fewer participants, the amount of 
resources applied by P25 manufacturers has been relatively small 
compared to those of cellular manufacturers. In the case of European 
mobile radio standards, many of these have had external funding and 
participation by European governments.
    Finally, the needs of our nation's public safety users are not 
static, but continue to evolve. For this reason, Project 25 has always 
been dynamic, with standards that can be extended and modified to meet 
emerging needs.
    Thus P25 has grown beyond its original vision of the 90's which is 
``complete,'' (Phase 1), and is now nearing completion of a Phase 2. In 
this sense, P25 will not be complete until it is replaced.

                       Biography for Ellen O'Hara

    Ellen O'Hara is currently the president and CEO of Zetron, Inc., 
which is headquartered in Redmond, Washington.
    Zetron provides mission-critical communication solutions for 
clients in the fields of public safety, transportation, utilities, 
manufacturing, healthcare, and business. With offices in Basingstoke, 
England; and Brisbane, Australia; as well as a growing network of sales 
representatives in Europe, Asia and Latin America, Zetron's reach is 
worldwide.
    Throughout her career, Ms. O'Hara has served in positions of 
leadership and management for some of the country's leading 
communications technology companies. Prior to joining Zetron, she 
served as president and COO of EF Johnson Company in Irving, Texas; and 
also held senior-level management positions at Motorola, including vice 
president and general manager of its Radio Products Division, and vice 
president and director of subscriber operations in its Radio Network 
Solutions Group. During the 1980's, she also worked for General 
Electric's Mobile Communications Division (now a division of Harris) in 
business development, operations and product management.
    Ms. O'Hara began her career in the field of organizational 
development at the Massachusetts Institute of Technology, where she 
also attended the Sloan School of Management.
    Ms. O'Hara has served on several industry association and non-
profit boards, including the International Telecommunications 
Association and the American SMR Network Association. She was 
Motorola's representative on the FCC's National Coordinating Committee 
in the late 1990's.
    Ms. O'Hara holds an MBA with a Baker Scholar distinction from the 
Harvard Graduate School of Business, and a BA with distinction from 
Mount Holyoke College.

    Chairman Wu. Thank you, Ms. O'Hara.
    Mr. Ingram, please proceed.

  STATEMENT OF MARVIN INGRAM, SENIOR DIRECTOR, ARINC, PUBLIC 
                     SAFETY COMMUNICATIONS

    Mr. Ingram. Chairman Wu, Members of the Subcommittee, thank 
you for the opportunity to appear before you today to talk 
about this very critical subject. In my testimony today, I 
would like to leave you with three points for your 
consideration. One, standards drive innovation and competition 
in any marketplace, and it will do so in public safety. Two, 
technology is not a barrier to the finalizing of the P25 
standards, such as CSSI. Three, finalizing communications 
standards and adoption of compliance and conformance testing is 
imperative to fully solving the interoperability problem.
    I represent a company that has a long history of radio 
communications, stretching back over 80 years. ARINC was 
originally formed to manage aeronautical radio frequencies used 
by the airline industry, and we will perform that task today. 
ARINC has participated in creating interoperability of 
communications within the aviation industry and has built and 
manages a global mission-critical network that is used by 
airlines all over the world.
    The tragic events of 9/11 motivated some people at ARINC to 
evaluate the problem of public safety communications 
interoperability and to see how we could leverage our expertise 
in solving the problem. That is when the business unit I 
represent, which is the Public Safety Communications Business 
Unit, was started.
    ARINC supports the full adoption and the competition of the 
current published standards within P25. Over the past few 
years, the P25 standard has evolved to the point where more 
manufacturers are making P25-compliant components such as 
subscriber units, console systems, system control software and 
repeaters. These smaller companies make very capable products. 
However, they don't make complete systems. As an integrator, we 
now have the ability to take these components from these 
manufacturers and build systems using a ``best of breed'' 
approach. Many of these manufacturers seek ARINC out due to our 
unbiased approach to designing and implementing public safety 
systems. ARINC has invested and will continue to invest 
substantially in the testing and delivery of systems that 
conform to the P25 standard.
    I want to address the questions that you asked, Chairman 
Wu, of ARINC and me: What challenges has ARINC encountered in 
integrating P25 digital land mobile radio equipment from 
different vendors, and in our experience, how can these 
technological challenges impact the customers of this 
equipment? It is a good question. ARINC has integrated 
technology from several different P25 equipment manufacturers 
including Zetron, EASDS, EF Johnson, Kenwood, Tait and Thales. 
We are working with several others to get their equipment in 
our labs so that we can include them in our proposals to our 
customers. We found these manufacturers to be enthusiastic in 
working with each other and working with us. We have all 
collaborated to increase interoperability of the various 
products. Many of these manufacturers have expressed the desire 
to participate in ARINC-delivered systems as they feel they 
will be able to compete with one another on a level playing 
field.
    However, as standards have been delayed, competition has 
been stifled. Costs have remained high and the full potential 
for interoperability has not been achieved. Vendors of 
proprietary systems are taking advantage of the delay in 
standards development to advance their gain in market share. 
Customers have had to purchase or extend the life of their 
existing system or systems with proprietary features and 
functions, often at a hefty price, until the standards are 
complete. As Mr. Dereck Orr of the National Institute of 
Standards and Technology testified before this Subcommittee on 
May 27, 2010, only small but critical portions of the standard 
have been ratified and it has only been in the last two years 
that a compliance testing program has been implemented.
    The first few years of P25 deployments had many failures 
with respect to multi-vendor interoperability and finger 
pointing as to who was at fault. This instilled a level of 
doubt in the minds of many first responders that has not been 
fully overcome. In several procurements we have been asked, how 
can we guarantee that components from various vendors will 
interoperate? Even today, as CAP labs attest to 
interoperability, the customer base uses the past as an excuse 
to stick with the status quo of a single vendor solution. To be 
sure, there are still ways to purposefully deploy a P25 system 
such that another vendor's equipment will not function on it, 
but there are also ways to deploy it so that it will.
    The next question that you asked, what would you recommend 
to ensure that P25 standards are implemented consistently? I 
believe that open standards in public safety communications 
will increase competition and provide innovative and cost-
sensitive solutions. We have witnessed this in other 
industries, but the pace of the current public safety 
communications standards development process has in fact 
frustrated equipment manufacturers who wish to invest in the 
development and enhancement of their products. ARINC supports 
accelerating the adoption and implementation of the most 
critical public safety communication standards and 
technologies, along with compliance and conformance testing.
    Finally, ARINC recommends federal funding be established 
and managed by a dedicated governing body to provide grants to 
public safety personnel, technology vendors and others to 
participate in the ratification of the published P25 standards. 
ARINC recommends a schedule be established and maintained by 
the dedicated governing body to ensure completion of the 
standards in a timely manner. ARINC also recommends the 
standard be released in manageable phases. Finally, ARINC 
recommends that this initiative be closely monitored by this 
and other legislative and regulatory bodies charged with 
solving the problem of public safety communications.
    Chairman Wu, Members of this Committee, thank you again for 
inviting me to testify before you today.
    [The prepared statement of Mr. Ingram follows:]

                  Prepared Statement of Marvin Ingram

    Chairman Wu, Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss the current state of 
interoperability and competition in the marketplace in Public Safety 
radio equipment. It is truly an honor to speak with you today, thank 
you for the invitation. ARINC support the full adoption of the P25 
standards. In my testimony today, I would like to leave you with 3 
items for your consideration:

        1.  Standards drive competition and innovation in any 
        marketplace and it will in Public Safety communications

        2.  Technology is not a barrier to finalizing the P25 
        standard--several manufactures are anxiously awaiting 
        completion of several elements of the standards

        3.  Finalizing communications standards and adoption of 
        compliance and conformance testing is imperative to fully 
        solving the interoperability issue.

    I represent a company that has a long history in radio 
communications stretching back almost 80 years. ARINC was originally 
formed to manage aeronautical radio frequencies used by the airline 
industry and we still perform that role today. ARINC has participated 
in creating interoperability of communications within the aviation 
industry. ARINC has built and manages a global mission critical network 
that is used by airlines around world to communicate.
    In the aviation industry, many of the communications standards are 
referred to as ``ARINC'' standards and they enable voice and data 
communications interoperability as well as physical equipment 
interoperability. The standards are far reaching with everyone from 
airframe manufacturers to rental car companies utilizing them. They 
enable a pilot to bring you weather forecasts for the destination 
airport at 35,000 feet, lets a rental car company know you will be 
late, and enables an engine manufacturer to know when a jet needs 
servicing automatically.
    The tragic events of 9/11 motivated some smart people at ARINC to 
evaluate how we could leverage our expertise in aviation communications 
to contribute in solving the public safety communications 
interoperability problem. That's when the business unit I represent was 
formed.
    While a relative newcomer to public safety, our track record 
demonstrates our ability to solve complex problems and deliver mission 
critical solutions. In the industries and markets where we participate 
we are viewed by our customers as a thought leader and partner. For the 
most part we do not manufacture hardware; we use existing components to 
create new or integrated solutions.
    From this background you might infer how important standards are to 
ARINC. Standards are what enable ARINC to build the integrated 
solutions we provide to our customers. This is true in every market 
vertical we participate. The market confusion regarding P25 standards 
is one factor that has slowed our ability to add real value to public 
safety customers. Until recently, there were only two vendors where 
customers could purchase a trunked P25 system. These vendors provide a 
complete end-to-end system sold through a direct sales model with 
little to no room for additional vendor participation.
    Over the past few years the P25 standard has evolved to the point 
where more manufacturers are making P25 compliant ``components'' such 
as subscriber units, consoles, system control software, and repeaters. 
These smaller companies make very capable products, however they don't 
make a complete system. As an integrator, we now have the ability to 
take the components from these manufacturers and build complete systems 
using a ``best of breed'' approach. Many of these manufacturers seek 
ARINC out due to our unbiased approach to designing and implementing 
public safety systems. ARINC has invested and will continue to invest 
substantially in the in the testing and delivery of systems that 
conform to the P25 standard.
    This transition from a single vendor solution to the integrated 
multi-vendor solution is nothing new. The IT industry went through this 
very transition in the early 90's. The real question from our 
perspective is why has it taken so long for public safety to get where 
it is? And why does it seem that it still has a very long way to go?
    The P25 standard, started in 1989 just celebrated it's 20th 
anniversary and it's still not complete. To put this in perspective, 
twenty years ago the Internet was limited to universities and research 
companies, PC's were very expensive, slow, and very few people had 
them, there were no mobile phones, and ``high speed'' connections were 
56kbps dialup. If other industries moved at the same pace as the P25 
standard, almost no one would have a portable phone, ``portable 
computers'' would cost $10,000 weigh 20lbs, with less than 1MB of disk 
space, and wireless broadband would still be a pipe dream regardless of 
the spectrum availability. I say this with some risk of offending the 
many good folks who put so much effort into the standards as they exist 
today, for they have developed a worthy baseline. But in large part, 
many are just as frustrated as we are regarding the pace of 
development. Overall this has had a negative impact on the ability of 
first responders to communicate and put the public at risk on both a 
daily basis and during times of crisis such as on 9/11 and during 
hurricane Katrina.
    ``What challenges has ARINC encountered in integrating P25 digital 
land mobile radio equipment from different vendors? In your experience, 
how can these technological challenges impact the customer of this 
equipment?''
    ARINC has integrated technology from several P25 equipment 
manufacturers, including EADS, Zetron, EF Johnson, Kenwood, TAIT and 
Thales. We are working with several others to get their equipment in 
our labs so that we can then include them in proposals to customers. We 
have found these manufactures to be enthusiastic in working with us and 
each other. We have all collaborated to increase the interoperability 
of all the products. Many of these manufactures have expressed the 
desire to participate in ARINC delivered systems as they will be able 
to compete with one another on a level playing field.
    However, as standards have been delayed, competition has been 
stifled, costs have remained high, and the full potential for 
interoperability has not been achieved. Vendors of proprietary systems 
have taken advantage of the delay in standards development to advance 
their gain in market share. Customers have had to purchase or extend 
the life of their existing system or systems with proprietary features 
and function, often at a hefty price tag, until the standard is 
developed enough to use. As Mr. Dereck Orr of the National Institute of 
Standards and Technology testified before this committee on May 27th, 
2010 only small but critical portions of the standard have been 
ratified, and it's only been in the last 2 years that a compliance 
testing program has been implemented.
    The first few years of P25 deployments had many failures with 
respect to multi-vendor interoperability and finger pointing as to who 
was at fault. This instilled a level of doubt in the minds of many 
first responders that has not been fully overcome. In several 
procurements we've been asked `How can guarantee that components from 
various vendors will interoperate?' Even today, as CAP labs attest to 
interoperability the customer base uses the past as an excuse to stick 
with the status quo of a single vendor end-to-end solution, of which 
there are still only two. To be sure, there are still ways to 
purposefully deploy a P25 system such that another vendor's equipment 
will not function on it, but there are also ways to deploy it so that 
it will and it has been possible for quite a number of years.
    To once again draw a parallel to another industry, most of you know 
who manufactured your mobile phone, and what carrier you pay your 
service charges too. How many of you know who made the infrastructure 
at the local tower site? Do you worry that it's not compatible? Of 
course not. The reason is the testing that other industries go through 
to ensure compatibility and the zeal with which they want to ensure 
their product is accepted in the marketplace.
    Another challenge is dealing with the idiosyncrasies of how each 
manufacturer interprets the standards. This has the potential to cause 
issues with deployments. ARINC maintains a test and demonstration lab 
at our headquarters in Annapolis Maryland to ferret out troublesome 
configuration issues before we deploy systems to the field. We also 
work with vendors during their development cycles to test new 
functionality or products in a ``private'' environment that isn't as 
sterile as their lab, yet won't impact customers. These vendors also 
test among themselves to see if they have each come to the same 
conclusion regarding how to implement technology. The level of activity 
in this arena has increased over the last two to three years due to 
more vendors in the space and recognition that the procurement process 
if finally starting to shift from single to multi-vendor solutions.
    What we have seen is that vendors with smaller market share must 
and will work harder to prove to the larger vendors and the market in 
general that their radio will interoperate with the ``big guys''. They 
also work harder to innovate in areas such as ease of configuration, 
battery life, fireground features, and packaging.
    ``What would you recommend to ensure that the P25 standards are 
implemented consistently?''
    I believe open standards in public safety communications will 
increase competition and provide innovative, cost sensitive solutions. 
We have witnessed this in other industries, but the pace of the current 
public safety communications standards development process, has in fact 
frustrated equipment manufacturers who wish to invest in the 
development and enhancement of their products. ARINC supports 
accelerating the adoption and implementation of the most critical 
public safety communication standards and technologies, along with 
compliance and conformance testing.

        <bullet>  ARINC recommends federal funding be established and 
        managed by a dedicated governing body, to provide grants to 
        public safety personnel, technology vendors and others to 
        participate in the ratification of the published P25 standards.

        <bullet>  ARINC recommends a schedule be established and 
        maintained by the dedicated governing body to ensure completion 
        of the standards in a timely manner.

        <bullet>  ARINC recommends portions of the standards be 
        released in manageable phases.

        <bullet>  Finally, ARINC recommends that this initiative be 
        closely monitored by this and other legislative and regulatory 
        bodies charged with solving the problem of Public Safety 
        interoperability.

    Chairman Wu, Members of the Subcommittee, thank you again for 
inviting me to testify on this very critical issue, I am honored.

                      Biography for Marvin Ingram

    Marvin Ingram has served as the Senior Director for ARINC's Public 
Safety Communications business unit since 2004. ARINC is a 
Communications Engineering and Systems Integration firm based in 
Annapolis Maryland. Mr. Ingram has led the development of the strategic 
plan, technical roadmap and go-to-market strategy for the ARINC 
Wireless Interoperable Network Solutions (AWINS).
    AWINS was developed to provide architecture for a standards 
platform to provide interoperable communications between Public Safety 
and Homeland Security agencies. It is designed to provide greater 
flexibility, resiliency, a choice of vendors, lower costs, and the 
capability for future expansion. As an industry leader in legacy radio 
systems interoperability using IP and VoIP, ARINC is known as an 
integrator that delivers mission critical solutions. In addition to 
traditional legacy radio integration, AWINS includes APCO P25 radio 
technology. Focused on standards compliant systems, ARINC is able to 
deliver end to end communications interoperability.
    Mr. Ingram has provided leadership for over 20 years in program 
management, engineering, quality assurance, customer satisfaction, 
sales and marketing for Public Safety Communications and IT solutions.
    Mr. Ingram started his career serving in the U.S. Air Force as an 
Electronic Intelligence engineer. Mr. Ingram's career includes network 
engineering and executive management in several information technology 
organizations prior to joining ARINC.

    Chairman Wu. Thank you very much, Mr. Ingram.
    Mr. Sveda, please proceed.

STATEMENT OF RUSS SVEDA, MANAGER OF THE RADIO TECHNICAL SERVICE 
               CENTER, DEPARTMENT OF THE INTERIOR

    Mr. Sveda. Thank you. Good afternoon, Mr. Chairman and 
Members of the Subcommittee. I appreciate the opportunity to 
appear before you today to discuss the Department of Interior's 
testing program for Project 25. My name is Russ Sveda. I am the 
Manager of the Radio Technical Service Center for the 
Department of the Interior, where we provide land mobile radio 
system engineering and product testing. I have almost 30 years 
of military and civilian government experience in radio 
communications and look forward to sharing my experiences with 
the Subcommittee.
    To provide you with a little background, because of the 
Department's broad land management portfolio, the Department 
has land mobile radios and systems in use across nearly all of 
the 50 states and U.S. territories. Our operations, 
particularly in law enforcement and wildland fire fighting, 
require a high degree of interoperability with other federal, 
tribal, state and local agencies. Our law enforcement officers 
and fire fighters work in remote locations across the country 
supporting various incidents, whether it is a wildland fire in 
Alaska, a joint operation with the Border Patrol along the 
southwest border or hurricane relief efforts in the Southeast, 
and often we do all these things in one summer. A clear and 
concise standard for land mobile radio, and confidence in the 
products' adherence to those standards, are extremely important 
to us.
    The Department of the Interior adopted the Project 25 
Standards in 1996 and has been buying and using products that 
purport to adhere to those standards since then. Unlike many of 
the other organizations who contract the design and 
implementation of a turnkey radio system, we typically design 
and install our own land mobile radio systems with components 
purchased from multiple vendors in order to minimize our costs.
    Our interest in the Project 25 standards and 
interoperability goes beyond whether vendor A's radio works 
with vendor B's radio and down into the land mobile radio 
system itself. Our mission demands that not only must radio A, 
B and C interoperate and work together on our local system, but 
that our users' handheld and mobile radios must also work 
effectively on any system in the country. With our in-house 
system engineering and implementation, we must further ensure 
that system equipment from vendor A works with system equipment 
from vendor B and vendor C.
    The slow pace of the development of the Project 25 
standards has created some frustration in the radio user 
community. While I applaud the industry for the success in 
establishing a solid Common Air Interface, or CAI, so that 
different radios can talk to each other, most of the standards 
are still in development. We have invested 14 years in this 
technology, and today we are still not able to design and 
install a Project 25 compliant system without significant 
engineering and customization.
    The Department started testing Project 25 products in 2002 
as part of a Department-wide radio contract. We found this 
necessary because of the experiences we and our users had with 
what I would call the first generation Project 25 products. 
Since that time, we have evolved our testing along with the 
evolution of the standards. Today, we test the Project 25 
products offered under yet another contract that supports both 
the Department of the Interior and the Department of 
Agriculture.
    Our current testing is based on the Project 25 Standards 
and specifically targets performance, conformance and 
interoperability. To use resources effectively, though, we 
select specific tests based on the risks and the impacts to our 
users, meaning we don't test absolutely everything that is in 
the standards.
    Since 2002, we have seen a drastic improvement in the 
Project 25 products and a significant increase in the number of 
vendors that can provide these products. There is still a long 
road ahead, though.
    We envision continuing to test Project 25 products until 
all the standards are published and the industry has matured in 
complying with those standards.
    The Department of Interior is committed to supporting the 
Project 25 Standards, and we welcome your support and attention 
to this topic. It is in the best interest of the government and 
in particular of those who place themselves in harm's way to 
continue the standards development and independent testing of 
Project 25.
    This concludes my testimony. I am happy to answer any 
questions you or the Members of the Subcommittee may have. 
Thank you.
    [The prepared statement of Mr. Sveda follows:]

                    Prepared Statement of Russ Sveda

    Good Morning, Mr. Chairman and Members of the Subcommittee, I 
appreciate the opportunity to appear before you today to discuss the 
Department of the Interior's testing program for Project 25. My name is 
Russ Sveda. I am the Manager of the Radio Technical Service Center for 
the Department of the Interior (Department), where we provide land 
mobile radio systems engineering and product testing for the 
Department. I have almost 30 years of military and civilian Government 
experience in radio communications and look forward to sharing my 
experiences with the Subcommittee.
    To provide a little background, because of the Department's broad 
land management portfolio, the Department has land mobile radios and 
systems in use across nearly all of the 50 states and U.S. territories. 
Our operations, particularly in law enforcement and wildland fire 
fighting, require a high degree of interoperability with other Federal, 
Tribal, State and local agencies. Our law enforcement officers and fire 
fighters work in remote locations across the country supporting various 
incidents, whether at a wildland fire in Alaska, a joint operation with 
the Border Patrol in the Southwest, or a hurricane relief effort in the 
Southeast. A clear and concise standard for land mobile radio, and 
confidence in the products' adherence to those standards, are extremely 
important to us.
    The Department of the Interior adopted the Project 25 Standards in 
1996 and has been buying and using products that purport to adhere to 
this standard since then. Unlike many of the other organizations who 
contract the design and implementation of a turnkey system, we 
typically design and install our own land mobile radio systems with 
components purchased from multiple vendors in order to minimize costs.
    Our interest in the Project 25 standards and interoperability goes 
beyond whether vendor ``A's'' radio works with vendor ``B's'' radio and 
into the land mobile radio ``system.'' Our mission demands that not 
only must Radio ``A'', ``B'' and ``C'' interoperate on our local 
system, but our users' handheld and mobile radios must also work 
effectively on any system in the country. With our in-house system 
design and implementation, we must further ensure that system equipment 
from vendor ``A'' works with equipment from vendor ``B'' and vendor 
``C''.
    The slow pace of the development of the Project 25 Standards has 
created some frustration in the radio user community. While I applaud 
the industry for the success in establishing a solid Common Air 
Interface so that different radios can talk to each other, most of the 
standards are still in development. We have invested 14 years into this 
technology and today, we are still not able to design and install a 
Project 25 compliant ``system'' without significant engineering and 
customization.
    The Department started testing Project 25 products in 2002 as part 
of a Department-wide contract. We found this necessary because of the 
experiences we and our users had with what I would call the ``first 
generation'' Project 25 products. Since that time, we have evolved our 
testing along with the evolution of the standards. Today, we test the 
Project 25 products offered under yet another contract that supports 
both the Department of the Interior and the Department of Agriculture.
    Our current testing is based on the Project 25 Standards and 
specifically targets performance, conformance, and interoperability. To 
use resources efficiently, we select specific tests based on the risk 
and impact to our users.
    Since 2002, we have seen a drastic improvement in the Project 25 
products and a significant increase in the number of vendors that can 
provide those products. There is still a long road ahead.
    We envision continuing to test Project 25 products until all the 
standards are published and the industry has matured in complying with 
those standards.
    The Department is committed to supporting the Project 25 Standards, 
and we welcome your support and attention to this topic. It is in the 
best interest of the government and in particular of those who place 
themselves in harms' way to continue the standards development and 
independent testing of Project 25.
    This concludes my testimony. I am happy to answer any questions 
that you or the members of the Subcommittee may have.

                        Biography for Russ Sveda

    In December 2008, Russell A. Sveda was assigned to the Department 
of the Interior Radio Technical Service Center as Manager, assuming 
oversight responsibility for the Department's radio technical services 
and support. The Department has approximately 2,000 radio systems and 
some 25,000 users located in approximately 2,400 locations across the 
United States, Puerto Rico, U.S. territories, and Native American 
Lands. He has nearly thirty years experience in the field of radio 
communications and information technology, including nine years of 
which are with the Department of the Interior.
    As the Technical Service Center Manager, Mr. Sveda is responsible 
for providing leadership and technical advice to the Office of the 
Chief Information Officer for the Department and the subordinate 
bureaus on the effective use of radio technology and providing 
technical support. Mr. Sveda is focused on radio infrastructure 
modernization and ensuring that investments in radio are cost 
effective, scalable, interoperable and aligned to DOI's mission and 
strategic direction. In doing so, radio equipment and their compliance 
to the agency adopted Project 25 standard are a key concern. Mr. Sveda 
has established a formal testing program for radio products to assure 
that those used by the Department meet the mission and user 
requirements.
    Before accepting this position, Mr. Sveda served as the Radio 
Program Manager at the Bureau of Land Management, a bureau within the 
Department, where he provided leadership for and technical expertise in 
radio, as well as, policy development and project management for 
several key radio initiatives.
    Prior to his assignments in the Department of the Interior, between 
1981 and 2001, he served as an Electronics Maintenance Officer in the 
United States Marine Corps. His last three years in the Marine Corps 
were devoted to developing and maintaining the radio communications 
systems and dispatch centers for the Marine Corp Bases in California. 
Mr. Sveda provided technical leadership and field support to military 
training, law enforcement, fire, and logistical support organizations 
within these bases. He further developed radio interoperability 
solutions and techniques with local city, county, state and federal 
organizations, as well as local amateur radio organizations, to improve 
joint response to incidents. The previous 17 years involved designing 
and supporting tactical radio, telephone, computer, radar, and weather 
systems for various combat operations. During this period, Mr. Sveda 
was also involved in defining test methods and conducting lab and field 
testing of various communications and electronics equipment.
    Mr. Sveda is a graduate of McDowell High School in Erie, 
Pennsylvania where he specialized in electronics and has held or holds 
various certifications related to Radio, IT Service Management, and 
Project Management.

    Chairman Wu. Thank you very much, Mr. Sveda.
    I have been advised that the proceedings on the Floor are 
such that we expect perhaps five or six votes coming up in just 
a little bit, and these votes will take about an hour, so it is 
my intention to get through one, perhaps two rounds of 
questions, and if there are any remaining questions, the staff 
will submit them to the witnesses in writing, and with that, 
the Chair recognizes himself for five minutes.
    These hearings have been focused on the progress of 
standards development for P25, and I am especially interested 
in the lack of standards or the lack of progress across the 
suite of standards, the impact on safety and on price, on 
safety and competition. I would like to encourage the witnesses 
to go across the board and address how the slow pace of 
standards development has affected competition and price on the 
one hand and the safety of equipment stemming from lack of 
interoperability on the other.
    Mr. Sorley. Tom Sorley. I guess I will start. We just 
completed in October of 2008 a very lengthy procurement process 
for our $100 million plus system, and even though I spent 
months out canvassing vendors and trying to get interest into 
our process, we ultimately ended up with two manufacturers 
making an offering. They happened to be the two largest in the 
state. That could be because the size and complexity of the 
procurement. I understand that. But it was a little 
disheartening that we couldn't have at least three or more. So 
I think it has a big impact on competition, the fact that we--
--
    Chairman Wu. And this is for all the different components 
of the system?
    Mr. Sorley. All the different components. It was a large--
you know, it is a soup-to-nuts radio system.
    Chairman Wu. Right. And it was not two vendors for each 
individual component, this is two total, the whole suite of 
components?
    Mr. Sorley. Correct. And I think that, had the standard 
been more fully developed, we could have had more vendors come 
in and give proposals. Many elements are still proprietary in a 
system as large as mine, and it is just too much risk for the 
other vendors to come in.
    Chairman Wu. Mr. Sorley, what is the impact of some of that 
proprietary technology on someone like you who may be acquiring 
further equipment which may be interoperable or not 
interoperable with that proprietary technology?
    Mr. Sorley. Let me give you an example. There is a vendor 
that offers a very low-cost encryption algorithm--sometimes 
they give it away for free--that is proprietary, and if you as 
an agency or a system owner go with that technology, then 
anyone else that wants to buy radios and join your system, if 
they want to talk to your people, guess what? They have to buy 
from that manufacturer. I was talking to a gentleman in Boise, 
Idaho, last week who has this exact situation. I was suggesting 
that because of the number of vendors out there for mobile and 
portable radios they ought to go do a competition for the 
price. He said, well, we can't do that because we have to talk 
to everyone else and they all have this encryption. That is 
just one example. There are a lot of examples like that.
    Chairman Wu. So if the encryption is not supported across 
the board, then there is no competition for further sales?
    Mr. Sorley. Correct.
    Chairman Wu. And one surmises that when you are trapped, 
then the vendor might be able to achieve a slightly higher 
price for future sales.
    Mr. Sorley. So let me just illustrate that. In my 
competitive process, I am buying the radio that he wanted to 
buy. I am buying it for around $3,000. He is going to have to 
buy it for around $5,500. That is just an example.
    Chairman Wu. Yes, quite a premium.
    Ms. O'Hara, it is my impression that Zetron, at least in 
certain instances, has been precluded from competing in the 
console business. Is that correct?
    Ms. O'Hara. Yes, sir. Whenever there is a network vendor 
that doesn't provide either the standard interface to our 
consoles or perhaps they might offer a proprietary interface 
that we then have to go do development work for, it means that 
either we cannot or it is a pretty onerous burden for us to 
provide a console on that system. So in many cases customers 
just go with a vendor that is providing the network and their 
proprietary interface, and if today they decide to do that 
because that vendor doesn't have the standards interface and 
later on down the road they decide they have another operation 
and they would like to use our consoles, even if the vendor has 
at that point developed the CSSI, it may not--they may be 
locked in because of the network that they have already 
purchased, sort of like Mr. Sorley mentioned.
    Chairman Wu. And pricing is a function of whether you are 
locked in or not?
    Ms. O'Hara. That is correct, pricing and features, feature 
capabilities which we may be able to offer, and there are 
customers who come to us who know our systems and like what we 
do who say I have no option, and some have delayed their 
purchases as a result of that.
    Chairman Wu. If you want that particular feature, it may 
not be available from a competing vendor?
    Ms. O'Hara. That is correct.
    Chairman Wu. Mr. Sorley.
    Mr. Sorley. If I may amplify that, we are in exactly that 
situation. Our radio system--we could not buy their consoles. 
The console system interfaces with something called fire 
station alerting, and the consoles that we have to buy because 
they are proprietary do not have this interface that we need. 
Their consoles do, but I can't buy them because our vendor 
doesn't support CSSI.
    Chairman Wu. Thank you.
    My five minutes has expired, so let me recognize Ms. 
Biggert, and if we have time, we might go another round of 
questions. Ms. Biggert, please proceed.
    Ms. Biggert. Thank you, Mr. Chairman.
    This question is for all of you. Let us suppose that a 
vendor sold P25 equipment that was proven for interoperability, 
compliance and conformance. If that was the case, wouldn't all 
the public safety agencies want to purchase that equipment, 
thereby advancing that company to the top of the competition? 
How do we design a voluntary standards process that drives 
innovation and competition? Ms. O'Hara, you seem to be smiling.
    Ms. O'Hara. So let me understand. So your question is, if a 
company does provide that standards interface they are going to 
be preferred? And I think that is true. I think the other 
aspect of your question, which is interesting, is whether the 
standard covers all of the capabilities and features that a 
customer may want, and there may be customers who decide that 
they want a proprietary feature and that is their right and 
their ability to do that. They just need to understand that 
unless that vendor offers that proprietary feature or a license 
for that feature to other, say, console manufacturers, they 
will be locked in in the future. I don't believe that it is 
right to tell customers not to buy features, but to Mr. 
Sorley's point, they really need to be well educated on the 
impact of buying a proprietary feature, and if they can have 
influence on the vendor that is providing that feature to 
influence them to offer that capability or interface to other 
vendors, that would be an ideal situation, I think.
    Ms. Biggert. Would anybody else like to address that? Mr. 
Ingram.
    Mr. Ingram. I would just like to add to that point. First 
of all, in my testimony I talked about ARINC as an integrator. 
ARINC is not a product manufacturer. We don't have a dog in the 
fight. We work with everyone. And our point here is to build 
the best solution possible to address the customer needs. But 
oftentimes we do find that some of these proprietary features 
preclude us from selecting the best product available, and that 
is something that is systemic at the core of the system and 
then out to the edges of the system, the radio units 
themselves, the networks, all the devices. We find that the 
manufacturers that we work with typically--it is very important 
for them to be as interoperable as possible, right, because 
they don't build end-to-end solutions so they have to work with 
everyone, so there is a very organic sort of relationship 
between the product manufacturers that we work, ARINC and our 
customers.
    Chairman Wu. Let us be very clear about that. They want to 
fit onto someone else's, but if they get something special, if 
they can keep that to themselves, then it is to their business 
advantage to be able to do that.
    Mr. Ingram. It is to their business advantage to build the 
best product or best component possible, so I will use Zetron 
as an example. They conform to the CSSI standard. They are 
capable of interfacing to any public safety network, P25 
network, that is available. It is to their advantage to be able 
to integrate with any system, as many systems as possible. So 
we view this objectively. We view this almost from a customer's 
perspective. The technology is not the hurdle. It is really the 
standard. And I want to make it very clear. The completion of 
the standard isn't absolutely necessary. The standards are 
developed in stages, right, so you can have a version of a 
standard, version 1, version 1A, version 2, version 3, and 
those standards can be released in ways that manufacturers----
    Ms. Biggert. You talked about being released in 
manageable----
    Mr. Ingram. In manageable phases.
    Ms. Biggert. What do you mean by that?
    Mr. Ingram. Well, there are standards out there like ISSI, 
CSSI and other very important standards that we are waiting for 
as the industry, the market is waiting for the full completion 
of the standard, but it is not absolutely necessary. The 
standards could be released in phases so product manufacturers 
know, okay, I can build up until that point, right, I can 
invest and build up to that point and delivery technology to 
meet up to that certain point within the standard, and as time 
goes on, that component within the standard will evolve to 
include other features of functions or capabilities. So we 
don't have to wait until the end, and I think that has been 
part of the problem with the delay or how long this process has 
taken with P25. We don't have to wait until the end. We can 
release the standard in manageable phases so manufacturers can 
build technologies, and the point is that the customers who are 
receiving that technology won't--that standard will still be 
compliant as it is upgraded so it won't lock them out or lock 
them in to any particular technology.
    Ms. Biggert. Thank you.
    I yield back.
    Chairman Wu. The gentlelady's time has expired.
    This standard-setting process has been extraordinarily 
slow, and I would like to invite this panel to speculate as to 
the causes for the slow process and what the impact of this 
slow process has been on competition, price and safety. Mr. 
Sveda?
    Mr. Sveda. Yes. Thank you. I would like to speak first to 
the success of the process, in particular in that since our 
testing since 2002 that today with the Common Air Interface 
standard published completely, that there is significant 
competition. The competition has creased significant price 
reductions or variations so the competition piece has worked 
now that the Common Air Interface standard has been published 
and manufacturers are building to it.
    Chairman Wu. That is for that piece?
    Mr. Sveda. That piece. Now, when you get to the system 
pieces where we are talking the ISSI and things like that, 
there is where the challenges are. But I wanted to point out a 
success that the system does provide or the process has 
provided us if we could just now speed it up, I guess. Thank 
you.
    Chairman Wu. Mr. Sorley.
    Mr. Sorley. I would like to comment, or speculate, as you 
said, on the possible cause. I think there are a couple of 
things. One, public safety attempted to drive the standard, and 
because of the funding for travel and all kinds of other 
things, public safety's participation has not been as 
consistent as maybe it could have been or perhaps even should 
have been so I think that is partly a contributing factor. The 
other contributing factor is, this marketplace is very small 
and it is dominated mostly by two or three vendors who happen 
to have most of the imbedded business on proprietary systems.
    Chairman Wu. What is the market share, Mr. Sorley?
    Mr. Sorley. I am sorry?
    Chairman Wu. Any idea what the market share is of the two 
or three leading providers?
    Mr. Sorley. I would say between three of them they have 
over 80 percent of the market. And so what motivates----
    Chairman Wu. Let me pause you just for a second here.
    Ms. O'Hara, in the console business that you are competing 
in, for that line of work you said you could compete for three 
but not for four of the vendors. What share of the market do 
those four vendors that----
    Ms. O'Hara. About the same that----
    Chairman Wu. About the same?
    Ms. O'Hara. Yes.
    Chairman Wu. Seventy plus?
    Ms. O'Hara. Yes.
    Chairman Wu. Thank you.
    Please proceed, Mr. Sorley.
    Mr. Sorley. So my point to that was that basically we are 
asking people to cooperatively work together to develop a 
standard that negatively impacts their business.
    Chairman Wu. Because once it is interoperable, then it is a 
commodity product and prices come down?
    Mr. Sorley. Yes. You have new entrants into the market and 
you have lower prices. That is what the goal is, and so if that 
is the goal, why would I want that?
    Chairman Wu. Mr. Sorley, let me ask you this. I have been 
told equipment with a P25 sticker on it is actually sold for a 
premium. Can you explain that to me?
    Mr. Sorley. No, sir, I can't.
    Chairman Wu. Is it that it is allegedly P25-compliant but 
once you are into it, you are supposed to buy P25-compliant 
equipment. The sticker says so, so that is what the federal 
appropriations permits you to buy?
    Mr. Sorley. Yes, sir. Current grant guidance does call for, 
or in effect mandates, P25 equipment.
    Chairman Wu. So you can actually charge more for P25-
compliant equipment that may not be interoperable?
    Mr. Sorley. I am not sure if that is the case. I do know 
that with digital radio and the evolution of radio, there is a 
whole lot more in the box than, say, conventional analog radio. 
So inherently it is going to be higher cost. You know, there 
are many elements, technical elements in there that have to be 
there to guarantee the performance.
    Chairman Wu. But if it says P25, it is supposed to be 
interoperable?
    Mr. Sorley. Yes, sir.
    Chairman Wu. Does anyone know if the grant guidance says 
that you have to buy P25-compliant equipment and then you have 
this equipment that has a P25 sticker on it? At what point does 
it arise to fraud, to fraud on the government that this 
allegedly compliant equipment is not compliant?
    Ms. O'Hara. Well, I will clarify that the interoperability 
grant funding today only applies to the Phase 1 Common Air 
Interface, and indeed today, as I mentioned in my testimony, 
there are many vendors that provide those radios and they do 
work on the network vendor systems, all of the systems, and 
that is where we have talked about is a success.
    Chairman Wu. On the voice. Yes.
    Ms. O'Hara. And where it is not--interoperability funding 
is not dependent on P25 on the system side, and that is the 
second recommendation I made is, let us apply that across the 
board, not just on the radio interface.
    Chairman Wu. And Ms. O'Hara, one of your recommendations is 
that if the standards process does not move forward, that 
federal funding be withheld for any equipment that is not 
compliant?
    Ms. O'Hara. Yes. Basically I am just saying let us apply 
that same logic that was very successful on the CAI side to the 
wireline interfaces as well.
    Chairman Wu. Thank you all very, very much. I am told that 
we are down to just a couple of hundred folks not having voted 
on the Floor, so I am going to have to get over there to 
perform my Floor voting duties, and I want to thank you all for 
appearing before the Subcommittee this afternoon.
    The record will remain open for two weeks for additional 
statements and additions to the record and witnesses to answer 
questions that the Committee may ask. The witnesses are 
excused. Thank you all very, very much for being here this 
afternoon.
    [Whereupon, at 2:50 p.m., the Subcommittee was adjourned.]

                               Appendix:

                              ----------                              


                   Additional Material for the Record


Letters to Chairman David Wu and Representative Adrian Smith from John 
 Suzuki, Senior Vice President of Sales, EF Technologies, Inc., dated 
                           September 22, 2010

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                   

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
